<html>
<title> - U.S POLICY REGARDING NARCOTICS CONTROL IN COLOMBIA</title>
<body><pre>[Senate Hearing 108-236]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-236
 
           U.S POLICY REGARDING NARCOTICS CONTROL IN COLOMBIA
=======================================================================

                                HEARING

                               before the

               CAUCUS ON INTERNATIONAL NARCOTICS CONTROL
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 3, 2003

                               __________

           Printed for the use of the Committee on Narcotics









                      U.S. GOVERNMENT PRINTING OFFICE

87-649                       WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001














           SENATE CAUCUS ON INTERNATIONAL NARCOTICS CONTROL 
                              IN COLOMBIA

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                  Charles E. Grassley, Iowa, Chairman
                  Joseph R. Biden, Delaware, Co-Chair
JEFF SESSIONS, Alabama               BOB GRAHAM, Florida
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
NORM COLEMAN, Minnesota
                     Eric J. Akers, Staff Director
                  Marcia Lee, Minority Staff Director
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 3, 2003.....................................     1

                               Statements

Grassley, Hon. Charles E., U.S. Senator from Iowa................     1
Biden, Hon. Joseph R., U.S. Senator from Delaware, prepared 
  statement......................................................     1
DeWine, Hon. Mike, U.S. Senator from Ohio........................     3
Sessions, Hon. Jeff, U.S. Senator from Alabama...................    43

                               Witnesses

Santos-Calderon, Hon. Francisco, Vice President, Republic of 
  Colombia, Bogota, Colombia.....................................     4
    Prepared sattement...........................................    14
Simons, Paul E., Acting Assistant Secretary, Bureau for 
  International Narcotics and Law Enforcement Affairs, U.S. 
  Department of State, Washington, DC. and J. Curtis Struble, 
  Acting Assistant Secretary for Western Hemisphere Affairs, U.S. 
  Department of State, Washington, DC............................    19
    Prepared statement...........................................    21
Struble, J. Curtis, Acting Assistant Secretary of State, Western 
  Hemisphere Affairs, prepared statement.........................    27
Hill, James T., Commander, U.S. Army, Miami, Florida; accompanied 
  by Marshall Billingslea, Deputy Assistant Secretary of Defense, 
  U.S. Department of Defense, Washington, DC.....................    28
    Prepared statement...........................................    29
Ford, Jess T., Director, International Affairs and Trade, U.S. 
  General Accounting Office, Washington, DC......................    53
    Prepared statement...........................................    55
McLean, Phillip, Senior Fellow and Deputy Director, The Americas 
  Program, Center for Strategic and International Studies, 
  Washington, DC.................................................    65
    Prepared statement...........................................    67

                    Submitted Questions and Answers

Responses by J. Curtis Struble and Paul Simons to Questions 
  Submitted by:..................................................
    Hon. Joseph Biden............................................    73
    Hon. Charles Grassley........................................    78
Colombia Hearing Questions Submitted (Classified Answers Retained 
  in Committee files) to:........................................
    DoD..........................................................    82
    Jess Ford, GAO...............................................    83
    Phillip McLean, CSIS.........................................    83
    General Hill from Senator Biden..............................    83
    State Department.............................................    84


















          U.S. POLICY REGARDING NARCOTICS CONTROL IN COLOMBIA

                              ----------                              


                         TUESDAY, JUNE 3, 2003

                               U.S. Senate,
                 Caucus on International Narcotics Control,
                                                    Washington, DC.
    The Caucus met, pursuant to notice, at 9:32 a.m., in room 
SD-215, Dirksen Senate Office Building, Hon. Charles E. 
Grassley, Chairman of the Caucus, presiding.
    Present: Senators Grassley, DeWine, and Sessions.

        OPENING STATEMENT OF HON. CHARLES E. GRASSLEY, 
                     U.S. SENATOR FROM IOWA

    Chairman Grassley. I thank everybody for their patience, 
although everybody is here on time and we are able to get 
started. I particularly want to acknowledge a lot of people who 
have come a long distance, obviously, the leadership of our 
friend, the country of Colombia, coming so far, as well as our 
people here in the United States who are so integrally involved 
coming from Florida and elsewhere.
    Just in case our ranking minority member, Mr. Biden, is not 
able to be here, he asked that I would put a statement in the 
record for him and we will do that. But if he is able to come 
and he wants some time for his opening, I will obviously be 
very happy to give it to him.
    [The prepared statement of Senator Biden follows:]
           Prepared Statement of Hon. Joseph R. Biden, Jr., 
                       U.S. Senator from Delaware
    Mr. Chairman, thank you for calling this hearing today to examine 
U.S. policy in Colombia.
    We are honored to be joined by Vice President Francisco Santos. The 
Vice President knows all too well the price that Colombia has paid in 
its three-front war against drug traffickers, left-wing guerrillas, and 
right-wing paramilitaries. He was held hostage for nearly 8 months by 
the Medillin cartel in 1990--and he has received numerous death threats 
from the FARC.
    The people of Colombia live with a level of violence that Americans 
cannot comprehend; the bravery that Vice President Santos and his 
colleagues in government have demonstrated in the face of that danger 
is inspiring.
    Three years ago, we renewed our commitment to the Andean region, 
providing funding for Plan Colombia, as well as for counter-narcotics 
programs in Bolivia, Peru, Ecuador, Venezuela and Brazil. Since then, 
we have provided over two billion dollars in assistance to Colombia to 
combat the drug trade and restore the rule of law.
    We have a duty to help in this effort because it is America's 
seemingly insatiable demand for narcotics that has helped fuel the drug 
trade.
    We are beginning to see some results. Last year, there was a 15 
percent decrease in coca cultivation and a 25 percent decrease in opium 
poppy cultivation. This reduced supply has led to a modest decrease in 
purity of both cocaine and heroin on the streets of the United States. 
There is still a long way to go, but this progress is encouraging.
    Unfortunately, we had a setback elsewhere in the Andean region, 
with coca cultivation increasing by 8 percent in Peru and 23 percent in 
Bolivia in 2002. We must do more to help Colombia's neighbors guard 
against the so-called ``balloon effect''. And to successfully counter 
the drug trade in the entire region, we must have a three-pronged 
strategy: eradication, interdiction, and alternative economic 
opportunities.
    Several other elements of our policy in Colombia bear emphasis.
    First, human rights. According to the most recent State Department 
report, in 2002:

          ``The [Colombian] Government's human rights record remained 
        poor . . . A small percentage of total human rights abuses 
        reported were attributed to State security forces; however, 
        some members of the government security forces continued to 
        commit serious abuses, including unlawful and extrajudicial 
        killings. Some members of the security forces collaborated with 
        paramilitary groups that committed serious abuses. Impunity 
        remained at the core of the country's human rights problems.''

    I know that the Vice President, and President Uribe are committed 
to improving human rights. But the message is still not getting through 
to all levels of the military. We need to see more improvements.
    Second, last year Congress changed the law to allow Colombia to use 
equipment we have provided for other than counter-narcotics purposes. 
This recognizes the reality that Colombia's illegal groups are all 
involved in the drug trade. But we must be sure that this change in 
authority does result in a major change in focus: our priority must 
continue to be fighting the drug trade.
    Finally, we must make sure that our other commitments abroad do not 
distract us from our promise to help Colombia and its neighbors. 
There's a lot on the foreign policy agenda. But we have a lot at stake 
in the Andes, and we owe it to our neighbors to help.
    The Administration has done a good job in Colombia, but the 
Secretary of State cannot be focused on every world problem 
simultaneously. He needs some lieutenants. Unfortunately, the Narcotics 
Bureau at the State Department has not had a confirmed Assistant 
Secretary since August, and as yet no successor has been nominated. I 
urge the Administration to send us a nominee as soon as possible.
    I look forward to hearing from our distinguished witnesses this 
morning, and having a frank discussion with them about the progress we 
are making and the road ahead.

    Chairman Grassley. Today, we are going to examine the 
current status of events in Colombia. The United States has a 
particular interest in the stability and future of Colombia 
because it is both one of the oldest democracies in our 
hemisphere as well as the home to three terrorist groups, each 
of whom get a significant amount of their operational funds 
from drugs smuggled into the United States.
    With illegal drugs grown and shipped from Colombia killing 
Americans everyday and the sale of these drugs funding 
terrorists who are killing Colombians everyday, it is in the 
interest of both the country of Colombia and our Nation to work 
together to eliminate drug production and trafficking in 
Colombia.
    This past year has seen a very significant increase in the 
tempo of activities in Colombia, which has resulted in some of 
the successes we will hear today. But we obviously still have a 
long way to go, as we all know. This fight is by no means over, 
and I hope that we won't let these first signs of success 
distract us from the long road ahead. Today's hearing will 
highlight several aspects of the situation in Colombia and the 
nature of objectives of assistance that we are providing.
    The last year has been a tumultuous one for the country of 
Colombia. Rapidly evolving events make maintaining a clear 
course of action even more difficult. The most recent 
developments stem from former Colombian President Pastrana's 
decision to give up on 4 years of attempted negotiations with 
the FARC and end the Despeje territory, which had been created 
in an attempt to bring the FARC to the negotiating table.
    Negotiating a peace with the FARC has been a cornerstone of 
the Pastrana presidency, but his efforts were ultimately 
frustrated by the FARC's reluctance to negotiate seriously. The 
failure to find a peaceful solution meant a new approach to the 
problem had to be found.
    The people of Colombia demonstrated their resolve to take a 
new approach in confronting terrorist groups through the 
overwhelming election of President Uribe and of our first 
witness this morning, Vice President Santos. Elected in the 
first round by a significant margin over the nearest 
competitor, the President and Vice President face significant 
pressure to quickly fulfill their campaign promises, a pressure 
that we all understand and about which I am sure our first 
witness is well aware.
    For the United States, eliminating coca production in 
Colombia is a longstanding goal of our National Drug Control 
Strategy. Opium poppy cultivation is a more recent development, 
but its elimination is also in our strategy.
    Working in close cooperation with the Government of 
Colombia, we have finally been able to get ahead of production 
this past year. According to the most recent cultivation 
surveys, coca production in Colombia was down 15 percent from 
2001 and opium poppy production was down close to 25 percent. 
United Nations estimates show an even bigger reduction in the 
coca crop, so it seems that we are making some progress.
    President Uribe has made it his goal to eliminate all coca 
production within Colombia by August 2006. This is a laudable 
goal that the United States is willing to and should support. 
Eliminating coca and poppy production is important not only 
because of the tremendous damage that these poisons do to 
users, but because of the important role they play as a funding 
source for terrorist organizations operating in Colombia. I 
hope today's testimony by our second panel of witnesses will 
shed additional light on what steps are necessary.
    Does Senate DeWine have anything he wants to say in an 
opening statement before I introduce the Vice President?

          STATEMENT OF HON. MIKE DeWINE, U.S. SENATOR 
                           FROM OHIO

    Senator DeWine. Well, Mr. Chairman, I will be very brief. I 
want to thank you very much for holding this very important 
hearing. The witnesses that you have lined up are very 
impressive.
    Mr. Vice President, thank you very much for joining us here 
today.
    Mr. Chairman, I have had an opportunity to travel to 
Colombia on a number of occasions. We all have an interest in 
Colombia. I had a chance to meet with President Uribe a few 
months ago in Colombia and talk with him about the problems of 
Colombia.
    This is a country that is in our own backyard. It is one of 
the oldest democracies in our hemisphere. It is a country that 
is, as we all know, a struggling country that is struggling 
against the narco-terrorists. And if we cannot assist a country 
such as Colombia that is fighting terrorism in our own 
backyard, then obviously we can't do it anywhere in the world. 
And we are doing it; we are trying to help Colombia.
    The importance of Colombia to the United States, I think, 
is obvious. This is a country that is engaged with us in a 
common struggle against not only terrorism, but a common 
struggle against the drug dealers. We are the consumers of 
drugs. Colombia is a producer of drugs. So we have a common 
problem and we both recognize that problem and we are working 
together. Our hearing today, of course, is to see where we are 
in that common struggle, and to evaluate that and to see where 
we need to go from here.
    So, Mr. Chairman, I thank you for holding this very, very 
important hearing, and I thank our witnesses, who all are on 
the front line in this struggle, for being here today and I 
look forward to their testimony.
    Chairman Grassley. Our first witness obviously, as I 
mentioned, is the Vice President, Francisco Santos, and he was 
elected with the present administration in May of 2002. The 
election of the Vice President is his most recent of a long 
string of initiatives that Mr. Santos has undertaken to improve 
the lives of all Colombians.
    Previously, he was editor of El Tiempo, Colombia's largest 
newspaper, and in weekly columns there often speaking out 
against kidnappings and massacres, and calling upon the civil 
society to take a more active role in finding peaceful 
solutions to facing the problems of Colombia.
    He has stridently condemned murderous acts, whether they 
come from the extreme left or the extreme right, and obviously 
has been a target of drug traffickers. He was, in fact, 
kidnapped by Pablo Escobar, then-leader of the Medellin drug 
cartel. He also, with 10 other journalists, was held then for 
nearly 8 months in the unsuccessful attempt to extort a promise 
from the Colombian Government not to extradite drug traffickers 
to the United States.
    After being released, he spent a year at Harvard University 
as a Nyman Fellow, and then returned to Bogota, finding 
publications that would assist the victims of kidnappings and 
their families, and the organizations to back it up.
    So he has been in the middle and suffered as a result of 
his crusades for freedom and for better living conditions for 
people in Colombia. So we are privileged to have the Vice 
President here, and I thank you very much for your testimony.
    Proceed.

 STATEMENT OF HON. FRANCISCO SANTOS-CALDERON, VICE PRESIDENT, 
             REPUBLIC OF COLOMBIA, BOGOTA, COLOMBIA

    Vice President Santos-Calderon. Good morning, Chairman 
Grassley, Senator DeWine, and distinguished members of the 
Caucus. I appreciate the opportunity to meet with you today to 
discuss the significant progress both our countries are making 
in the war against narco-terrorism. I have prepared a statement 
for the record which I will summarize in the next few minutes.
    Let me start by painting a broad picture of the situation 
in Colombia today. My country remains one of the most dangerous 
places in the world. As we have taken the fight to the 
traffickers, they have responded with increasing violence 
across the country. We are not just fighting disparate networks 
of drug traffickers, but powerful terrorist groups who target 
primarily civilians.
    The fight has moved from rural, isolated regions of the 
country to our largest cities. It has shifted from random acts 
of violence to sophisticated and coordinated attacks. The 
conflict is becoming increasingly regionalized, as illegal 
actors use Colombia's borders to escape our reach.
    More than 8,000 acts of terror have been committed against 
the Colombian people over the past 5 years, more than the 
combined acts of terror committed worldwide during this period. 
Colombia suffers 30,000 violent deaths every year, equal to 10 
times the victims who died on September 11 every year.
    About 2,600 Colombians are kidnapped every year. Children 
are forced to fight for the illegal groups. Every type of 
economic infrastructure--roads, bridges, power lines, telephone 
towers, reservoirs, and all pipelines--has been targeted, 
costing billions of dollars and disrupting millions of lives. 
More than 1 million Colombians have been displaced by the 
violence of the drug terrorist organizations.
    How have we responded to the situation in our first 9 
months in office? The Uribe administration is implementing a 
multi-track fight against the illegal drug trade. This involves 
eradication of illegal crops, interdiction, destruction of 
narco-trafficking infrastructure and seizing their assets, 
military and police action against traffickers, and law 
enforcement and judicial cooperation. All these efforts are 
directed to a single goal: zero tolerance for drug trafficking 
and total eradication of this activity in Colombia by the year 
2006.
    We have already had positive results to demonstrate in each 
of these areas. A record level of illegal coca crops were 
sprayed last year. We sprayed 130,000 hectares of coca. This 
area of land is equivalent to 524 square miles, or 7.5 times 
the size of the District of Columbia. This spraying reduced 
Colombia's coca crop by 30 percent for the first time in 10 
years.
    We have sprayed an additional 65,000 hectares since January 
2003, and we hope we will be able to achieve our goal of 
spraying more than 150,000 hectares this year. Our aerial 
spraying campaign is also targeting illegal poppy crops. We 
have sprayed 3,300 hectares in 2002, and so far this year we 
have sprayed 1,658 hectares.
    We seized a record amount of illegal drugs. From January 
2002 to the present, we have interdicted more than 100 tons of 
pure cocaine and 850 kilos of heroin. The street value of these 
drugs is more than $3 billion, but these drugs will never reach 
America's streets.
    With a better trained and equipped military and police, we 
have targeted narco-terrorists with greater success. Last year, 
3,553 guerrillas and 1,336 members of the self-defense groups 
were captured. An additional 1,138 members of these illegal 
groups have turned themselves in. We have seized over 4,000 
weapons, arms that would have been used to perpetuate violence 
against our citizens.
    Our anti-narcotics brigades, trained and equipped by the 
United States, have located and destroyed dozens of cocaine-
producing laboratories and other drug-trafficking 
infrastructure. In just one 2-week period in May, a brigade 
destroyed 16 coca labs in the State of Narino. Since assuming 
office last year, the Uribe government has extradited 78 
Colombians to the United States to face justice here for narco-
terrorist crimes.
    Senators Plan Colombia is working. These results have been 
realized because the Uribe government is committed to taking 
the fight directly to the drug terrorists. But it is also the 
result of military, economic and social assistance provided by 
the United States and the extraordinary level of cooperation 
between our two governments.
    This cooperation that started under the Pastrana and 
Clinton administrations has continued between President Bush 
and President Uribe, but it also extends to many thousand 
Colombians and Americans who are today working side by side to 
defeat narco-terrorism wherever it exists and whenever it 
strikes.
    Plan Colombia is working for several reasons. First, it was 
developed in a bipartisan manner, and bipartisan support has 
enabled it to be implemented thoroughly. Second, it required a 
commitment by both our countries to combine our resources and 
share the burden that this activity inflicts in both of our 
societies.
    Third, we have both invested significant funds. To date, 
the United States has provided $1.7 billion in military, 
economic and humanitarian assistance. The Colombian Government 
has spent nearly $4 billion of our own funds in support of Plan 
Colombia.
    Our recent effort to more aggressively target illegal 
groups is reducing the level of violence in Colombia. During 
the first months of this year, homicides were down by 20 
percent, compared to the same period in 2002. Kidnappings were 
down 40 percent over the same period.
    We are investing significant resources to restore law and 
order throughout the country. Defense spending will rise from 
3.5 to 5.8 percent of GDP during President Uribe's 4-year term. 
The armed forces will be enlarged by 126,000 troops. Already, 
there is a greater police and military presence on Colombia's 
rural highways and roads. This is critical for commercial 
activity and for tourism and public safety.
    In addition, we are this year training and equipping 27,000 
new police officers who are being stationed in 170 rural towns 
where there is no police at all and in 260 rural towns that 
have less than 10 policemen each. The bottom line is this: We 
are making Colombia a safer country day by day, road by road, 
town by town. We are committed to this effort because we know 
narco-terrorist violence affects all Colombians, rich and poor, 
urban and rural, powerful and ordinary citizens.
    President Uribe and I have not been exempt from it. Our 
inaugural ceremony last year was targeted by a FARC missile 
attack. The President's father was kidnapped and assassinated 
by the FARC in the 1980's. I was kidnapped by Pablo Escobar and 
held captive for 8 months in 1990. My brother-in-law was killed 
by a bomb that Pablo Escobar put in an airplane.
    Nearly every member of President Uribe's Cabinet has lost a 
family member or a close relative in this violence. Governors, 
mayors, congressmen, labor leaders, soldiers, policemen, human 
rights workers and journalists, all brave citizens fighting to 
take back our country from those illegal organizations, have 
been murdered.
    For President Uribe and myself, defeating terrorism is not 
just a policy. It is a total commitment. We know the 
destruction that drugs and violence inflict not just on our 
country, but on our families and loved ones. To end the cycle 
of drugs and violence, we need continued support and 
cooperation from the United States and the international 
community.
    We are benefiting from American technology, intelligence, 
training, and financial assistance. We offer in return our full 
commitment and energy to learn, to execute, to cooperate, and 
to achieve the results both our countries desired. Colombia's 
strength is its national resilience in the face of adversity. 
We move forward, propelled by our determination and the help of 
allies like the United States to a more promising future.
    Thank you.
    Chairman Grassley. Well, thank you, Mr. Vice President. The 
two of us would have a few questions to ask you, and I might 
make an announcement for you as well as for other panels as 
well.
    Particularly on Tuesdays, there are a lot of committee 
meetings and members might not be able to come to all these 
hearings. So you might get questions in writing from members 
who can't be here or even from those of us who are here, and we 
would appreciate responses in about a 2\1/2\-week period of 
time, if you do get questions in writing.
    First of all, Mr. Vice President, you were very positive 
from your point of view about Plan Colombia working, and I am 
very happy to hear that sort of positive response and, of 
course, that is what this hearing is basically about.
    Are there any shortcomings in Plan Colombia that you would 
want to point out to Members of the U.S. Congress?
    Vice President Santos-Calderon. No. At this point in time, 
I think the most important thing is to maintain the level of 
assistance. Obviously, we are going into new areas where our 
planes are being hit tremendously, the spraying planes, the 
helicopters.
    Right now, we have moved to the southern part of the 
Bolivia region, to other regions, and the anti-narcotics 
battalions are going to be moved there. So we think that will 
improve the situation. But certainly, as we move more 
aggressively in more areas, we are taking hits on those planes 
in a more massive manner than we did before. But with the level 
of assistance that right now is being provided, we think that 
our goal of eradicating drugs and cultivation in the year 2006 
will be able to be met.
    Chairman Grassley. I would like to have you describe for me 
the support that your administration has received from 
Colombian citizens for its fight against drug trafficking and 
terrorism. Obviously, I presume that those that are outside of 
what you might call the drug-growing areas or the areas not so 
close to the FARC and other organizations obviously would 
welcome the sort of aggressive action you are taking.
    But the extent to which you could quantify that support, 
more important if there is any way you can describe support 
from those whose lives are closer to the regions where fighting 
might be going on, that would be helpful.
    Vice President Santos-Calderon. President Uribe and his 
administration have had a very, very clear discourse in regard 
to defeating drugs. That is why Colombians elected us, and in 
that sense we have been very, very clear with Colombian society 
about what our goals are.
    And we have backed up that discourse with action. We have 
told drug barons that they are going to be extradited and we 
have extradited them, that they are going to be attacked and 
they have been attacked, that we are going to seize their 
assets, and in the latest action we seized 6,000 hectares of 
land that is going to go to displaced peasants.
    We have told the peasants who are involved in drug 
trafficking that an illegal hectare of crop is an illegal 
hectare of crop, and that we are going to eradicate it. In that 
sense, what we have seen is that more and more of the peasants 
that have been displaced from those areas are going back to the 
traditional agricultural areas where they used to be.
    We are protecting some crops so that they can go back to 
the places and be able to have a sustainable income. Our growth 
in cotton is very impressive, and cotton in Colombia generates 
a lot of rural employment. We are trying to protect coffee, 
also, that generates employment.
    So what we have seen is that our security policy has been 
able to absorb those peasants that moved out of the traditional 
cultivation areas into coca areas, and the growth of the 
agricultural economy is pretty impressive. So in that sense, by 
protecting the rural areas, we have been able to generate the 
employment that our poppy and coca spraying campaigns have 
generated in other areas.
    President Uribe's popularity, according to sources, is 
around 65 to 70 percent, and in that sense it shows that 
Colombians are fed up with violence, that Colombians want this 
to end, and I think have supported the President in a way that 
sometimes we didn't expect it was going to be as high as it is.
    We have been very transparent with the Colombian population 
about what we are doing. We have accepted the mistakes that 
sometimes the policy can have. We are willing to correct them, 
but what we have been very clear on is that our zero-tolerance 
policy toward drugs is non-negotiable, non-negotiable because 
it is a national security matter.
    If we eradicate drugs, we will take the main fueling agent 
of the conflict and we will be able to defeat easier the drug 
terrorist organizations that are killing all those Colombians 
and that are destroying a lot of the infrastructure and that 
are displacing Colombians. So Colombians who voted for us to 
recuperate security, that is what they are getting and they are 
pretty happy about it.
    Chairman Grassley. Even though your administration is less 
than a year old, have you seen, and if you have seen any 
changes in terrorist organization functioning, how they 
function or what they accomplish compared to before--in other 
words, as a result of your administration's actions, any sorts 
of changes that have taken place that you actually see within 
the last few months.
    Vice President Santos-Calderon. Yes, we can foresee a 
couple of changes which are pretty important. The first one is 
that the FARC, which used to be a very conservative 
organization in terms of military development, has gone 
shopping in the world, has bought technology from different 
terrorist groups and has used it.
    Last year, we lost, I think, 15 explosives experts because 
they bought technology from a terrorist organization and they 
learned very quickly how to put bombs in a different manner and 
our explosives experts didn't know it was being done. The 
attack on the 7th of August was technology also bought from a 
terrorist organization.
    So we can foresee the FARC to use more efficient methods of 
terrorism, to look for it, to shop around the world not only 
for technology, but knowledge too. And they have urbanized the 
conflict, so we can foresee a lot more terrorist activities in 
regard to the conflict, terrorist activities in the large urban 
areas.
    In the past 8 months, our police have seized in Bogota, the 
capital, more than five tons of explosives. Our police have 
done a very good job. Unfortunately, we can't stop them all and 
we had the Nogal incident, but they really want to take 
terrorism into the urban areas.
    The second thing is that our attacks against the 
paramilitaries and the drug traffickers have been so strong, 
and will be even stronger in the future, that you can foresee 
the most radical elements of those organizations working 
together with the FARC in order to destabilize the country and 
in order to make more efficient the terrorist war.
    Drug traffickers fish in turbulent waters, and the more 
order we have, the less they will be effective in promoting 
their business. So I would foresee, and I think it wouldn't be 
a strange thing if those radical elements come together and 
move efficiently in some areas. The FARC and the paramilitaries 
are starting to share the business, the coca business. So you 
are starting to see some signals that are very worrisome and 
that will require the Colombian army and the Colombian police 
to combat them even stronger.
    The other thing that I think will be worrisome--and I know 
this might be in the future--the FARC has become a more 
fearless type of organization. Their political elements are in 
the back seat. A lot of the political figures who grew out of 
the organizations have been taken away of positions of power. 
And the FARC has created an organization that is very efficient 
because it promotes those who get more money and are more 
violence-oriented, produce more results.
    And in that sense, what you foresee is an organization that 
has less restraints and will look for allies all over the 
world. I think that in the future, when they feel weak--and 
when they feel weak, they react very violently. That is the 
pattern they have had. I am worried that they might use 
different types of weapons of mass destruction.
    They have gotten involved in the water reservoirs, which is 
very dangerous. So I foresee for the near future that our 
successes will make the FARC more violent, more prone to get 
allies in the international community of terrorists and looking 
for new ways of generating terror in Colombia.
    Chairman Grassley. My last question would be in regard to--
I don't know whether this would be a fair measure of your 
continuing success, but I would see that in previous attempts 
that maybe the average citizen in Colombia would be fearful of 
helping the government in any way, with information or any 
other way, against drug traffickers. But with an aggressive 
administration, you might see the average citizen moving to 
help the government and the police and the military to a 
greater extent without feeling their lives were maybe so 
jeopardized as otherwise.
    Are you seeing any movement in that direction of the 
average citizen being less fearful and more willing to 
cooperate with the government against FARC and other 
organizations, or is that still pretty much a difficult thing 
for the average citizen to be involved with?
    Vice President Santos-Calderon. That certainly has been the 
case. The population more and more is cooperating with the 
policy, with the army, and with the government. We are seeing 
it all over the country.
    As I said before, in 170 towns we are going to get back a 
pretty important contingent of soldiers and policemen, between 
50 and 100. In the 90 towns where we have put them back so far, 
they are received like heroes. They say finally you are taking 
away this terror that we used to live in. What people want is 
authority, State legal authority, to be imposed and to get back 
to being able to live successfully.
    Our policy of recuperating the roads has been a major 
success. Before, you used to be incarcerated in the cities. You 
know, you were so worried that you left the cities and you were 
kidnapped. Our internal tourism was practically dead, and that 
has generated huge popular support because people immediately 
realized that authority imposed with respect for human rights, 
but authority nonetheless can benefit the citizens.
    The past Easter where there was a big vacation, more than 8 
million Colombians took to the roads again. We hadn't seen that 
in the past 7 years. So all those small steps have made people 
believe in authority again, have made people believe in the 
government again. And certainly without their help, we wouldn't 
be able to stop a lot of the terrorist actions we have been 
able to stop.
    The army and the police have responded very quickly to tips 
from the citizens, which didn't used to happen. So there is a 
trust that is starting to grow immensely. In polls that have 
been made by independent organizations, newspapers, et cetera, 
the No. 1 institution in trust and popularity in Colombia is 
the armed forces. That is a process that has helped, certainly, 
the cooperation of citizens with the government.
    Chairman Grassley. I thank you for your testimony and thank 
you for answering questions.
    I now turn to Senator DeWine.
    Senator DeWine. Thank you, Mr. Chairman.
    Mr. Vice President, you have really touched upon this, but 
I want to get into it just a little bit more. You really have 
entered a new phase of this war with the guerrillas, the FARC, 
moving into the urban areas. This is obviously a calculated 
effort to bring terror to the middle class, terror to the urban 
areas, to Bogota and the other major cities.
    What impact has this had, do you think, on the people in 
the urban areas so far? I mean, this was an attempt that was 
made years ago by the drug dealers with some success, actually, 
in the past. How are you going to keep this from happening 
again? What has been the reaction of the people in Bogota? The 
people in Cartagena and people in the other urban centers--what 
has been their reaction?
    Vice President Santos-Calderon. You know, certainly, for 
example, the bomb that they put in the club where they killed 
37 persons and more than 100 were injured, it hurt us. You have 
to recognize it, you know, and people get scared.
    But what we felt immediately was that after the initial 
reaction, Colombians citizens toughened up and said, ``You 
know, we know this is the price we have to pay''. So you have a 
population that has lived through all that and is tougher than 
ever, which doesn't mean that we don't have to really improve 
our intelligence and try to avoid those types of acts.
    As a matter of fact, with the help of U.S. Government 
intelligence, informants, and work which we are doing in a very 
coordinated way, the police have stopped many, many incidents 
like those in Bogota, in Medellin, in Cali, and in other 
cities. The work has been quite impressive. The results are 
very, very good in stopping terrorist acts.
    But unfortunately, with one that you can stop, a lot of 
that policy gets not stopped, but people get frightened and 
questioned. But I think the leadership of President Uribe that 
he established after the bombing accident and that was 
reflected in a phrase he said in a speech after that that said 
that Colombians are crying but they will not surrender--that is 
the feeling of the country right now.
    And the support for security policy, even though it suffers 
a little bit with those incidents--I think we have gone a long 
way from the early 1990's when car bombs in the cities and 
terrorism almost put Colombian society to its knees. We have 
learned a lesson and we know that we are going to pay some more 
prices, some really high prices in this fight against 
terrorists, but we are willing to do it and so far we have the 
support of Colombian society.
    Senator DeWine. Mr. Vice President, in both your written 
testimony and your oral testimony, you have really, I think, 
done a good job in helping us understand the human cost of 
narcotics production and trafficking in Colombia. While most 
Americans understand the toll that cocaine and heroin take on 
our own young people, I venture to say that few Americans are 
really aware of the toll that narcotics take on the children of 
Colombia.
    As noted in a human rights report recently released by our 
own State Department, children are often caught in a crossfire. 
For example, last June a crossfire between paramilitaries and a 
mixed contingent of FARC and ELN fighters killed a 7-year-old 
boy outside that little boy's home in Colombia. In September, 
three children in Bogota were killed when the grenade with 
which they were playing exploded. The grenade apparently had 
been discarded by members of the FARC urban militia that 
operated in that neighborhood.
    An estimated 12,000 to 15,000 children were members of 
illegal armed groups, both paramilitary and guerrilla. The 
Roman Catholic Church has reported that FARC used its freedom 
and its former safe haven to lure or force children into its 
ranks, which you have already talked about. Children who have 
deserted from the FARC have reported that local guerrilla 
commanders threatened to kill their families should they desert 
or attempt to do so.
    Let me ask you, could you further describe the impact that 
narco-terrorism is having on your country's young people, or 
maybe give us some personal perspective on this aspect of the 
conflict? Will you expand on what you have already talked about 
a little bit?
    Vice President Santos-Calderon. Drug trafficking fuels 
Colombia's war. It finances the paramilitaries, it finances the 
FARC, and the alien which didn't used to get its finances from 
drug trafficking now is involved in the business.
    All those three organizations, especially the first two of 
them, are involved in all aspects of the business, not only 
protecting crops, not only protecting labs, but now they are 
involved in all the ladder of the drug trafficking business. 
That provides between $300 and $500 million to those terrorist 
organizations. If Al-Qaeda had that kind of money, I don't want 
to even think what they could do.
    We need to take that money away from them. That money has 
allowed them to grow, to buy technology. The FARC 10 years ago, 
15 years ago, was a 3- to 4,000-member army. Now, they have 
17,000, all financed from drugs.
    I will give you a perspective of what is happening. We have 
15 members of Congress kidnapped. The head of the human rights 
commission is kidnapped. The head of the peace commission of 
the senate is kidnapped. A Governor was just killed. They have 
a former Governor kidnapped. They have a Presidential candidate 
kidnapped. They had two former ministers kidnapped. They tried 
to kidnap a bishop. Last year, they killed 90 council members. 
They have 18 State assembly members kidnapped.
    The Colombian government has a President, as I said before, 
whose father was kidnapped and killed. The interior minister, 
his father was kidnapped and was released. The education 
minister has a brother who was kidnapped by the FARC, killed, 
and now has a brother that is kidnapped.
    The prosecutor general's wife, which was a former culture 
minister, was kidnapped and she was murdered. The minister of 
agriculture, his son used to work for the crop substitution 
program and he was killed in a plane crash when he was going to 
a region.
    Obviously, I was kidnapped. I had to leave the country in 
the year 2000 because of threats by the FARC. In the bombing of 
El Nogal, I lost a very good friend, and my 9-year-old daughter 
had to go the funeral of a school friend that died from that 
bomb.
    When you look at the amount of displaced people, it is a 
horrendous humanitarian problem. The AUC, the paramilitaries 
and the FARC use displacement as a military weapon, a 
territorial control weapon. They are using displacement in 
their barbaric types of tactics and we have between 1 and 1.5 
million Colombians displaced by those organizations.
    If we don't destroy crops and eliminate drug trafficking 
from Colombia, we will not be able to destroy those 
organizations. Therefore, we have to combat them with 
everything we have, and there is an element that also generates 
immense problems and it has to do with children in the 
conflict.
    The AUC, the FARC and the ELN, more than 30 percent of 
their members are children between the ages of 10 and 15 years 
old. What we are seeing in the massive desertions is a lot of 
those children want to leave those organizations and we have a 
special program designed with our institution to protect 
children, the ICBF, the Colombian Institution for Children's 
Benefits, to protect them and we have a special program. But 
that is another element of it.
    I will give you a personal story. I had somebody who worked 
with me. When I had to leave for Spain, she went back to her 
town, which was in the highlands, and she went just 3 months 
ago and told me a horrendous story about what was happening in 
her region.
    She had left because the FARC had come and wanted to take 
her children, to recruit them, to force recruitment. So she 
left everything and went to Bogota, and what she told me was 
not only that the FARC was doing that--and what we have been 
able to see is that forced recruitment of children is the No. 1 
cause of displacement. People would rather leave their area 
than give their children to the FARC, to the paramilitaries, or 
to the ELN. So that is also complicating the social scenery and 
the humanitarian tragedy that these terrorist groups are 
generating.
    So in all areas of Colombian society, you see the drug-
financing terrorist activities affecting Colombian society, 
affecting broader elements of Colombian families. And the 
hindering of social development is also an element that this 
conflict is generating.
    Senator DeWine. Mr. Vice President, that is a chilling 
description, I think, of the price that your country is paying 
and what the FARC and the ELN and the paramilitaries are doing 
to your country. I appreciate hearing this and I think it is 
something that the American people need to understand and I 
think it was a very eloquent description.
    I have been very impressed by your government. As I said, I 
had the opportunity several months ago to meet with President 
Uribe in Cartagena and discussed with him the situation for 
about an hour-and-a-half. It was at a time shortly after some 
additional attempts on his life and I was impressed by his 
courage and his tenacity and his determination to do what was 
necessary to hang in there and to fight back against the 
terrorists.
    So we appreciate your coming and we appreciate your 
testimony.
    Thank you, Mr. Chairman.
    Chairman Grassley. Mr. Vice President, I don't have any 
other questions, but we obviously are going to monitor this 
situation and continue to lend what help we can and encourage 
you all we can. I hope that you will free to stay in touch with 
this group that we call the International Narcotics Control 
Caucus, the group that is holding this meeting, on how we can 
be helpful.
    We have been very impressed with the leadership that you 
send representing your country here in Washington, DC. They 
keep in touch with us on a regular basis. We consider them 
friends and we want you to be very successful. Thank you very 
much.
    You are welcome to stay if you want to sit in the audience 
for the rest of the day, if you want to. I know you are 
probably very busy, but you would be welcome to stay if you 
want to stay.
    Vice President Santos-Calderon. Thank you very much.
    [The prepared statement of Vice President Santos-Calderon 
follows:]
         Prepared Statement of Hon. Francisco Santos-Calderon, 
                       Vice President of Colombia
    Good morning Chairman Grassley, Senator Biden and distinguished 
members of the Caucus.
    It is an honor to be here today and have a chance to report on the 
progress that has been possible thanks to the support and cooperation 
of both this Congress and the Government of the United States. Thanks 
to U.S.-Colombia collaborative efforts we have made significant 
progress in building democratic security in Colombia and begun to show 
increasing results in successfully combating narcoterrorism.
                        i. a successful alliance
    Through Plan Colombia the U.S. became more immersed and committed 
to the fight against drugs. Less than 3 years into its implementation, 
this strategy has demonstrated greater results than any other strategy 
previously attempted.
    President Alvaro Uribe's commitment is clear: zero tolerance for 
drug-trafficking. One of Colombia's main goals is the total eradication 
coca and opium poppy cultivation and trafficking by the year 2006.
    Since year 2000, U.S. Congress has provided us over $1.7 billion 
dollars in economic, humanitarian and security aid. The alliance 
between our governments enables us to address common objectives such as 
combating drug trafficking and terrorism. The narco-terrorist threat 
affects both our countries and our joint efforts to combat it will 
improve the security of the U.S. and Colombia and provide stability to 
the entire Andean region.
    Together, we have made considerable progress.
    <bullet> Aerial spraying: In 2002, we sprayed 130,363 hectares of 
coca. According to the United Nations, this represents a 30 percent 
reduction of total coca cultivation. It is the largest number of 
hectares sprayed and the steepest decline of coca cultivation. So far 
this year we have sprayed over 65,000 hectares. By the end 2003 we 
expect to eradicate 50 percent of all illicit coca cultivation.
    <bullet> Interdiction: We have also made significant progress in 
seizing illegal drugs. From January 1, 2002 to the present we 
interdicted over 110 tons of pure cocaine, most of this in cooperation 
with the United States. In the same time period, we confiscated more 
than 850 kilos of heroin. We destroyed more than 225 cocaine production 
laboratories.
    <bullet> Coca production: Since every hectare of coca is equivalent 
to 3.9 to 4.3 kilos of cocaine, our spraying strategy succeeded in 
removing more than 150 tons of pure cocaine off the market last year. 
This result, together with interdiction successes, represents 260 tons 
of cocaine that did not reach the U.S. or the world market.
    <bullet> Heroin production: As for heroine, a serious and growing 
threat to the United States, we achieved a net reduction of 25 percent 
in opium poppy cultivation in 2002 alone. Our spray teams, trained and 
assisted by the United States, sprayed over 3,300 hectares last year 
and, we have already sprayed 1,658 hectares this year. This is another 
area of considerable progress, taking into account that, according to 
CNC estimates, Colombia currently has approximately 4,900 hectares of 
poppy plantations. As a positive consequence of the these efforts, from 
2001 to 2002, the purity of heroin in the United States fell by an 
average of 6 percent, according to DEA estimates.
    When the Colombian Army Counter Drug (CD) Brigade began its 
operations in 2001, it focused on the southern region of Colombia, 
especially in the Department of Putumayo. This State was at that time 
the heart of the Colombia coca cultivation. Trained and supported by 
the United States, the Brigade achieved impressive results. They 
located and destroyed dozens of cocaine production laboratories and 
other drug trafficking infrastructure, including oil refineries used by 
the FARC to produce cocaine base. As a consequence, the narco-
trafficking organizations have transferred their activities to other 
regions of the country, mainly the Pacific Coast Department of Narino.
    In late 2002, the Uribe administration restructured the CD Brigade. 
It was transferred from the Joint Task Force South and placed under 
Colombian Army command with the mission to attack high-value narco-
terrorist targets throughout the country. It also received advanced 
training from United States Army Special Forces. These changes gave new 
strength to the fight against narco-trafficking organizations. In May, 
the Government deployed a battalion of the Brigade to attack the drug 
industry in Narino: in only 2 weeks a CD Brigade-led joint operation 
with the Colombian Navy and National Police destroyed 16 cocaine-
producing laboratories and confiscated a ton of pure cocaine alkaloid.
    In light of the results of our successful alliance, it is easy to 
understand what the Director of the Office of National Drug Control 
Policy (ONDCP), John P. Walters, said recently:

          ``President Uribe has achieved major successes against the 
        illicit drug trade. Reductions in drug production in Colombia 
        will mean fewer drugs on American streets. We intend to remain 
        a solid partner with Colombia as they fight against a drug 
        industry that inflicts damage on both of our nations.''

    You know as well as we do there were many skeptics that Plan 
Colombia would succeed in reducing drug trafficking. These 
accomplishments, which are just a few from a long list of successful 
missions undertaken in cooperation with the U.S., speak for themselves. 
We have proven non-believers wrong and the Uribe administration assures 
you we will eradicate drugs from Colombia. To successfully accomplish 
this mission our partnership with the United States is vital.
                  ii. narco-trafficking and terrorism
    Terrorism continues in Colombia. Here are just 3 of the 361 acts of 
terrorism suffered by Colombia during the first 4 months of 2003:
    <bullet> On Friday, February 14, 2003, a patrol of the 
Revolutionary Armed Forces of Colombia (FARC)--one of the State 
Department's designated Foreign Terrorist Organizations (FTO)--fired 
upon a downed U.S. reconnaissance aircraft while it flew a counter-
narcotics mission in Southern Colombia. The FARC brutally murdered U.S. 
citizen Jennis Thomas and Colombian Sergeant Luis Alcides Cruz, and 
kidnapped three other American citizens who are still being held.
    <bullet> Last May 5, in a jungle camp of the guerrillas in Urrao, 
Department of Antioquia, another FARC group, perpetrated a massacre by 
killing the Governor of that Department, Guillermo Gaviria, his Peace 
Adviser, and former Minister of Defense, Gilberto Echeverri, who had 
been kidnapped the previous year, and eight soldiers whom they had held 
in captivity for several years. The hostages were kept in inhumane 
conditions.
    <bullet> On February 7, a car-bomb exploded, killing 32 people and 
injuring close to 150, including many children, at the El Nogal social 
club in Bogota.
    Colombia is a long standing democracy with a president elected last 
year with broad popular support. Our democracy is besieged by a violent 
minority that lacks any popular support and whose main sources of 
financing are drug trafficking, kidnapping and extortion.
    These illegal armed groups repeatedly and systematically engage in 
summary executions, torture and kidnapping. They attempt to restrict 
our freedom of movement and opinion. They threaten and assassinate 
local elected officials. They destroy the country's infrastructure. In 
general, our common heritage is under siege. The truth is undeniable: 
Colombians are the victims of terrorism.
    It is violence that affects everyone: rich and poor, urban and 
rural, powerful and ordinary citizens. President Alvaro Uribe's father 
was assassinated by the FARC in the 1980's. Last year this group 
murdered the wife of the Attorney General Edgardo Maya, former Minister 
Consuelo Araujo. My own family has been a victim of narco-terrorism: My 
brother-in-law, Andres Escabi, died in a commercial airliner that was 
blown up by Pablo Escobar, the former leader of the infamous Medellin 
Cartel. I was kidnapped and held for 8 months.
    Some key statistics illustrate the extent of the human cost in 
terrorist violence:
    <bullet> In the nexus between narco-trafficking and terrorism 
Colombia has suffered an average of 30,000 violent deaths a year for 
the last 3 years. This is a figure close to the total number of victims 
of the attacks of September 11, 2001--every month!
    <bullet> Over the last 5 years, 16,000 people have been kidnapped.
    <bullet> Over 6,000 children have been recruited mainly by coercion 
or force to fight for the illegal armed groups.
    <bullet> Today, the illicit armed groups are responsible for almost 
all the violations of human rights in Colombia.
    <bullet> Over the last 5 years, we have suffered 8,000 acts of 
collective destruction.
    The economic costs of their actions are also enormous:
    <bullet> During 2002, the illegal armed groups downed 483 power 
lines, 62 communications towers, 100 bridges and attacked 12 
reservoirs. These attacks have cost Colombia more than $4 billion 
dollars, money which was literally stolen from the citizens of our 
country.
    <bullet> Terrorist violence costs an estimated 2 points of 
Colombia's Gross Domestic Product every year.
    The FARC and Colombia's other two State Department-designated FTOs, 
the United Self-Defense Forces of Colombia (AUC) and the National 
Liberation Army (ELN), have moved from simply taxing coca fields to the 
production and distribution of pure cocaine.
    Here are some examples:
    <bullet> In November 2000, a senior lieutenant to FARC military 
commander, Mono Jojoy, was arrested in Mexico City while meeting with 
the chief of operations of the powerful Mexican Arellano Felix Cartel.
    <bullet> In March 2002, soon after the end of the Zona de Despeje, 
the Colombian National Police discovered over seven metric tons of pure 
cocaine in several FARC-run cocaine production labs--these drugs were 
ready to be shipped to international markets.
    <bullet> The leader of the AUC has publicly admitted to trafficking 
in drugs to finance his weapons and arms purchases. There is ample 
evidence that paramilitary groups ship tons of pure cocaine through 
Pacific and Caribbean drug transshipment points to United States and 
Europe.
    The FARC, ELN and AUC are the perpetrators of the majority of the 
violations of human rights and international humanitarian law in my 
country. The principal victims are the civilian population. For each 
member of the Armed Forces killed last year, at least six civilians 
were murdered by the illegal armed groups. For every soldier and 
policeman taken hostage against international humanitarian law, 43 
civilians were kidnapped. A total of 35 mayors have been assassinated 
over the last 3 years and 62 representatives of city councils in the 
last year alone.
                       iii. environmental damage
    Together with this escalation of death and terror, drug trafficking 
organizations cause enormous, irreparable damage to the global 
environment.
    Drug traffickers have concentrated their activity in 
environmentally-sensitive ecosystems: poppy is planted in high Andean 
forests and highlands while coca is grown in the vast plains and 
tropical forests of Orinoquia and Amazonia. These form part of one of 
the world's most important ecological zones to regulate global climate. 
Moreover, this region is humanity's largest source of flora and fauna 
that could hold the secrets to curing diseases.
    Studies show that for every hectare of coca cultivated, four 
hectares of Amazon forest are felled. For every hectare of opium poppy, 
2.5 hectares of Andean forest are destroyed. In addition to this loss 
of flora and fauna, destruction of these forests itself contributes to 
global warming--an estimated 380 kilograms of biomass per hectare is 
burnt. The area destroyed by traffickers between 1990 and 2000 is equal 
to about twice the size of Yellowstone National Park.
    Drug traffickers use a broad range of insecticides, herbicides and 
fungicides to grow their illegal crops. These destroy biomass because 
of their high toxicity. In the year 2000 alone, approximately 4.5 
million liters of these chemicals were used. These chemicals, solvents, 
acids and bases are dumped into Amazon streams and rivers, damaging the 
environment and the normal functioning of aquatic ecosystems, 
especially the biological cycles and the very existence of their fauna. 
The quantity of chemicals dumped into the Amazon river systems each 
year is equivalent to two Exxon Valdez disasters.
                        iv. democratic security
    In spite of terrible terrorist atrocities committed against my 
country, Colombia continues to thrive. It is a dynamic Nation of 44 
million people--the vast majority of whom are honest, love their 
country, want their rights to be respected and are productive members 
of society.
    Colombia is the fifth largest economy in Latin America after 
Mexico, Brazil, Argentina and Venezuela; the second largest in the 
Andean region; and, the largest market among the Andean Trade Program 
and Drug Eradication Act (ATPDEA) member states. Our population is the 
third largest in Latin America. 90 percent of our inhabitants are under 
50 years of age and 71 percent live in urban areas. Colombia has a 
cultured entrepreneurial class with a sizable and growing middle class. 
It has a productive, intelligent workforce, with significant skilled 
human resources and low labor costs. According to the United Nations 
Development Program's (UNDP) Human Development Index, Colombia is a 
medium developed country, ranked 15 among the 83 countries in that 
category.
    Even during recent years when acts of narco-terrorism were at their 
highest, the Colombian economy continued to grow. Colombia grew 2.23 
percent in the second half of 2002 and 3.8 percent in the first quarter 
of this year. This places us in the same position of the 1980's and 
1990's, when our economy grew without interruption and at rates much 
higher than the Latin American average.
    Colombia has always honored its international debts and 
commitments. At present, the majority of our external debt is long-
term. In recent years, Banco de la Republica, the country's central 
bank, succeeded in stabilizing inflation in line with international 
standards.
    The fact that we have achieved constant, uninterrupted economic 
growth in spite of being plagued by many difficulties, is a 
demonstration of the determination of our hard working people.
    Colombia will not permit minority terrorist armed groups, 
principally financed by drug trafficking, to continue indiscriminately 
attacking innocent citizens, perpetrating assaults and massacres, 
kidnapping, laying anti-personnel land mines and committing other 
terrorist acts. These terrorist groups are harming our country's 
economy, spoiling the tranquility of our citizenry and restricting 
Colombians' right to progress.
    President Uribe's commitment is to defeat narco-terrorism shares 
the same vision expressed by President Bush after the events of 
September 11, 2001 when he said:

          ``We will direct all the resources we have available to us--
        all diplomatic channels, all the tools of intelligence, all the 
        instruments for the enforcement of the law, all the financial 
        influence and the necessary arms of war--towards the 
        destruction and defeat of the global network of terror.''

                     v. the colombian contribution
    Under the leadership of President Uribe, we are implementing a 
policy of democratic security to combat terrorism, drug trafficking, 
extortion and kidnapping.
    One of the priorities of this policy is to strengthen the Armed 
Forces. Our military personnel and police ratio is very low compared to 
other countries: 3.9 troops for every 1,000 citizens. President Uribe 
intends to increase, the size of the Military Forces by 126,361 and 
defense spending from 3.5 percent to 5.8 percent of GDP during his 4-
year administration. To achieve this, Colombians are being called upon 
to make a greater sacrifice. Last year, the Government decreed a tax on 
capital for companies and citizens with the highest incomes, through 
which, in spite of the economic difficulties of the time, resources 
close to 1 percent of GDP are being collected.
    Since the onset of Plan Colombia, Colombia improved the 
professionalism and efficiency of its public forces. Today we have a 
force that is more aggressive and offensive-minded, better equipped and 
trained for night combat, with improved war-fighting capability. There 
is improved coordination and cooperation between the different 
services. The military force is more sensitive to and respectful of 
human rights.
    One shortfall in returning security to Colombians has been the lack 
of police presence in conflicting zones. The Colombian National Police 
(CNP), in cooperation with the U.S. Government, is implementing a plan 
to reestablish public security by training and equipping 165,000 
policemen. These will be assigned to 157 municipalities which currently 
do not have a police presence. We are creating 62 mobile Carabineros 
Squadrons, or rural police, and building 80 hardened new police 
stations in the larger municipalities.
    Our efforts are already showing results, but we recognize there is 
a long and difficult road ahead. Some statistics:
    <bullet> Compared to last year, in the first 4 months of 2003 we 
reduced the number of homicides by 20 percent, thus saving the lives of 
1,964 Colombians.
    <bullet> We also managed to reduce kidnappings by 32 percent and 
have increased rescues of people held for ransom by 56 percent. This 
has meant freedom for 322 Colombians.
    <bullet> In the first half of 2002, there were 170,000 displaced 
persons and in the second half, 98,000.
    <bullet> In the first half of 2002, the deaths of 98 union members 
were reported; in the second half, these deaths declined to 52 and in 
the first quarter of 2003, to 9.
    These results have been achieved by public forces who are 
respecting human rights. Data we have provided to this Congress and to 
the U.S. Government, in accordance with the requirement contained in 
Section 564 of Law 107-115, show that in spite of the intensification 
of the conflict, human rights complaints against members of the Armed 
Forces have been substantially reduced.
    President Uribe has made it clear: We do not accept violence either 
to combat the Government or to defend it. Both are terrorist acts. We 
are committed to promoting and defending human rights.
                       vi. towards final victory
    Three of the four State Department-designated Foreign Terrorist 
Organizations which operate in the Western Hemisphere are present in 
Colombia. It is time for all leaders, media, individuals and 
organizations to realize the enormity of the danger these organizations 
represent to our country.
    Since 1992, these groups have kidnapped 54 and murdered 11 American 
citizens. While they are not as clear and present danger as Al-Qaeda, 
they have indirectly caused greater harm to Americans by promoting drug 
consumption, poisoning the population, frustrating the future of 
millions of young people and inciting violence and crime in towns and 
cities. According to information provided by the ONDCP, drugs in the 
United States cause the death of as many as 50,000 Americans every 
year. This is a threat to both of our countries and we need to continue 
working together to defeat it. The Uribe administration is committed to 
this war.
    The Uribe Administration, in addition to democratic security, is 
focusing on political, economic and social transformation by reducing, 
government spending, improving tax collection, reforming the 
administration, reinvigorating the economy and social policy. In 
addition to the results in the fight against drugs and the struggle to 
overcome terrorism, the assistance we have received from the United 
States have been important to our efforts to fight corruption, improve 
the justice system, protect human rights, reinsert ex-combatants into 
society [especially children] and promote alternative development in 
coca and poppy growing regions.
    In addition to building up democratic security, our priority is to 
continue strengthening our economic stability. US-lead initiatives such 
as FTAA, ATPA and ATPDEA allow us to create more jobs and move toward 
greater growth and development, providing legal alternatives to narco-
trafficking.
    I wish to express, once again, the gratitude of millions of 
Colombians who have benefited, directly or indirectly, from America's 
generous assistance.
    We are committed to defeat terrorism. We need know-how, expertise 
and to maintain the levels of support the U.S. provides Colombia. I 
invite you to continue to protect this alliance, to strengthen and 
empower its results. To channel the successes and abundant experience 
we have accumulated in the fight against narco-trafficking and 
terrorism, which are, at the end of the day, the same thing, to fulfill 
the plans and attain the goals which the Presidents of our two nations 
have been so right in outlining to eradicate these threats.
    Thank you.

    Chairman Grassley. It is my privilege now to call the 
second panel. I had invited the Deputy Secretary of State for 
Political Affairs, Mark Grossman, to testify, but last week he 
was sent by the Secretary of State to Europe for NATO 
ministerial meetings, and then on to Africa. When the President 
calls, I can understand his not being here.
    So we are fortunate to have Curt Struble, Acting Assistant 
Secretary for Western Hemisphere Affairs, and Mr. Paul Simons, 
the Acting Assistant Secretary for the Bureau of International 
Narcotics and Law Enforcement. They have come in the stead of 
Mr. Grossman.
    Then we also have Marshall Billingslea, Under Secretary for 
Special Operations, Low-Intensity Conflict. He has joined 
General Hill to respond to any questions that we may ask. 
Again, two witnesses for one invitation, and we feel very 
fortunate to have these people with us.
    I am sorry. I should have told you to come to the table as 
I was introducing you, so please come up here. Then, according 
to instructions from my staff, long statements will be put in 
the record and you don't have to ask us to do that, and then we 
would like to have you give whatever summary you want to give. 
We appreciate very much your taking time, particularly 
traveling long distances for some of you to be here.
    So, Mr. Struble, and then Mr. Billingslea.

STATEMENT OF PAUL E. SIMONS, ACTING ASSISTANT SECRETARY, BUREAU 
 FOR INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, U.S. 
  DEPARTMENT OF STATE, WASHINGTON, DC. AND J. CURTIS STRUBLE, 
ACTING ASSISTANT SECRETARY FOR WESTERN HEMISPHERE AFFAIRS, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC.

    Mr. Struble. Senator, thank you very much. I have agreed 
with Acting Assistant Secretary Paul Simons that he will give a 
short statement on behalf of both of us.
    Chairman Grassley. Thank you.
    Mr. Simons.
    Mr. Simons. Mr. Chairman, Senator DeWine, thank you very 
much for the opportunity to appear before you this morning to 
talk about the narcotics situation in Colombia, as well as the 
Department of State's response to that situation.
    We have a longer written statement which we would ask be 
submitted for the record. In order to give sufficient time for 
questions, I would like to summarize that statement in four 
very brief points.
    First of all, what we are doing in Colombia on the drug 
side makes a difference in terms of overall U.S. counter-
narcotics objectives in the world. Colombia, as you know, is 
very much the center of the illicit narcotics industry. In 
recent years, as the Vice President noted, the rural security 
vacuum in Colombia created a situation in which Colombia has 
grown to now be responsible for over 70 percent of the world's 
total coca cultivation, as well as some 90 percent of the 
cocaine entering the United States. Colombia is also a 
significant source of heroin for the U.S. market. So we need to 
get it right in Colombia for our overall counter-narcotics 
objectives.
    Second--and again this was a point that the Vice President 
touched on--directly linked to the illicit drug trade is the 
scourge of terrorism that also plagues Colombia. Terrorism in 
Colombia both supports and draws resources from the narcotics 
industry, and Congress' willingness to provide resources for a 
unified campaign against narco-trafficking and terrorist 
organizations, I think, is a very real demonstration of this 
linkage.
    Third--and I refer again to the testimony of the Vice 
President which coincided so much with our thinking--since 
taking office, President Uribe has demonstrated an unwavering 
commitment to countering narco-terrorists. In spite of at least 
15 assassination attempts, both before and after his election, 
he continues to implement bold policies that are intended to 
give Colombia back to the Colombians.
    Most recently, during his meetings here in Washington at 
the end of April with both the executive branch as well as 
Members of Congress, President Uribe emphasized his commitment 
to complete elimination of Colombia's coca crop by the end of 
his term in office.
    He is an avid supporter of the aerial eradication and 
alternative development programs that are the centerpiece of 
U.S. activity in Colombia. During his brief 10 months in 
office, the Colombian police, together with U.S. support, have 
sprayed an unprecedented 130,000 hectares of coca. And as the 
Vice President mentioned, we are starting to see results from 
Plan Colombia.
    Coca cultivation overall is down by over 15 percent for the 
first time in a decade. Opium poppy cultivation is down by 25 
percent in 1 year alone. President Uribe is working together 
with us to strengthen the presence of the Colombian State in 
the rural areas and to ensure the primacy of the rule of law 
and respect for human rights throughout Colombian territory.
    His national security strategy includes commitments to 
respect human rights, to dedicate additional resources to the 
Colombian armed forces, and to reform the conscription laws. He 
is eager to ensure the effectiveness of joint efforts with the 
U.S. Government to achieve our common goals in combatting 
narcotics trafficking and terrorism.
    Finally, after many years of effort, we believe that the 
money we have invested in Colombia is now beginning to pay off. 
The Plan Colombia equipment did take a couple of years to 
arrive--the helicopters, the spray planes, some of the training 
of counter-drug brigades, the support for the Colombian police. 
But we are now beginning to see that, having accumulated those 
assets and that training on the ground, we are achieving 
positive results.
    We believe we have turned the corner, in particular, on the 
coca crop in Colombia. Nationwide, hectarage was down more than 
15 percent in 2002. As the Vice President mentioned, we sprayed 
an additional 65,000 hectares during the first 5 months of this 
year. And our plan, together with the Colombian police, is to 
spray all of the remaining coca in Colombia by the end of this 
calendar year, as well as all of the opium poppy in Colombia.
    A spray program with this level of dedication sends a 
strong signal to the Colombian farmers and cultivators that 
they simply cannot wait us out this time, that there is firm 
determination on the part of this Colombian government to see 
the course and to have a policy that emphasizes continuity. 
This is very important to the success of this program.
    At the same time, we have strengthened our commitment to 
pursuing an environmentally sound aerial eradication program, 
and we have put into place a number of other programs which are 
described in my statement that have helped strengthen 
democratic institutions, protect human rights, assist 
internally displaced persons, and foster social and economic 
development. This is basically the coordinated approach that 
was designed for Plan Colombia and it is beginning to show 
results.
    Finally, full realization of U.S. policy goals will require 
concerted Colombian strategy and effort, backed by sustained 
U.S. assistance to establish control over national territory, 
eliminate narcotics cultivation and distribution and terrorism, 
and promote human rights and the rule of law.
    In this respect, we urge members of this Caucus and other 
supporters on the Hill to provide full funding for our fiscal 
year 2004 budget request. The Andean Counter-Narcotics 
Initiative element of this request comes to $731 million, of 
which $463 million is for Colombia. We also have an additional 
$110 million in foreign military financing for Colombia that 
indirectly supports these efforts.
    This budget reflects our continued support for the Uribe 
administration's courageous anti-narcotics and anti-terror 
agenda. The progress described earlier needs to be cemented if 
we are to achieve our long-term goals of improvements in all 
areas of Colombian life and a reduction of illegal drug 
cultivation, as well as terrorism.
    Thank you, Mr. Chairman.
    [The prepared statements of Simons and Struble follow:]
  Prepared Statement of Paul E. Simons, Acting Assistant Secretary of 
       State International Narcotics and Law Enforcement Affairs
    Good afternoon Mr. Chairman, Senator Biden, and members of the 
Caucus. Thank you for the opportunity to speak to you about the current 
narcotics situation in Colombia, and the Department of State's response 
to that situation. Because of the importance of our efforts in 
Colombia, I am especially pleased to meet with this Caucus, which is a 
key stakeholder in this process.
                              i. overview
Situation in Colombia
    Colombia is of great importance to the United States. It is a 
vibrant democracy and a country with extraordinary promise, facing an 
extraordinary threat. Colombia has four times the land area of 
California and a population of over 40 million. Its gross domestic 
product is more than $90 billion a year. Colombia has important 
reserves of petroleum, natural gas and coal.
    Unfortunately, Colombia is also a center of the illicit narcotics 
industry. In recent years, Colombia has been responsible for over 70 
percent of the world's coca cultivation. Ninety percent of the cocaine 
entering the United States is either produced in or passes through 
Colombia. Colombia is also a significant source of heroin for the U.S. 
market.
    The drug trade has a terrible impact on the United States. There 
are 50,000 drug-related deaths yearly in the United States with 19,000 
directly attributable to drugs. This is six times the loss of life on 
September 11, and it happens every year. The drug trade also has 
devastating consequences in Colombia. Not only is that society rife 
with drug-related violence, its unique eco-system and environment are 
increasingly threatened by the slash and burn cutting of tropical 
forest for coca cultivation and the indiscriminate dumping of toxic 
chemicals used in drug processing.
    Directly linked to the illicit drug trade is the scourge of 
terrorism that plagues Colombia. Colombia is home to three of the four 
U.S.-designated foreign terrorist organizations (FTOs) in this 
hemisphere, and has suffered a four-decades cycle of violence and 
conflict. Terrorism in Colombia both supports and draws resources from 
the narcotics industry. Nefarious narcoterrorist organizations also 
rely on kidnapping and extortion--including threats to U.S. citizens 
and economic interests--to support themselves. Colombia's terrorist 
groups have kidnapped 138 American citizens since 1980, and killed 11. 
Since February, three DOD, contractors have been held hostage by the 
FARC and one of their colleagues was assassinated upon capture.
    The country's 40-year-old internal conflict--among government 
forces, several leftist guerrilla groups, and a right-wing paramilitary 
movement--intensified during 2002. The internal armed conflict, and the 
narcotics trafficking that both fueled it and prospered from it, were 
the central causes of violations of international humanitarian law. In 
a 2001 report, the U.N. High Commissioner for Human Rights noted that 
all sides in the conflict failed to respect the principles of 
humanitarian law. The Revolutionary Armed Forces of Colombia (FARC) and 
the paramilitaries are the principal perpetrators of these human rights 
violations. The Colombian Army is charged with committing very few of 
the human rights violations alleged in 2002.
    Violence by the three FTOs--the FARC, the National Liberation Army 
(ELN), and the United Self-Defense Forces of Colombia (AUC)--caused the 
deaths of thousands of civilians in 2002, including combat casualties, 
political killings, and forced disappearances.
    Kidnapping continues to be a major source of revenue for both the 
FARC and ELN. The FARC continued to kidnap persons in accordance with 
its so-called ``Law 002,'' announced in March 2000, which requires 
persons with more than the equivalent of $1 million in assets to 
volunteer payments to the FARC or risk detention. The Free Country 
Foundation, a Colombian NGO, reported that guerrillas committed 75 
percent of the 2,986 kidnappings reported during the year in which a 
perpetrator was identified. The Foundation reported that the FARC 
kidnapped 936 persons and the ELN 776. In addition, the FARC often 
purchased victims kidnapped by common criminals and then negotiated 
ransom payments with the families.
    Additionally, the ongoing terrorist offensive against democratic 
institutions and civil society has had tragic costs for Colombia. Each 
year the AUC, ELN and FARC kill more than 3,000 persons. Their victims 
have included judges and prosecutors, journalists, labor union leaders 
and human rights workers, soldiers, police, and ordinary citizens. Even 
clerics and Red Cross workers are! not exempt from the violence.
    The narco-terrorist threat is among the greatest the United States 
and Colombia face, and success against the drug trade and terrorism in 
Colombia will improve security in both countries, and in the Andean 
region as a whole. The ongoing internal strife that Colombia has 
suffered has hampered its economic progress, severely strained both 
military and civil institutions, and wreaked havoc on the civilian 
population who must live with the constant threat of terrorist 
violence. It has also resulted in a flood of illicit drugs into the 
United States.
    What is occurring in Colombia matters to the United States. We 
stand in solidarity with the people of Colombia who, like us, know 
first-hand the scourge of terrorism. Although Afghanistan and Iraq 
currently receive more public attention, our important partnership with 
Colombia is yet another front in the war on terrorism, and remains a 
priority of this Administration. With the support of the U.S. Congress, 
the Administration has devoted considerable monetary resources and 
personnel to this effort.
Commitment of President Uribe
    The recent visit of Colombian President Alvaro Uribe, and President 
Bush's renewed pledge to support him in his efforts against the narco-
terrorists, underscore the high value we place on our relationship and 
the importance of this struggle.
    Since taking office, President Uribe has demonstrated unwavering 
commitment to countering the narco-terrorists. In spite of at least 15 
assassination attempts, both before and after his election, he 
continues to implement policies that will give Colombia back to 
Colombians.
    During his meetings in Washington, April 30 to May 2, with the 
Executive Branch and many members of this Caucus, President Uribe 
emphasized his commitment to complete elimination of Colombia's coca 
crops by the end of his term of office.
    President Uribe is an avid supporter of aerial eradication and 
alternative development programs. During his tenure, eradication 
programs have reduced coca cultivation by more than 15 percent and 
opium poppy production by 25 percent from 2001 levels. President Uribe 
is working to strengthen the presence of the Colombian State and to 
ensure the primacy of the rule of law and respect for human rights 
throughout Colombian territory. He is also making the tough fiscal 
decisions that will allow him to fund these policies and reforms. He 
has increased government security expenditures for military and police 
activities from 3.5 percent of GDP in 2001 to a goal of 5.8 percent of 
GDP by the end of his term.
    President Uribe's national security strategy includes commitments 
to respect human rights, to dedicate more resources to the Colombian 
Armed Forces, and to reform the conscription laws to make military 
service universal and fairer. He is eager to ensure the effectiveness 
of joint efforts with the United States government to achieve our 
common goals in combating narcotics trafficking and terrorism, and has 
proven an effective partner in the war on terrorism. Since the lifting 
of the ban against extraditing nationals in December 1997, Colombia has 
extradited more than 100 of its nationals charged with high-level 
narcotics trafficking, drug-related money laundering, hostage taking, 
and the murder of a retired New York City policeman. We have no better 
extradition partner.
United States Policy Toward Colombia
    Beyond the struggle against the narco-terrorists, there are broad 
and important U.S. national interests in Colombia that include 
stability in the Andean region, trade, immigration, human rights, 
humanitarian assistance, and protection of the environment.
    U.S. policy toward Colombia supports the Colombian government's 
efforts to strengthen its democratic institutions, promote respect for 
human rights and the rule of law, intensify counter-narcotics efforts, 
foster socio-economic development, address immediate humanitarian 
needs, and end the threats to democracy posed by narcotics trafficking 
and terrorism. Our support reinforces, but does not substitute for, the 
broader efforts of Colombian government and society.
    In implementing these programs, the Administration and Congress 
increasingly came to understand that the terrorist and narcotics 
problems in Colombia are intertwined and must be dealt with as a whole. 
Working with Congress, the Administration sought and Congress enacted 
new authorities in the 2002 Supplemental Appropriations Act (P.L. 107-
206) that would help address this combined threat. These provisions 
were renewed in the fiscal year 2003 Omnibus Appropriations Act (P.L. 
108-7).
    Since 2000, the United States has provided Colombia with over $1.7 
billion in economic, humanitarian and security assistance to support 
these efforts, with another $600 million appropriated for fiscal year 
2003.
    The U.S. counter-drug objective in Colombia is to reduce illegal 
drug production and trafficking. We use both eradication and 
interdiction programs in this effort. Through programs to eradicate 
coca leaf and opium poppy and to interdict their movement and that of 
precursor supplies, cash or final products, we expect to reduce the 
amount of cocaine and heroin entering the United States. Maintaining 
effective demand reduction programs will also be key.
    Additional pressure can be brought against the illegal drug 
industry by more effectively controlling transportation corridors 
across the Andes that are used to import chemicals, supplies and cash 
into the growing areaas, or to move illegal drug products out. If the 
drug producing areas are isolated from markets and necessary supplies, 
the costs and risks of moving narcotics products will increase.
    Interdiction of cocaine and heroin at sea and in the air is another 
important element of drug market disruption. With U.S. assistance, 
technology, intelligence support, and law enforcement training, the 
Government of Colombia should be able to increase pressure on drug 
warehousing sites and go-fast boat movements, and increase seizures of 
cocaine and heroin.
    Importantly, as a result of the ongoing Colombian criminal justice 
reform, including United States training of specialized task force 
units as well as prosecutors and police, and the bilateral cases 
developed with U.S. law enforcement, more and more seizures and arrests 
are leading to convictions and dismantling of narco-terrorist 
organizations.
                      ii. fiscal year 2003 budget
    In 2003, Congress funded $700 million of a requested $731 million 
for the Andean Counterdrug Initiative account. Of that amount, more 
than $433 million will go to Colombia, with $284 million for 
eradication/interdiction support and $149.2 million for alternative 
development, support for the rule of law, and institution building. 
Programs include the following:
    The $284 million for eradication/interdiction will go toward 
support for the Colombian military (pending the Secretary of State's 
certification that the conditions in section 564(3) of the fiscal year 
2003 Foreign Operations Appropriations Act (P.L. 108-7) have been met) 
including its Army Counter Drug Brigade (CD BDE) and Army Aviation. 
These funds will also support a renewed Air Bridge Denial Program 
(after necessary legal steps and interagency coordination are 
completed), coastal interdiction and continued support for the 
Colombian National Police, to include aviation support and eradication 
and interdiction programs.
    Funding for alternative development and institution-building 
($149.2 million) will fund programs which support the rule of law, such 
as the DOJ-supported specialized task force units on Human Rights, 
Anti-Corruption, Money Laundering/Asset Forfeiture and Narcotics, 
criminal code reform, judicial and witness protection programs and 
prosecutorial and police training; bomb squad; human rights reform and 
drug awareness and demand reduction projects; and the GOC 
``carabinero'' program which will establish permanent police stations 
and begin rural patrols in areas that have no government presence and 
are under virtual control of drug trafficking and insurgent 
organizations. Funding is also targeted for USAID's ``Support for 
Democracy'' and alternative development projects, and USAID and PRM 
programs to support vulnerable groups and internally displaced persons.
    In addition, Congress appropriated $34 million to the Andean 
Counterdrug Initiative (ACI) in the fiscal year 2003 Emergency Wartime 
Supplemental Appropriations Act (P.L. 108-11) for Colombia, and the 
Administration is allocating an additional $37 million in FMF funding 
from the Supplemental. These funds will go toward Presidential 
security; bomb squad support; increasing police presence in remote 
areas; support for internally displaced persons; and aerial eradication 
programs.
    In fiscal year 2003, $93 million in regular FMF funding will 
support the infrastructure security program for the area of the Cano-
Limon pipeline and stop terrorist attacks on this important source of 
revenue for Colombia. IMET will improve the professionalism, technical 
competence and human rights performance of the Colombian Armed Forces 
through a variety of military educational training courses.
                       iii. returns on investment
    Our years of effort, and the money that we have invested in 
Colombia are beginning to pay off. This year, we have turned the corner 
on coca and opium poppy cultivation. Nationwide coca hectarage was down 
by more than 15 percent in 2002 to 144,000 hectares, with additional 
declines in the first quarter of 2003. Key southern coca cultivation 
(Putumayo/Caqueta) declined by over 50 percent (82,300 to 40,550 
hectares) in 2002. In the first 5 months of 2003, we sprayed 
approximately 64,000 hectares of coca, well on our way to meeting our 
goal of spraying all remaining coca this calendar year. Opium poppy 
cultivation has likewise decreased, with a 25 percent decline in 2002. 
The CNC estimates that there are currently 4,900 hectares yearly (2,450 
hectares counted twice to account for two distinct crops) of opium 
poppy remaining. Our aim is to spray opium puppy three times during 
calendar year 2003. Through May, we have sprayed approximately 1,650 
hectares of opium poppy, well on our way to meeting our target of 
spraying all remaining opium poppy in 2003.
    At the same time, we have strengthened our commitment to pursuing 
an environmentally sound aerial eradication program. In September 2002, 
the Department switched to a more benign glyphosate formulation--one 
with decreased risk of eye irritation compared to the former mixture. 
We have evaluated the toxicity of the spray mixture and have also 
increased environmental training for our spray pilots, conducted 
toxicological reviews or medical investigations of each health concern 
brought to the attention of the Embassy, trained Colombian specialists 
who now conduct soil and water analysis, and coordinated with the OAS 
in its long-term monitoring of the spray program.
    Beyond the achievements in eradication, U.S. programs have helped 
strengthen democratic institutions, protect human rights, assist 
internally displaced persons and foster socio-economic development. 
Specifically, we have succeeded in the following areas:
    <bullet> deployment of Colombia's first Counternarcotics Brigade 
which has moved aggressively against drug labs and other illegal 
facilities and has expanded its interdiction efforts beyond southern 
Colombia;
    <bullet> support for the police Anti-Narcotics Directorate (DIRAN) 
which destroyed 61 HCl labs and 401 coca base labs in 2002, and seized 
thousands of kilos of cocaine;
    <bullet> support for police presence in rural areas, which has 
increased significantly with the addition of permanent police units to 
79 municipalities that previously had no police presence;
    <bullet> over 22,000 families have benefited from the alternative 
development program;
    <bullet> 24,549 hectares of licit crops are being supported;
    <bullet> 16,673 hectares of illicit crops have been manually 
eradicated by alternative development communities;
    <bullet> 31 Justice and Coexistence Centers have been opened; these 
provide cost-effective legal services to Colombians who have previously 
not enjoyed access to the country's judicial system; over 1.6 million 
cases have been handled by the centers;
    <bullet> USAID programs have provided protection to 2,731 human 
rights activists, journalists and union leaders;
    <bullet> USAID has provided assistance to 774,601 Colombians 
displaced by violence;
    <bullet> USAID is funding a program to rehabilitate former child 
soldiers, including those captured by the army or those who have 
deserted from the illegal armed groups. Some 733 children have received 
treatment, education and shelter;
    <bullet> an Early Warning System (EWS) is helping Colombia avert 
massacres and violations of international humanitarian law; to date, 
over 194 warnings have identified threats to communities across 
Colombia, and have resulted in 154 responses by the military, police 
and/or relief agencies;
    <bullet> the PRM bureau supports international and non-governmental 
organizations working in Colombia that provide food, temporary shelter, 
basic health and sanitation, education and other emergency humanitarian 
assistance to displaced people. PRM also supports the dissemination of 
information on international humanitarian law to the Colombian military 
and police, local civilian authorities, and illegal armed groups;
    <bullet> DOJ-sponsored justice sector reform programs have helped 
the Government of Colombia to reform its judicial system and strengthen 
local government capacity; implement a comprehensive program to 
investigate and prosecute kidnapping and extortion offenses; trained a 
cadre of professional prosecutors; enhanced maritime enforcement 
capabilities; and improved witness and judicial protection programs;
    <bullet> DOJ support to the Prosecutor General's Office has helped 
in establishing dedicated human rights satellite units arrayed 
throughout the country to facilitate the investigation and prosecution 
of human rights abuses.
    Additionally, our focus on human rights is having an impact on 
Colombian institutions. President Uribe is working to end collusion 
between the Colombian military and the paramilitary AUC terrorist 
organization. Last year, 168 paramilitaries were killed, 764 captured 
and 20 turned themselves in. In the past 2 months, the GOC has 
increased its crackdown on illegal paramilitary groups. In four major 
operations, Colombian security forces detained an Army officer 
paramilitary collaborator, arrested a major paramilitary leader and 
apprehended large groups of illegal combatants.
    The Department takes very seriously the human rights record of the 
Colombian military. For example on January 3, we suspended assistance 
to a Colombian Air Force unit (CACOM-1) due to lack of responsiveness 
and progress on an important human rights case. The suspension will 
remain effective until the Colombian government provides a credible 
account of what occurred at Santo Domingo and takes appropriate action 
consistent with the facts.
    The State Department carefully monitors the human rights record of 
the Colombian Armed Forces. Pursuant to the ``Leahy Amendment,'' we 
regularly vet units of the security forces and do not provide 
assistance to units for which there is credible evidence (as determined 
by the Secretary) that they have committed gross violations of human 
rights.
    In addition, the Department is moving ahead toward rapid resumption 
of the Air Bridge Denial program. The U.S. and Colombia have signed a 
bilateral agreement, which lays out the safety procedures for the 
program. Our goal is to ensure that we have adequate procedures in 
place for the protection of innocent life while at the same time 
providing a credible deterrent to aerial trafficking of drugs.
    Recently, a certification team visited Colombia to review whether 
the Colombians would be able to discharge their responsibilities to 
operate the Air Bridge Denial Program in accordance with the safety 
procedures agreed upon between Colombia and the United States. If the 
team recommends that Colombia's procedures meet the requirements of the 
bilateral agreement, which would be a major step toward facilitating 
the initiation of the program. Department officials will be on the Hill 
this week to seek Congressional advice. If the President signs a 
determination, the Air Bridge Denial program can recommence. We are 
hoping this will happen in the near future.
    I would like to note that we have achieved all this while 
conforming to the limits on U.S. personnel in Colombia in connection 
with support of Plan Colombia--400 U.S. civilian contractors and 400 
U.S. military personnel--established by Congress.
    If present programs are sustained, then Plan Colombia's original 
goal of reducing coca cultivation in Colombia by 50 percent by the end 
of 2006 should be achieved, President Uribe has called for a more 
ambitious target: eradication of all coca by the end of his term of 
office in 2006.
    If these eradication and interdiction objectives are achieved we 
would expect to see a major reduction in the amount of cocaine 
available for the United States, with corresponding impacts on cocaine 
price and purity in the U.S. market. Reductions in Colombian heroin 
availability might not produce comparable effects because of the 
availability of heroin supplies from other parts of the world.
                     iv. challenges to our programs
    In addition to our success, many challenges also confront us in 
Colombia.
    First and foremost among these is safety of our personnel. The 
terrorist organizations operating in Colombia are ruthless killers, and 
the aerial spray operations, particularly of opium poppy, are perilous. 
This weekend, another spray plane was destroyed when it hit a tree 
while spraying coca; fortunately, the pilot survived. Recently, we lost 
a U.S. citizen spray pilot during low-level application of herbicide to 
opium poppy. There was no evidence that the plane had been hit by 
ground fire; rather it appears that pilot error--in the difficult 
terrain of the high Andes--was the cause of the crash.
    This latest tragedy brings to three the number of U.S. citizen 
civilian State Department pilot contractors who have died in Colombia 
since 1998. Two perished on July 27, 1998 in an aviation accident when 
their T-65 aircraft crashed during a training flight.
    Colombia is a high-risk assignment and the U.S. military personnel, 
U.S. civilian contractors and the permanent and temporary U.S. 
Government personnel assigned to Colombia are well aware of this. Our 
personnel and official facilities maintain a high State of alert, take 
every possible precaution, and are very proactive in matters regarding 
safety. The Department continually strives to improve the already 
strong safety record of our spray program.
    We are currently instituting additional safety procedures, 
including improved intelligence exchange, increased armed helicopter 
escorts, and joint operations that employ Counter Drug Brigade ground 
troops on interdiction operations in areas where increased hostile fire 
is expected.
                           v. the road ahead
    Full realization of U.S. policy goals will require a concerted 
Colombian strategy and effort--backed by sustained U.S. assistance--to 
establish control over its national territory, eliminate narcotics 
cultivation and distribution, end terrorism, and promote human rights 
and the rule of law. We urge Members to support full funding of our 
2004 budget request of $731 million, of which $463 million is for 
Colombia.
    This budget reflects our continued support of the Uribe 
Administration's courageous anti-narcotics and anti-terror agenda. The 
progress described earlier needs to be cemented if we are to achieve 
our long-term goals of improvements in all areas of Colombian life and 
reduction in illegal drug cultivation and terrorism.
    First, we would stress that the Andean Counterdrug Initiative (ACI) 
is a regional effort. It will require full support in Congress if it is 
to succeed. Among the goals we have set for ourselves is to ensure that 
accomplishments in Colombia do not reverse our gains in Bolivia or 
Peru. We also aim to prevent spillover into Brazil, Ecuador, Panama and 
Venezuela.
    We are making significant progress in our eradication efforts, but 
will require continued support for eradication and alternative 
development in order to eliminate remaining cultivation and replanting 
and to deter permanently the coca growers from pursuing this illicit 
business. Our budget request balances law enforcement with sustainable 
long-term development.
    In Bolivia, we need to provide the GOB with strong incentives to 
reinforce counter-narcotics programs, particularly in light of 
increasing political pressure to stop eradication and increase licit 
coca cultivation. In Peru, the democratic government is experiencing 
unprecedented unrest and resistance in hardcore coca cultivation 
regions. We should not turn our backs on these partners when they most 
need our political and financial support to cement earlier eradication 
gains.
    Specifically, our 2004 ACI programs are intended to do the 
following:
    <bullet> Combat illicit drugs and terrorism, defend human rights, 
promote economic, social and alternative development initiatives, 
reform and strengthen the administration of justice, and assist the 
internally displaced;
    <bullet> Enhance counter-terrorism capability by providing advice, 
assistance, training and equipment, and intelligence support to the 
Colombian Armed Forces and the Colombian National Police through 
ongoing programs as well as by implementing the new authorities and the 
pipeline protection program;
    <bullet> Promote economic growth and development through support 
for market-based policies, including negotiation of the Free Trade Area 
of the Americas (FTAA), and implementation of the Andean Trade 
Preferences Act (ATPA) as amended by the Andean Trade Program and Drug 
Eradication Act (ATPDEA);
    <bullet> Reduce the production and trafficking of cocaine and 
heroin from Colombia by strengthening counter-narcotics eradication 
programs; advise, train, and assist counterdrug organizations and 
units; dismantle drug trafficking organizations; disrupt the 
transportation of illegal drugs, precursor and essential chemicals, 
trafficker supplies, and cash; address major cultivation regions; and 
respond rapidly to shifts in cultivation regions; eliminate any 
remaining coca and opium cultivation, to include replanting of these 
crops;
    <bullet> Increase institutional development, professionalization, 
and enlargement of Colombian security forces to permit the exercise of 
governmental authority throughout the national territory while ensuring 
respect for human rights; and
    <bullet> Reform and strengthen the criminal justice system by 
enhancing the capabilities of the police investigators and prosecutors 
as the country moves in transition from an inquisitorial to a more 
accusatorial system with oral and open trials to increase effectiveness 
and build public confidence.
    Along with ACI funding, Colombia assistance will include $110 
million in FMF funding, to include maritime interdiction support--a 
priority of President Uribe and one that meshes with U.S. counter-
narcotics goals.
                             vi. conclusion
    Finally, I would like to thank you again for this opportunity to 
update you on the status of our counter-narcotics policy and programs. 
The Administration is committed to supporting the Uribe Administration 
and to working with our other partners in the Andean region and beyond 
to stem the flow of illicit narcotics into our country and to check the 
influence of terrorist organizations wherever they reside.
    These are important and costly missions--both in terms of financial 
and human resources. But they are worthy missions--which require the 
continued support of our Congressional partners. We thank you for the 
tremendous support and counsel you have provided in the past, and look 
forward to our continued partnership.
                                 ______
                                 
  Prepared Statement of Curtis Struble, Acting Assistant Secretary of 
                   State, Western Hemisphere Affairs
    Good morning. Mr. Chairman, Senator Biden, members of the Caucus, 
allow me to first express our appreciation for your ongoing interest in 
and support for our policy toward Colombia. Your consistent 
availability to visiting Colombian government officials, such as Vice 
President Santos this morning, and your Congressional delegations to 
Colombia help sustain crucial support for our Colombia strategy.
    My colleague Paul Simons has addressed in detail our 
counternarcotics policy in Colombia, I would like to offer an update on 
the current status of U.S.-Colombian relations, and our efforts to 
bolster regional and international support for President Uribe's goals 
of attaining peace and strengthening democracy.
    Colombia is central to our regional counternarcotics and 
counterterrorism goals. We are committed to helping President Alvaro 
Uribe address Colombia's security, economic and narcotics issues, not 
only because it is in our national interest to do so, but because we 
recognize the unique, reliable partner we have in President Uribe. He 
has our full political support. U.S.-Colombian cooperation has never 
been better. Colombia is producing tangible results and deserves the 
full support of the region.
    The focused high-level interest in Colombia, supported by the large 
number of two-way visits, including your Congressional delegations, is 
a positive contribution to our relationship.
    President Uribe has been to Washington three times: once as 
President-elect (June 2002); then in September 2002; and most recently 
in early May.
    Vice President Santos, Foreign Minister Barco, Defense Minister 
Ramirez, Peace Commissioner Restrepo, Minister of Commerce Botero, and 
others have made individual trips to solidify this relationship.
    Our Cabinet level visits:
    <bullet> Secretary Powell traveled to Colombia in December 2002.
    <bullet> Secretary Snow visited in April 2003.
    <bullet> USTR Representative Zoellick is planning a trip for July.
    President Uribe's first year in office continues to be marked by 
unprecedented cooperation between Colombia and the United States. Last 
week: (May 28th), Colombia extradited the first FARC terrorist to the 
U.S. for the kidnapping and murder of three U.S. indigenous rights 
workers in February/March 1999, bringing the total number of 
extraditions under Uribe to 44. This is in addition to the 64 
extraditions former Colombian President Andes Pastrana ordered during 
his presidency. Uribe has sent a clear message to the FARC and other 
illegal groups that reinforces the rule of law in Colombia: They will 
be held accountable for their actions.
    President Uribe remains a stalwart supporter on Iraq. Even before 
Operation Iraqi Freedom began, Colombia was key in lining up support 
before rotating off the U.N. Security Council last December. As UNSC 
President, Colombia decided to distribute the Iraqi Declaration to 
UNSC: members with the expertise to assess risks of proliferation 
first, despite objections by Syria. Three months later, President Uribe 
expressed solidarity with the U.S. on Iraq at a high political cost 
because he believes the world must stand up to terrorists.
    On May 5 the Colombian Army mounted an unsuccessful hostage rescue 
operation and the FARC responded by murdering 11 of its hostages, among 
them Antioquia's Governor Guillermo Gairia and former defense minister 
and peace adviser Gilberto Echeverri. This brutality reminded 
Colombians and the international community of the ruthlessness with 
which the illegal armed groups rob Colombians of peace and security. 
Instead of cowering, the Colombian people maintained their support of 
President Uribe's aggressive stance against the FARC. His current 
approval rate is steady at 71 percent. No other Latin American leader 
comes close to this level of support.
    The Uribe administration's concerted effort to extend ``democratic 
security'' throughout Colombia is still in its early stages, but 
President Uribe has underscored the importance of human rights as an 
integral component of his strategy. On May 16, he told graduating 
Colombian Police cadets, to act with:

        ``aggressiveness to defeat: terrorism, determination to defend 
        human rights, respect and tolerance for critics, respect and 
        tolerance for NGO's, whether or not we share their points of 
        view.''

    He further said that respect for human rights and tolerance of 
critics is ``fundamental for the respectability of our use of force, so 
that we can speak forcefully'' on terrorism both in Colombia and 
abroad.
              building international and regional support
    We are committed to bolstering more support for President Uribe 
both regionally and internationally. Many of Colombia's challenges do 
not stop at Colombia's borders and require a regional solution. After 
February's bombing of the El Nogal social club in Bogota, we supported 
Colombian efforts to secure a UN Security Council resolution and an OAS 
resolution condemning this bombing and calling on member states to stop 
providing refuge to terrorist groups while cracking down on terrorists 
manipulating their financial institutions. In March, the Colombians 
organized a Defense and Security ministerial with representatives from 
Bolivia, Brazil, Ecuador, Panama, Peru and Venezuela, to strengthen 
regional cooperation in pursuing, capturing, and punishing the 
perpetrators, organizers and sponsors of terrorist acts.
    In July, Colombia's Foreign Minister Carolina Barco will have the 
opportunity to outline the Colombian government's priorities to donors 
in order to increase international consensus for Uribe's policies and 
to build better coordination of the various donor, NGO, and GOC 
programs. We will be there to lend our support. We have been working 
with the Europeans, the United Nations, the IDB, and the GOC to make 
this conference happen. It should gain additional EU support for 
Colombia, confirm for the international community the link between 
terrorism and narcotics, and help to better coordinate international 
assistance to Colombia.
    Thank you again for your interest, and for your commitment to help 
us help Colombia confront the daunting challenges it still faces. This 
concludes my formal statement, but I am ready and eager to answer your 
questions.

    Chairman Grassley. Thank you very much.
    General are you the one giving the statement?
    General Hill. I am, Senator.
    Chairman Grassley. Please proceed.
    We have been joined by Senator Sessions, as you can see.

  STATEMENT OF GENERAL JAMES T. HILL, COMMANDER, U.S SOUTHERN 
  COMMAND, U.S. ARMY, MIAMI, FLORIDA; ACCOMPANIED BY MARSHALL 
   BILLINGSLEA, DEPUTY ASSISTANT SECRETARY OF DEFENSE, U.S. 
             DEPARTMENT OF DEFENSE, WASHINGTON, DC.

    General Hill. Mr. Chairman, other members of the Caucus, 
thank you for inviting me to appear before you today to discuss 
the U.S. Southern Command's role in supporting our country's 
efforts and assisting Colombia with the battle on narco-
terrorism. I also have to say I have had the privilege of 
sitting here this morning and listening to Vice President 
Santos' very compelling testimony.
    Your soldiers, sailors, airmen, Marines and Coast Guardmen 
are performing in an outstanding manner in a variety of 
missions aimed at preventing the flow of illegal narcotics that 
kill over 19,000 Americans annually, while destabilizing the 
security and stability of Colombia and increasingly other 
countries in Latin America and the Caribbean.
    The illegal narcotics trade in Colombia is dominated by the 
FARC, ELN and AUC. These groups, all on the State Department's 
list of terrorist organizations, are incredibly well-financed 
and sustain themselves by their involvement in every aspect of 
drug cultivation and production. They destabilize the region by 
operating in and out of Colombia's neighbors, and fueling other 
illicit activities such as arms trafficking and money 
laundering. Additionally, traditional transit nations are now 
becoming consumer nations. Brazil, for example, has become a 
major consumer of cocaine and is suffering the terrible effects 
of the drug-fueled gangs in Rio and Sao Paulo.
    I have traveled to Colombia 12 times since taking command 
in August and have met several times with President Uribe. I am 
impressed by his strong and principled leadership, as well as 
his determination and vision to get the job done. He knows the 
Colombian government must do more to succeed. He understands 
that there is no single military solution to the crisis of 
governance that is Colombia. He and the Colombian military know 
and understand they must fight the narco-terrorists justly, in 
accordance with democratic values and human rights. His actions 
are beginning to show results.
    President Uribe is increasing the size of the military and 
the police. He levied a war tax on the wealthiest segment of 
Colombian society, and more importantly he has collected it. 
They are reclaiming areas where the government hasn't operated 
in for years and going after the leadership of the narco-
terrorist organizations in ways the Colombian military has 
never done before.
    Southern Command is actively engaging in non-combat roles 
with the Colombian military. We are assisting them in making 
the counter-narcotics brigade lighter and more operationally 
flexible. We have helped them develop a special operations 
command and commando battalion to go after counter-drug and 
narco-terrorist high-value targets throughout the country.
    We are training units in northeast Colombia to protect oil 
pipelines and other infrastructure so vital to Colombia's 
economy which remain under attack by narco-terrorists. We are 
training Colombian riverine units to interdict the tremendous 
volume of illicit traffic along the waterways.
    We are expanding our strategic and operational planning and 
assistance to Colombian staffs and units. We are working with 
the Colombian military to better allocate and use resources by 
planning and conducting more joint operations, and we are 
seeing progress.
    The Colombian military is a capable, professional force 
that respects human rights. This progress is resulting in 
increasing success on the battlefield. With steady U.S. 
assistance and support, and under President Uribe's leadership, 
I am guardedly optimistic that Colombia will be able to 
establish the security and stability so necessary for other 
democratic reforms that President Uribe has advocated to take 
hold and mature.
    Thank you, Mr. Chairman, and other members of the Caucus 
for this opportunity and for the support that you provide to 
the tremendous men and women of Southern Command. I look 
forward to your questions, sir.
    [The prepared statement of General Hill follows:]
   Prepared Statement of General James T. Hill, U.S. Army Commander, 
                         U.S. Southern Command
    Mr. Chairman, Senator Biden, distinguished members of the Caucus, 
it is a pleasure to appear before you today to discuss the United 
States Southern Command's role in assisting Colombia and the region's 
other countries with the battle on narcoterrorism. Every day our 
soldiers, sailors, airmen, Marines, Coast Guardsmen, civilians and 
interagency members work hard to accomplish their missions in our part 
of the War on Terrorism. This work is vital for regional security and, 
given our nation's proximity to Latin America and general ease of 
access to the United States, shores up our own national security.
    I have traveled to Colombia 12 times since taking command last 
August. Our unwavering fiscal, political, and military support provide 
their government steady reassurance that we stand with them in their 
fight. Practical measures are required, however, to augment our 
support. The most important of these measures is the continuation of 
Expanded Authority through Fiscal Year 2004. Expanded Authority 
successfully broke the artificial barrier that previously existed 
between counterdrug and counterterrorist efforts and synchronized 
disparate funding streams to address a common threat. It boosted the 
effectiveness of our support in 2003 and is the most logical way to 
continue combating Colombia's illegal armed groups, groups that are 
most accurately described as drug-fueled terrorist organizations.
    These narcoterrorists pose a grave threat to Colombia as well as to 
the entire Andean region. All of Colombia's neighbors have experienced 
the total disregard for sovereign borders displayed by these groups. 
Most countries are taking efforts to address this threat, but we must 
help them coordinate and bolster their efforts. The region's countries 
are all consolidating democracies that will take time to mature. 
Meanwhile, these countries face uncertainty, whether from weak 
institutions that have yet to undergo multiple cycles of free elections 
or from disappointment that liberal market reforms have not yet 
produced sustained improvement. It is upon these inherent 
vulnerabilities that narcoterrorist organizations prey. The corruption, 
greed and instability narcoterrorists foster undermine the best efforts 
of dedicated public servants and honest citizens. Corruption and 
instability create safe havens for not only narcoterrorists but also 
for other international terrorist organization such as Hizballah, 
Hamas, and Islamiyya al Gammat, which have support cells throughout 
Latin America. Battling narcoterrorism and its beneficiaries is just 
one part of the overall War on Terrorism, but it is an essential part 
which must be waged, particularly in our hemisphere.
    To outline United States Southern Command's efforts in this 
endeavor, I will discuss the threats we face, the progress we have 
made, and the way ahead. Helping the region's countries gain and 
maintain security is an ongoing, gradual process that requires us to 
stay the present course. Building security inside these countries is 
vital to our overall regional approach, because only nations that are 
secure can benefit from democratic processes and economic growth. In 
both the short and the long term, it is in our own best interest to 
help the Colombians and their neighbors help themselves. Our 
continuous, steady support is required to forge the way ahead.
                         threats in the region
    The War on Terrorism is my No. 1 priority. While the primary front 
in this global war is in the Middle East, Southern Command plays a 
vital role in fighting branches of global and local terrorism in this 
hemisphere. We are increasingly identifying and assisting partner 
nations to engage those who seek to exploit real and perceived 
weaknesses of the region's democracies.
    The primary threat in our region continues to come from the three 
largest illegal armed groups in Colombia, all named on the State 
Department's list of foreign terrorist organizations: the Revolutionary 
Armed Forces of Colombia or FARC, the National Liberation Army or ELN, 
and the United Self-Defense Forces or AUC. Many familiar with 
Colombia's conflict and many press accounts still sentimentally 
describe these terrorist groups as ``revolutionaries,'' ``guerrillas,'' 
``rebels'' or ``militias,'' lending them some kind of tacit legitimacy 
with those words. These terms are misleading and obsolete. A group that 
straps explosives to an 11-year-old boy, sends him into a police 
station, and then remotely detonates the explosives, as the FARC did on 
April 17th in Arauca, Colombia, forfeits any claim to legitimacy. While 
these groups surely retain fragments of their founding philosophies, 
they appear to have jettisoned ideology in favor of terrorist methods 
and illicit revenues. Today, these groups consist of criminals, more 
precisely defined as narcoterrorists, who operate outside the rule of 
law in order to profit at the expense of Colombia and its people. These 
terrorists directly challenge the legitimate authority of the Colombian 
administration yet offer no viable form of government themselves. Some 
of them have had 40 years to win the hearts and minds of their 
countrymen, yet they, and the FARC in particular, can garner no more 
than 3 percent public approval.
    Colombia is on the very front line of the regional war against 
terrorism. Their citizens suffer daily from murder, bombings, 
kidnappings, and lawlessness practically unimaginable to us. In this 
war-torn country, the conflict has been accelerated by illicit drug 
money and claimed thousands of lives. Colombia is also experiencing an 
unprecedented humanitarian crisis, with an estimated 1.5 million 
Colombians having been displaced from their homes. In 2001 there were 
more terrorist attacks in Colombia alone than in all other nations of 
the world combined--averaging four per day. Colombia has the highest 
homicide rate in the world--77.5 per 100,000--nearly 14 times the U.S. 
rate, making homicide the most likely cause of death. Moreover, about 
3,000 people were kidnapped last year, making Colombia the kidnapping 
capital of the world. Colombia remains the world's leading producer of 
cocaine and accounts for 90 percent of the U.S. supply. The 
narcoterrorists have become dependent on drug income for much of their 
operational capacity. We expect them to fight to keep the drug industry 
productive as it comes increasingly under attack from the Government of 
Colombia.
    One example of this trend is found in the Cocaleros movement in 
Bolivia, in which manipulative traffickers, in conjunction with a 
radical political party, seek to tap peasant frustration to undermine 
the elected government. There is evidence that outside forces are 
attempting to influence this movement. On April 10th, Bolivian 
authorities arrested suspected Colombian ELN member Francisco Cortes, 
along with Bolivian Cocaleros and two members of the Bolivian ELN. 
Authorities confiscated ELN literature, false identity documents, over 
two kilos of cocaine base, and material to fabricate explosive booby 
traps. Another example is becoming evident in Peru. The Shining Path is 
undergoing a resurgence, based on the FARC model, by protecting cocaine 
smugglers and collecting taxes on the coca trade. This resurgence 
already directly threatens U.S. interests, as evidenced by the Shining 
Path bombing near the U.S. Embassy prior to President Bush's visit last 
March. These examples of narcoterrorists operating transnationally and 
attempting to influence other movements set an unwelcome but likely 
precedent in the region.
    Beyond the narcoterrorist threat concentrated in the Andean Ridge 
are extensions of Middle Eastern terrorism. Radical groups that support 
Hamas, Hizballah and Islamiyya al Gammat are all active in Latin 
America. These cells, extending from Trinidad and Tobago to Margarita 
Island off Venezuela to the tri-border area of Paraguay, Argentina and 
Brazil, consist of logistics and support personnel. However, terrorists 
who have planned or participated in attacks in the Middle East, such as 
recently captured Khalid Shaihk Mohammed, have spent time in the 
region. These groups make millions of dollars every year via illicit 
activities. Hizballah, for example, smuggles Latin American cocaine to 
Europe and the Middle East. These cells continue to reach back to the 
Middle East and solidify the sophisticated global support structure of 
international terrorism. Not surprisingly, international terrorist 
groups and narcoterrorists in Colombia all practice the same business 
methods.
    A derivative threat from continued narcoterrorist violence is the 
instability and corruption it provokes across the region. Governments 
that face direct challenges to their legitimacy and which cannot 
effectively police their entire sovereign territory can become safe 
havens for illicit groups of all persuasions. As the United States 
roots out international terrorists across the world, we must be careful 
not to overlook instability generated by narcoterrorists nearer to 
home, which makes threatened countries attractive destinations for 
terrorist groups. These countries are desirable to those who seek to 
harm the United States for many reason. First, they are close to us. 
Second, they provide launching points along already established drug, 
arms, and human trafficking routes. Third, terrorists with large 
amounts of cash can procure counterfeit official documents in the 
region. Fourth, Islamic radicals can easily blend into Latin America's 
long established Arab communities to avoid scrutiny. Finally, the money 
generated by narcotrafficking cannot fail but to entice terrorist 
groups beyond those already operating in Colombia, such as we are 
seeing with the Shining Path in Peru.
    While the threats to our Nation from international terrorism are 
well known, the threats spawned by narcoterrorism are lesser known yet 
reach deep into this country. According to the Centers for Disease 
Control and Prevention, over 19,000 Americans die annually as the 
direct result of drug-related causes. This equates, in my mind, to a 
weapon of mass destruction. This staggering number does not take into 
account the second and third order effects on families, the lost 
productivity of those lives cut short, or the additional thousands of 
Americans we lose to indirect drug-related causes. As a Nation we 
simply cannot afford to give up on tens of thousands of our own 
citizens every year. Taking the fight to the narcoterrorists is one way 
we as a Nation can effectively address one crucial part of this multi-
faceted problem.
                  the uribe administration's progress
    The threats we face in our hemisphere are real, but we are not 
standing idly by and watching them grow. Instead we are working with 
the nations across the region to shore up their internal security. 
Colombia faces the biggest challenge; the narcoterrorist center of 
gravity lies within its borders. President Uribe won a landslide 
victory by running on a platform of aggressively hunting down the 
terrorists in his country. After years of failed attempts to negotiate 
with these groups, to include a bold experiment that gave the FARC a 
safe haven in the southern part of the country, the people of Colombia 
had finally had enough of terrorist groups, especially after seeing how 
the FARC had used their safe haven to plot terrorist acts instead of 
social progress and to cultivate coca rather than community.
    President Uribe faces enormous challenges, but he is using his 
mandate to put deeds behind his words. He has only been in office for 8 
months, and turning the government from a conciliatory posture to an 
aggressively focused one is not an easy task. We need to be steadfast 
in our support of him now to set the conditions for his longer-term 
success. We are only two and a half years into our substantial support 
for Plan Colombia. President Uribe will be the critical player in 
ensuring the overall success of this investment by the American people. 
The signs of his progress are already becoming evident. Colombia 
developed a comprehensive national security strategy that directs all 
the tools at the government's disposal toward a common end of defeating 
the terrorists. President Uribe has levied a war tax on the country's 
wealthiest citizens. He is increasing military and police end-strength. 
The government has developed a plan to protect travelers along the 
major roadways. He is pushing the military and the police to regain 
control of areas and neighborhoods dominated by the narcoterrorists. In 
those areas where the government is regaining control, they are 
providing more robust social services to support those who previously 
suffered most from their absence.
    Specifically, the military has had growing operational success 
against mid-level leadership in narcoterrorist organizations across the 
country. Last October, elements of the Colombian 1st Counter Narcotics 
Brigade dealt the FARC a significant blow when they carried out an 
intelligence-driven combined arms operation that resulted in the death 
of the 15th Front Commander, Mocho Cesar, and the capture of several 
key subordinates. On February 15th of this year, Colombian forces 
captured Aparicio Conde, the finance chief of the FARC's Joselo Lozada 
Mobile Column. On March 10th, they captured 13 FARC members of the 37th 
Front in Barranquilla, to include Jose Olivero Ospina, the 37th Front 
operations officer. This notably cohesive operation was a joint and 
interagency undertaking, effectively coordinating the efforts of the 
police, the Army, and the Prosecutor General's office. On March 24th, 
the Colombian National Police captured Luis Armando Castillo, the 
finance chief of the FARC's Manuel Cepeda Vargas Front. Finally, 
throughout the month of April, Colombian security forces arrested 
senior members of the Antonio Narino Urban Front, the main unit that 
terrorizes Bogota.
    The Colombian military and National Police have also been more 
aggressive in rescuing a number of kidnap victims, to include an 
archbishop and the daughter of a prominent businessman. Eradication 
efforts showed marked improvement in 2002 as coca cultivation in 
Colombia decreased by 15 percent. These examples show the incremental 
progress that is being made against key actors and support systems in 
the narcoterrorist infrastructure. Meanwhile, the psychological 
benefits that all law-abiding Colombians derive from observing these 
successful and professional actions do much to strengthen their 
national morale.
    A remarkable event occurred on April 25, 2003. Rafael Rojas, a 20-
year veteran of the FARC and commander of the group's 46th Front under 
the alias Fidel Romero, turned himself in to Colombian authorities. On 
April 28th, flanked by President Uribe and the administration's top 
military leaders at a nationally televised press conference, Rojas 
called on his former comrades to surrender stating, ``Positive things 
have not resulted . . . On the contrary, the prolonged war has left 
only desolation and destruction.'' More importantly, Rojas said the 
``movement had clear origins, but its ends are no longer known.'' While 
we don't know Rojas' motivation for turning himself in, his statement 
implies that he grasps the reality of what is occurring today in 
Colombia. We hope this marks the beginning of a trend. The firm resolve 
of the Uribe administration, backed by aggressive military operations, 
has resulted in increased desertions by enemies of the state. The 
government's actions are paired wisely with a complementary government 
program under which those who leave the FARC voluntarily are put in 
protected housing and receive health care, education, and work 
training.
    In conjunction with military efforts, President Uribe has sponsored 
political, economic, and judicial reforms. With the support of his 
Congress, the government is calling for political reforms. These 
reforms aim to reduce the government bureaucracy, cap pensions, and 
eliminate corruption. These measures will streamline the government and 
increase its ability to focus on the internal disturbance. 
Economically, Uribe's stance and the promised reforms have buoyed the 
country's confidence. Colombia has raised over one billion dollars via 
bonds since the new administration took office, and its stock market 
has increased by 50 percent this year. Likewise, President Uribe has 
sought to stamp out corruption and bolster judicial reform. He issued 
Presidential Directive No. 10, which was his anti-corruption strategy, 
designed to halt the revenue lost from corruption and political 
cronyism. He established a mechanism to oversee State contracting that 
will save an estimated two billion dollars annually, and he has 
established merit-based hiring practices. Though an overburdened 
judiciary continues to sort through an enormous pending case backlog, 
there are positive trends that those accused of crimes, especially 
those with money and influence, are being tried in due course and not 
being allowed to opt out of the system.
    Colombia is fighting its illegal armed groups justly, in accordance 
with democratic values and human rights. This is instrumental in what 
we are collectively striving to achieve. The Colombian government is 
not resorting to rural concentration camps, peasant roundups, 
massacres, disappearances or other tactics used by their enemies. We 
continue to monitor closely the human rights record of the Colombian 
military. If one reads all of the Department of State's 2002 Colombian 
Human Rights Report instead of the snippets that have been circulating, 
one gains a deeper appreciation of the strides the government has made. 
The vast majority of allegations of human rights abuses, over 98 
percent, are attributed to Colombia's illegal armed groups, primarily 
the three-narcoterrorist groups, and not to government forces. This 
report clearly demonstrates the institutionalization of human rights by 
the Colombian government, whose forces as recently as the mid-1990's 
were accused of 50-60 percent of human rights abuses.
    The Human Rights report finds that,

          ``The government has an extensive human rights apparatus 
        coordinated by the office of the President's Advisor for Human 
        Rights. That office coordinates with local human rights groups. 
        Most notably, it established a special `momentum' committee to 
        advance judicial resolutions of 100 key human rights cases.''

    Over 290,000 members of Colombia's security forces have received 
specialized human rights training since 1996, conducted by the 
International Committee of the Red Cross, the Colombian Red Cross, the 
Roman Catholic church, foreign governments, and other government 
offices and agencies. The Ministry of Defense signed an agreement with 
two prestigious, private civilian national universities and the Inter-
American Institute of Human Rights to conduct research and training on 
human rights and international humanitarian law issues and to organize 
seminars designed to foster dialog with nongovernmental organizations 
and academics. I am convinced the Colombian government is serious about 
human rights and will continue to promote them aggressively.
    An area of concern is the perception of collusion between the 
Colombian military and the AUC. President Uribe and the senior military 
leadership have made it perfectly clear that they will not tolerate any 
collusion with the AUC or other illegal ``self-defense'' groups, and 
that they are just as criminal as the other terrorists. Collaboration 
with any groups that operate outside the law is illegal and punishable 
by the civilian justice system. Despite great progress, it would be 
disingenuous to say that all collusion has been stamped out. Like any 
tough problem, this one will take time. I'm confident that as an 
institution, the Colombian military and its current leadership 
completely understand the seriousness of this matter and are headed in 
the right direction. As just one demonstration of their resolve in this 
area, the military doubled operations against illegal self-defense 
groups last year and has quadrupled the number captured since 2000.
    This list is just a partial highlight of the coordinated effort the 
Colombian government is making to solve its own problems. President 
Uribe has infused his government with energy, organization, and a sense 
of purpose. He is getting results now, and will continue to direct all 
his resources toward snaking Colombia a safe, prosperous, democratic 
nation. He understands that this is primarily a Colombian problem, one 
which Colombia must solve, yet he still needs our help to make his 
efforts ever more effective. President Uribe stood by us as a member of 
the Coalition of the Willing in Operation Iraqi Freedom, a stance 
unpopular with both Colombian public opinion and his regional peers. He 
is providing the strategic leadership that Colombia needs to move 
ahead. Recent polls show public confidence in him and the military 
increasing. Now, early in his administration, is the time he most needs 
us to demonstrate to him, his government, and his people our continued 
resolve.
              u.s. southern command assistance to colombia
    Southern Command's assistance to Colombia is not operational but 
instead is in training and assisting the Colombians to deal with their 
internal problems themselves. We have a vested interest in the outcome, 
but it must remain primarily a Colombian fight. President Uribe's 
actions have generated momentum against his country's criminals, and 
our deployed forces have seen a noticeable boost in the attitudes of 
those we are training. Our physical presence is rather modest, by law 
being no more than 400 troops and 400 civilian contractors. But you've 
seen what a few dedicated men working with allied forces can 
accomplish. We're having a similar effect in Colombia. Their military 
proficiency is improving. This means they can respond quicker, move 
faster, and fight better than ever before.
    Our Special Forces have trained the staff and soldiers of 
Colombia's best units, giving these units an added edge of operational 
effectiveness that is paying dividends. The 1st Counter Narcotics 
Brigade has provided the Colombians a flexible, mobile, offensively 
oriented fighting force of three 600-man battalions that are able to 
conduct quick strike missions against narcoterrorists. The 
establishment and training of a Commando Battalion, modeled on our own 
Ranger battalions, has given the Colombians a unit that can strike 
high-value targets including enemy leadership. The Colombians plan on 
establishing another commando battalion in Fiscal Year 2004. We have 
also trained with the Colombian urban counter-terrorist unit and 
continue to work with them to upgrade their capabilities and equipment. 
Recently, U.S. Special Forces have also been training Colombian Armed 
Forces in Arauca to protect a portion of the 772-kilometer oil pipeline 
that has been a frequent target of FARC and ELN attacks. This training 
is just one part of a nationwide Infrastructure Security Strategy that 
protects critical facilities and reestablishes control in 
narcoterroirist influenced areas of the country.
    We continue to train Colombia's helicopter pilots, providing their 
forces a growing ability to perform air assaults that are key in the 
battle against dispersed enemies. We deploy intelligence, surveillance, 
and reconnaissance assets in country that have provided timely, 
actionable intelligence to Colombian units. We are training their 
staffs with Planning Assistance Teams that increase their ability to 
plan and execute intelligence driven operations against illegal armed 
groups. We are working with Colombian Marines to establish two Mobile 
Training Teams that will work with the Riverine Brigade to raise 
proficiency for riverine interdiction. We contract logistics to help 
the Colombians maintain their own C-130 fleet. We are training the 
Colombian National Police Carabineros (Rural) with the goal of 
reestablishing governance throughout the country. We are providing 
medical training and assistance to help the Colombians improve their 
casualty evacuation methods as well as implementing other safety 
programs to help them preserve their combat power. In civil-military 
operations, we are helping the Colombians to build civil-affairs 
capability that will be implemented in the Arauca Rehabilitation Zone 
to bring humanitarian aid and functioning institutions to previously 
terrorized areas. This program will eventually be expanded across the 
country. Finally, we are working with the State Department to re-
establish the Air Bridge Denial Program to be run by the Colombians 
with U.S. ground and air safety monitors. In support of this issue, the 
United States Department of Justice is assisting a certification team 
to ensure that legal controls are applied and implemented.
    The one constant running through all of our efforts is the non-
negotiable emphasis on human rights. Southern Command has played a 
leading role in advancing the cause of human rights in Colombia and 
throughout the region, and our efforts have certainly supplemented the 
government's program and helped professionalize the Colombian military. 
We are the only combatant command to have a full time human rights 
staff directorate. Respect for human rights is embedded in everything 
we do, whether training forces, educating officers, or conducting 
exercises. This guiding principle will remain our foundation.
    Although we are not taking part in direct operations, Americans are 
still at risk during the course of their duties. Currently, three 
American contractors are being held hostage by the FARC. We have been 
working hard to recover them, There are several factors that make this 
recovery difficult, but two are overriding. First, the area where the 
search is being conducted is in some of the thickest jungle in the 
country. Second, this area is the FARC's backyard, and they have a 
first hand knowledge of the terrain combined with a sizable support 
network in the area. We are pressing forward with the search and rescue 
effort around the clock. There is at least one positive result so far. 
The Colombian Military, to include units from the 1st Counter Narcotics 
Brigade, has been leading the search, and in doing so are operating in 
parts of the country they haven't set foot in for 15 to 20 years. They 
are taking the fight to the enemy on his turf, and they are doing well. 
Our training shows.
                    regional support beyond colombia
    Colombia is the linchpin in the narcoterrorist battle, but we must 
be careful not to win the battle in Colombia and lose the war in the 
region. As the Colombians make progress, their success will push 
narcoterrorists to seek safer areas in which to operate. Already, the 
FARC, ELN, and AUC operate freely across the weak borders of Colombia's 
neighbors, and the remote nature of many of these areas makes them ever 
more attractive as safe havens. Those countries also lack the 
organization and resources to maintain territorial sovereignty in these 
ungoverned spaces. Consequently, across the Andean Ridge we are working 
with the bordering nations to increase cooperation, fortify borders and 
strengthen capabilities.
    We are actively strengthening regional cooperation. In an ongoing 
multinational exercise, we are training with the Colombian Navy on 
littoral techniques in a combined operation with Panamanian, British, 
and Dutch participation. In Peru, we have built upon their riverine 
interdiction ability, as well as working with the interagency to 
support their eradication program and counternarcotics aviation. We are 
working to restart the Air Bridge Denial Program in Peru with 
additional safeguards. In Ecuador, we have supported their riverine 
capability and worked closely with them in completing the essential 
forward operating location at Manta. We are seeing a welcome 
acknowledgment of the Colombian border concern by their leadership, and 
we are studying the possibility of training; their 19th Jungle Brigade 
along the same lines as the units we've trained in Colombia. In 
Bolivia, we have worked on their riverine capabilities as well and 
supported their eradication efforts. We will continue to monitor the 
Cocalero movement. I am particularly encouraged by the bilateral talks 
President Lula of Brazil and President Uribe conducted in March during 
which they acknowledged the common interest their countries shared in 
controlling drug traffickers in the Amazon region. We have already seen 
the Brazilians take up active patrolling on their own border with 
Colombia.
    Venezuela is undoubtedly a key player in overall regional security 
but also the most unpredictable. We are maintaining military-to-
military contacts at the colonel level and below. Venezuelan officers 
come to our schools and we send U.S. officers to theirs. In the 
domestic turmoil so far, the Venezuelan military has not harmed its own 
citizens, which is a positive signal that the military is attempting to 
maintain its professionalism. We will maintain our contacts providing 
the Venezuelan military continues to act in a constitutionally correct 
manner.
                               way ahead
    As the lead agent for the Department of Defense to implement U.S. 
policy for the military efforts in Colombia, U.S. Southern Command will 
continue to maintain a priority effort against narcoterroriism. Key in 
most of our recent endeavors has been approval by the U.S. Congress of 
Expanded Authority legislation. This legislation has allowed us to use 
funds available for counterdrug activities to provide assistance to the 
Government of Colombia for a coordinated campaign against the terrorist 
activities of its illegal armed groups. The granting of Expanded 
Authority was an important recognition that no meaningful distinction 
can. be made between the terrorists and drug traffickers in our region. 
All three of Colombia's terrorist groups are deep into the illicit 
narcotics business. Trying to decide whether a mission against a FARC 
unit was a counterdrug or counterterrorist one was an exercise in 
futility and hampered operational effectiveness on the ground. Expanded 
Authority has eliminated the time consuming step of first evaluating 
the mission based on its probable funding source and now allows us to 
bring to bear all our assets more rapidly. As just one example, it will 
allow assets controlled by Joint Interagency Task Force South (JIATF-S) 
to continue being used to their full potential to provide real-time, 
actionable intelligence that is key in conducting effective operations 
against the narcoterrorists. Expanded Authority for FY04 is the single 
most important factor for us to continue; building success in Colombia.
    Expanded Authority is foundational for the overall way ahead for 
Colombia, but it will be supplemented on many fronts across the region. 
JIATF-South, a model of interagency cooperation for our entire 
government, will broaden its focus beyond narcotics to use its assets 
to counter all illicit trafficking, including arms, ammunition, 
explosives and weapons of mass destruction. We will continue to conduct 
exercises and training in the region. We are working with nations in 
the region to build their intelligence capabilities and to protect 
their critical national infrastructures. We are working with them to 
build effective logistics and communications architectures that will 
support intelligence driven operations.
    We will continue to bring Latin American officers, non-commissioned 
officers, enlisted members, and defense civilians to our professional 
schools in the United States. Hand-in-hand with our professionalization 
efforts is a continued emphasis on human rights and international 
humanitarian law. All of these efforts help build a coordinated 
regional approach and regional cooperation. While our efforts are, for 
good reason, Colombia-centric, we are not letting others fall behind to 
become the next targets for terrorist groups. The cooperative counter 
narcoterrorist groundwork we are laying today will further our national 
security for decades to come.
                               conclusion
    For most nations in our region, the threats come from within. It 
will be up to those nations to demonstrate their ability to govern, 
enforce the rule of law, implement judicial reform, and develop a 
profound respect for human rights. These fundamentals provide the 
stable and secure environment necessary for economic growth--growth 
that will improve the quality of life for ordinary citizens. Southern 
Command plays a crucial role in assisting the development of security 
forces that help provide the ability to govern throughout the region, 
particularly in Colombia.
    We are at a critical time in Colombia's history. The elected 
government of President Uribe enjoys unparalleled approval[ ratings 
approaching 70 percent. Under his leadership, the military and police 
are helping to regain control of areas long held by narcoterrorists. 
Colombia's citizens are taking a more active role in their nation's 
defense and providing actionable intelligence to the Colombian Armed 
Forces. There is a renewed sense of momentum, commitment, and hope as 
the Colombian people struggle to save their country, but there is also 
a finite window of opportunity beyond which public opinion and support 
will wane without significant progress.
    I am cautiously optimistic about Colombia, though there remains an 
enormous amount of work to be done. I am proud to say we do a great 
deal to further our nation's interests in this hemisphere with very few 
resources and a modest presence. We are at a critical point where the 
progress in eliminating conflict, reducing tension, and establishing 
democracy throughout the region could be at risk if we are not 
steadfast in our efforts. While our attention is drawn to another 
region of the world, we must keep in mind that we live in this 
hemisphere, and its continued progress as a region of democracy and 
prosperity is paramount to our national security.
    I would like to thank the Chairman and the Members of the Caucus 
for this opportunity and for the tremendous support you have provided 
this command. I can assure you that the men and women of the United 
States Southern Command are working to their utmost to accomplish their 
missions for our great country.

    Chairman Grassley. What I am going to do here is ask 
questions that both of you can respond to, but you don't have 
to both respond. When I say both, I mean the four of you as two 
different entities.
    Originally, Plan Colombia called for significant levels of 
assistance from several European countries. I hope I am right 
in understanding that very little assistance has been 
forthcoming, despite current estimates that close to 50 percent 
of all cocaine produced in Colombia is ending up in Europe.
    Is that accurate, and what changes have had to be made to 
U.S. assistance to compensate for the lack of help we expected 
from the Europeans?
    Mr. Struble. Mr. Chairman, thank you very much. You are 
correct that we have been very disappointed.
    Chairman Grassley. Just a minute. I think that we should 
put the clock on so that I don't eat up all the time of my 
colleagues.
    Proceed.
    Mr. Struble. Thank you, sir. We have been disappointed by 
the failure of the European Union and individual European 
countries to come in to support the goals of Plan Colombia. As 
you have noted, they have a strong interest in this.
    I am pleased to say, though, that there are some increasing 
signs of recognition on the part of European countries that 
they need to do more. We believe that they could most 
particularly make a contribution to the social goals of Plan 
Colombia.
    The United Kingdom will be sponsoring a conference on July 
10. It is actually a preliminary conference which is aimed at 
getting donor countries to talk about the unmet needs of 
Colombia. And then a second conference later on in the year 
will seek to ensure that there is a more robust answer to those 
needs.
    Now, I will say that some European countries have been an 
exception to this general rule. The Government of Spain, for 
example, has donated some aircraft to Colombia and the British 
government has provided some very useful military training of 
special units in, for example, long-range reconnaissance.
    Chairman Grassley. The United States has spent, I believe, 
over $2.5 billion since the year 2000 to assist Colombia in 
this way. Have there been some changes in the original time 
lines that were very wildly optimistic?
    Now that all assistance called for in Plan Colombia has 
been delivered, could you highlight what performance measures 
are being used to assess the success or failure of the 
eradication and military training assistance that has been 
funded, and what is the time line for either the completion of 
the eradication or the military assistance programs currently 
being conducted?
    Mr. Simons.
    Mr. Simons. Thank you, Mr. Chairman. The original Plan 
Colombia document included a policy objective of reducing the 
coca crop by 50 percent in 6 years' time, and that would 
essentially mean a 50-percent reduction in cropping levels by 
the end of 2005.
    I think it is fair to say that because of initial delays in 
the provision of some of the helicopters and some of the spray 
planes that we got going a little later than we originally 
thought. But we believe that, in particular, with the results 
that were demonstrated last year and with the pace of spraying 
that we are on now, including the goal of spraying all 
remaining coca in Colombia during the course of calendar 2003, 
we are on track to meet that original deadline of a 50-percent 
reduction by the end of 2005.
    Now, President Uribe has staked out an even more ambitious 
goal of complete elimination of coca by the end of his term in 
office. And, again, our goal for 2003 is to spray all remaining 
coca, spray all remaining poppy.
    The other area that we have set, I think, a fairly----
    Chairman Grassley. Can I ask you if those time lines have 
been affected in any way because we have lost two spray planes 
since the first of the year, and presumably they haven't been 
replaced yet?
    Mr. Simons. That is correct, but fortunately we recognized 
during the course of 2002 that we were going to have to step up 
our spray operations, including stepping up our infrastructure. 
So what we have been able to do, with the cooperation of 
Congress, is we have adjusted our 2003 budget to provide an 
additional $9 million for the spray program. Congress also, in 
the context of the emergency supplemental for 2003, provided us 
an additional $14 million for the spray program. So with those 
resources, we believe that we can achieve our objectives for 
this year.
    I would like to make one other point, though, on the 
question of objectives. On the helicopter side, 2 years ago the 
Colombian army had no helicopter fleet at all. We essentially 
stood up from scratch a 72-unit helicopter fleet. In 2 years' 
time, while it has been costly in terms of the amount of 
operating expenses that we have had to cover, we now have 72 
helicopters up and running at an 80-percent operational 
readiness rate.
    I believe this is a very strong achievement, and these 
helicopters are the ones that are providing the mobility for 
the counter-drug brigade to undertake interdiction operations 
to support the spray operations on the ground. So I think 
actually, while it took some time to get these helicopters up 
and running, they are making a major contribution now 2 years 
into Plan Colombia.
    Chairman Grassley. General Hill, does that speak for you, 
too, or do you have a different perspective or an added 
perspective from where you are posted?
    General Hill. Yes, sir. From my perspective, especially 
since President Uribe took office in August, the ability of the 
Colombian military to conduct military operations, both in a 
counter-drug and a counter-terrorist situation, has gone up 
exponentially.
    We did a wonderful job and they responded greatly in terms 
of training the counter-narcotics brigade, especially, and then 
they went into operations in the Putumayo and Caqueta area. We 
have essentially moved drug trafficking out of those two 
provinces closer to the coast to the Narino area, and the 
Colombian military is now undergoing major operations in Narino 
and doing a wonderful job there, also, collecting significant 
seizures.
    Those kinds of military operations, though, are simple 
operations when compared to going after high-value targets, 
infrastructure, and the leadership of the illegal narco-
terrorist organizations. In the last 90 days, we have done some 
work with their commando unit and those operations are also 
paying off tremendously.
    I think that over the next year you will those operations, 
as the Colombian military even gets better at those very 
sophisticated operations, paying off in even greater dividends. 
But you cannot overstate the importance of the mobility of the 
helicopter fleet. It is what gives the Colombians the ability 
to get out into the countryside and to carry out operations 
where they have not been to go for years.
    Thank you, sir.
    Chairman Grassley. This will be my last question and it is 
in regard to our bilateral agreement regarding the number of 
personnel that are available for helicopter operations and 
maintenance.
    While initial levels for trained personnel were met, we are 
going to have the General Accounting Office later on today 
testify that many of the trained personnel cannot be currently 
located. This means that this program is heavily dependent, 
then, on contractor support for operations.
    What is being done to ensure that trained Colombian 
military personnel can be identified and are putting their 
U.S.-funded training to use?
    General Hill. I think there are two pieces to that, so I 
will have Mr. Simons start.
    Mr. Simons. Mr. Chairman, I think this is a very good point 
that we have been in discussions with the GAO about for some 
period of time and it is one that we focus a lot of energy on. 
I think I would like to address it in two separate pieces; 
first, the pilot situation and, second, the situation of the 
mechanics.
    Again, we were creating a Colombian army aviation capacity 
from the ground up, and in the case of the pilots for the 72 
helicopters that we have up and running now, we have identified 
and trained a total of 126 Colombian pilots in the past 2 
years. So all the helicopters now have Colombian co-pilots full 
qualified and we are in the process of converting those co-
pilots into pilots and command. That process is going to take a 
couple of years, but we are well on our way to a 
Colombianization of the pilot crews for all of these 
helicopters.
    With respect to mechanics, we have approximately 65 
Colombian army mechanics available to perform maintenance on 
the helicopters and they are undertaking training under the 
contractor's supervision. I have discussed this issue this 
morning with my staff and I understand it takes about 6 years 
to get a fully trained helicopter mechanic operational.
    So this is going to be again something that is going to 
take some period of time, but we are fully committed to it. We 
are fully committed to working with the Colombians to try to 
get them to enforce agreements such that when we put people 
through the training program, they stay on the job for a 
significant period of time. But this will be something that 
will take a number of years to fully phase in.
    Chairman Grassley. Does that speak for you, General, or did 
you have something to add?
    General Hill. No, sir. It does speak for me.
    Chairman Grassley. I thank each of you for coming here and 
for your testimony. I am going to call on Senator DeWine now, 
but I am also going to call on him to Chair the Caucus because 
I have the responsibility as Chairman of the Finance Committee 
for the prescription drug program and I have to go to a meeting 
on that now.
    So would Senator DeWine take over?
    Senator DeWine. I certainly will, Mr. Chairman.
    Chairman Grassley. I apologize to the third panel that I am 
not going to be able to hear them. I have a lot of questions of 
this panel, so I may submit some for answers in writing because 
I didn't get very far down the line.
    Senator DeWine [presiding.] Thank you, Mr. Chairman.
    Let me ask members of the panel--and you have covered this 
really a little bit, but if you could kind of summarize for me 
what has been the biggest disappointment or disappointments of 
Plan Colombia. Where are we behind? Just kind of give me a 
list.
    Who wants to start? And if we are behind, how are we going 
to get caught up?
    Mr. Struble. I will start, Senator, by saying that we 
acknowledged a year when we requested new authorities from this 
Congress that the original premise of Plan Colombia was too 
limited, that the actions of narcotics traffickers and of 
Colombia's terrorist groups were so intertwined that an effort 
that focused simply on the law enforcement piece of this, on 
going after the narcotics traffickers, created a number of 
anomalies in intelligence-sharing, for example, and in our 
ability to provide training for some key Colombian units that 
were needed in that integrated counter-terrorism role.
    I believe, though my colleague, General Hill, could comment 
on this more, that the provision of the new authorities has 
been extremely important in setting us on the right course and 
allowing us to set the stage for the rapid progress that we 
have seen.
    Senator DeWine. But you have that now.
    Mr. Struble. We have that, yes.
    Senator DeWine. So you are catching up, is what you are 
saying.
    Mr. Struble. We are catching up, indeed.
    General Hill. Sir, let me add to Mr. Struble's comments, 
especially on the expanded authority. If you said to me what 
are the two biggest issues, one is the expanded authorities 
that allowed us to break the drug nexus into narco-terrorism, 
counter-terrorism operations, is the single greatest 
deficiency.
    We focused so long only on the drug nexus that we were 
unable to go after the leadership. We can now do that--greater 
intelligence-sharing with the Colombian military, use of the 
Plan Colombia helicopters, dollars, and other assets, and the 
ability of the Colombian military to take that actual 
intelligence and operate with it. That is before the Congress 
again and we just simply have to have it. If we walked back 
from expanded authority, it would be a terrible mistake.
    I will give you two anecdotes, one good, one bad.
    Senator DeWine. That would be helpful.
    General Hill. When Ms. Bettencourt was kidnapped, before 
expanded authorities, the Colombian military came to us and 
asked us for helicopter support to go in search of her. We 
could not provide it because there was no drug nexus to support 
that operation.
    Senator DeWine. You could not supply----
    General Hill. The helicopters to look for Ms. Bettencourt.
    Senator DeWine. What about intelligence?
    General Hill. We couldn't provide the intelligence either.
    Senator DeWine. So you can't do intelligence, you can't 
share intelligence?
    General Hill. No, sir.
    Senator DeWine. There was a wall there?
    General Hill. An absolute firewall between, if you couldn't 
prove a drug nexus, you could not provide the intelligence. 
That put the burden on the intel analyst to sit there and to 
show you that there really was a drug nexus in order to do it. 
That is ludicrous and we are beyond that.
    Senator DeWine. So it is equipment, plus intelligence.
    General Hill. Yes, sir. If the Congress gave it to us with 
drug money, before expanded authority, we could not use that 
money in support of activities in Colombia. We are beyond that.
    Senator DeWine. OK, one example.
    General Hill. Yes, sir. I will give you a good example. 
About 4 months ago, after we had expanded authority, the 
Colombian military and the counter-narcotics brigade was 
running an operation in the Putumayo area and they were doing 
operations going from village to village with our helicopters, 
Plan Colombia helicopters.
    In one little village, a man walked up to them and said, 
``You know, the 45th Front FARC commander comes in here all the 
time; if you will give me a cell phone, I will call you the 
next time he is in town and you can come and get him.''
    About 3 weeks later, the phone rings, it is a Saturday 
morning, and it is this villager who said, ``Hey, they're 
here'', and described the building that they were in and all 
the details. As luck would have it, and sometimes wars are won 
on luck, there was a platoon sitting on an airstrip and an 
aggressive commander who was able to get some helicopters.
    They had been in that village a couple of weeks before. 
They got the helicopters in, they planned the attack, they flew 
there, they took down the village, and got the FARC commander 
and 300 kilos of cocaine and a lot of ammunition. Start to 
finish, 6 hours. If that was a unit from the 101st Airborne 
Division Air Assault at Fort Campbell, Kentucky, where I used 
to command a brigade, you would applaud it. It was an excellent 
operation. It could never have taken place before expanded 
authorities.
    Senator DeWine. Good, that is helpful.
    General Hill. I think Mr. Billingslea would like to add 
something.
    Mr. Billingslea. Senator, I think we came to the 
realization that the FARC is fundamentally a narco-terrorist 
organization somewhat late, and we inherited a structure 
related to the Plan Colombia program that was somewhat 
stovepiped, as you have heard, between the counter-drug 
approach and the counter-terrorism approach.
    Because we have not only obtained the expanded authorities, 
but because we have, I think, more prudently defined the term 
``counter-drug'' to include measures that are reasonably 
related to narcotics trafficking, we have been able to provide 
a variety of assistance that previously was not provided.
    We have been able, for instance, to provide military 
assistance teams to translate intelligence information into 
operational capacity. Just because you have intelligence on a 
terrorist group doesn't necessarily mean that you have the 
gears engaged to then take action to thwart a planned terrorist 
attack. That is something that has been evolving and is going 
to be crucial to the process.
    Second, you will find that we have been able to train a 
larger variety of units, all carefully vetted through the 
Department of State process. That is critical, but sometimes 
can be slow, and that can impede the rapidity with which we can 
act in concert with our partners.
    But you will find that we have been able to train not only 
a counter-narcotics brigade, but also a special forces commando 
battalion; a lancero battalion, which is a rangers type of 
unit; and a special operations command headquarters staff. All 
of this training is essential to bring the other pressure point 
to bear, which is not just eradication of the coca fields and 
the financial mechanisms that the FARC uses to fund itself, but 
to move against the FARC itself, to move against the 
leadership, to assist the Colombian government in deploying 
small, agile teams that are capable of going after this 
terrorist group to strike them before they are able to conduct 
further attacks.
    Senator DeWine. My time is up and I am going to turn to 
Senator Sessions, but I want to get back to the question of 
what is not working. You have told me now we have changed 
something and we are moving in the right direction, but if we 
look at the overall Plan Colombia, what is not working?
    General Hill. From a military perspective, in my view, the 
Colombian military, especially in the last 9 months, has made 
significant strides in their ability to take actionable 
intelligence that we can provide them and operationalize that 
intelligence. They are still a long way away from doing that 
routinely or without our assistance. They are getting better 
everyday, but they have a way to go.
    The other thing that the Colombian military needs to 
improve upon is the ability to operate jointly, but again we 
are working with them in order to do that.
    Senator DeWine. What does that mean, General?
    General Hill. Sir, that means the ability for the army and 
the air force to coordinate an operation, again, in a routine 
manner effectively and efficiently. It means that if there is 
an operation that requires the police and the military to act 
coherently that they do. They are getting better at it.
    As I remind many of my colleagues both in the State 
Department and in the military, this is a learned skill, 
jointness. The U.S. military became joint at the point of a 
Congressional gun in 1986, and we are still not as joint as we 
should be. This is hard work, but I applaud them on their 
efforts.
    Senator DeWine. We have a cap on the number of U.S. 
military in Colombia. We have trainers there. Describe for me 
in layman's terms what our role there is as far as training. 
What kind of impact can we have?
    We are doing training and I look at this and say, well, how 
can we have much of an impact? I will play the devil's 
advocate. How can we have much of an impact with a relatively 
small number of trainers? Now, maybe from a military point of 
view, it is not a small number of trainers.
    General Hill. What is a small number of trainers?
    Senator DeWine. I mean, just tell me what is it, General, 
from a military point of view.
    General Hill. I think the results that we have--I will go 
back to the first part of your question, which is what is our 
job. Our job is, from a military perspective, to work with the 
Colombian military to help them more professionalize themselves 
to gain greater proficiency in operationalizing on actionable 
intelligence and to work jointly, as I just discussed, and at 
the unit level to be more tactically correct.
    What is happening with our ability to do this with a small 
number of trainers is that we started with a pretty 
professional army and military. They were not an unprofessional 
group before we started working with them. They have a long 
history of being a good, capable force. We are helping them 
become a more capable force.
    We do it only after we have vetted a unit and that unit 
then can receive U.S. training. All the units that we have 
trained you can point to and see the difference, how much 
better they are. I will also say to you there is an ancillary 
benefit. I can also go down and point to units that the United 
States has not helped train and they are getting better because 
there is, in fact, cross-fertilization as people move between 
units.
    Senator DeWine. Good, thank you.
    Senator Sessions.

         STATEMENT OF HON. JEFF SESSIONS, U.S. SENATOR 
                          FROM ALABAMA

    Senator Sessions. Thank you very much, Senator DeWine, and 
I want to express my appreciation to Senator Grassley and to 
you for your consistent and dedicated interest in this issue. I 
know you have been to Colombia and other countries, and 
probably more than anybody in this Senate have personally been 
engaged on the ground with the problems of drugs from this area 
of the world.
    I do remember a number of years ago when I came here that I 
asked a series of questions about our role. Ambassador 
Pickering, a fine public servant, insisted under the previous 
administration that our goals were solely anti-narcotics. And I 
said, ``Are we on the side of the Colombian government against 
the communist narco-terrorists?'', and he basically said our 
interest is narcotics. And I pressed him again. Our interest is 
narcotics. To me, that was always an absurd philosophy and I am 
glad to hear that we have made some substantial progress over 
the years in eliminating that.
    General Hill, it would be irrational to expect a government 
like the Government of Colombia to eliminate narcotics in an 
area of the country they don't even control, would it not?
    General Hill. It would certainly be a very difficult thing 
to do that, for sure.
    Senator Sessions. It seems to me that from the beginning we 
have had two goals, to encourage the Colombian government to 
assert its control over its entire country, and in the course 
of that victory against these terrorist insurgents we can 
expect and would expect that they would take strong efforts to 
eliminate narcotics trafficking in the process.
    Secretary Struble?
    Mr. Struble. I fully agree, sir. That is one reason why we 
have, for example, provided such enthusiastic support for the 
efforts described by Vice President Santos earlier today to 
help the Colombians establish a police presence in the 
municipalities where they have not had one. It is absolutely 
key that there be an official presence throughout the national 
territory of Colombia.
    Senator Sessions. Well, as a Federal prosecutor and a U.S. 
Attorney for a number of years on the Gulf Coast, we prosecuted 
a lot of cases that traced back to Colombia. I remember 
indicting a number of Colombians and we hoped that there would 
be extraditions. They never occurred.
    I remember a young police officer coming and testifying 
from Colombia and he was utterly courageous. I asked him about 
his personal safety and he had no fear. He told the truth and 
if they came after him, so be it. So there are a lot of superb 
people in Colombia that are dedicated to changing what is 
occurring.
    General Hill, is the Government of Colombia making progress 
in expanding its control of territory, and how would you 
characterize the strength of the FARC and the other groups?
    General Hill. Yes, sir, they are, in fact, expanding their 
territory, as Vice President Santos testified earlier this 
morning. There are two major programs underway by the Uribe 
government to go into areas that they had either vacated before 
or have never been in, and there are many locales where they 
have never had much government presence.
    One, there is a campesino program where they have trained 
volunteers to give them some sort of military training under 
the control and guidance and leadership of a Colombian military 
person to go back into the villages to provide security. They 
have also expanded police presence. The number that I have seen 
is about 127 villages over the last 3 or 4 months that they 
have put police presence back into.
    The FARC and the ELN and the AUC are strong opponents. They 
have lots of money, they have a defined ability of 
infrastructure and communications, and they are ruthless in 
their application of power. We have, however, over the last 
several months seen some intelligence indicators that you make 
you want to smile.
    We are seeing a little bit of the money dry up because of 
the effort that goes after the drugs and the narco-terrorism. 
We are seeing some areas where they have not been able to make 
their coca paste production. The eradication effort is 
beginning to really make some inroads in their ability to fund 
themselves. The desertion rates are up tremendously. A lot of 
that I think is because they have gone out and forcibly 
recruited children and other people, and those folks are taking 
off and there are some good signs in all of that.
    Senator Sessions. It seems to me that President Uribe is 
what Colombia needed. I think in the United States and in 
Colombia there was a sort of generalized feeling that this war 
had gone on so long and it was just going to go on forever and 
it just couldn't be ended. But it can be ended. There is no 
doubt in my mind that if the people of Colombia make up their 
minds that they will not allow this to continue that they can 
defeat this group.
    I mean, they have so many advantages, General. Wouldn't you 
agree that, militarily, a united, determined Colombia can 
defeat these insurgent groups and restore the democracy which 
Colombia is known for? As one of the oldest democracies in the 
hemisphere, it is in a life-and-death struggle, it seems to me, 
for its heritage and future.
    General Hill. Yes, sir, and I agree with that. I would also 
say to you that, militarily, they have made great strides. They 
will continue to make great strides and, militarily, I believe 
they have the momentum and they can continue the momentum.
    But I think just as importantly, what the Uribe government 
has done is understand that it can't be only a military 
victory. They must, in fact, have political reform, labor 
reform, and judicial reform, which is a major point. And they 
have programs and they are, in my view, moving in the correct 
direction in all of those areas, and it is paying off both in 
terms of political and people support for the Uribe government, 
about a 65-percent popular government, and the fact that the 
military has emerged as the single most respected institution 
in the country.
    If that military was out there violating the human rights 
of the citizenry, they would not be the most respected 
institution in the country. I think that all of those things 
bode well for two things to happen: the Uribe government stays 
the course, along with the Colombian people, and I believe they 
will, and that the United States, with the support of this 
Congress, does the same.
    Senator Sessions. Thank you very much.
    Mr. Billingslea. Senator, I might add denial of territory 
in the spraying program which is having an effect on the 
revenue stream as the coca crops dry up is one piece of the 
Uribe administration's strategy. They have got several other 
pieces that are also working very effectively.
    They have an amnesty program which is inducing not only 
foot soldiers and conscripts to come in and lay down arms, but 
has also induced the defection of a number of key personnel 
from the FARC and the ELN, including some financiers.
    They have made progress in Europe with disrupting FARC 
fundraising in Europe. Gone are the days when the FARC is 
romanticized as some kind of egalitarian revolutionary 
movement. It is now recognized for being a brutal, drug-running 
terrorist organization. So the information campaign and the 
perspective on the organization has changed in a very positive 
way.
    Senator Sessions. Marxist in its heritage, is it not?
    Mr. Billingslea. Marxist in its heritage, but those 
individuals are increasingly taking a back seat to the drug-
running crowd.
    Then, finally, there is a program to degrade the FARC 
infrastructure and the cell structure that it has as the 
Colombian military gets more agile and is able to operate in 
remote areas in small units for sustained periods of time. So 
there is a very positive picture that is evolving here.
    Senator DeWine. I would like to turn to the topic we have 
not talked about today, and that is the Air Bridge Denial 
Program. Who is going to be my volunteer to talk about that? 
Mr. Secretary, very good.
    Now, my understanding is that we are getting close to 
starting that back up. Is that correct?
    Mr. Simons. That is correct, Mr. Chairman. We have made 
substantial progress over the past 6 months in moving toward 
standing up this program.
    Senator DeWine. How far away are we?
    Mr. Simons. We are very close. I would expect in the next 
couple of weeks you will be hearing from us on this. We have 
had very good cooperation from the Colombians. We held two 
rounds of negotiations with them during the course of this 
year. Colombia agreed to establish air bridge zones. They 
agreed to the revised safety procedures which we needed to put 
into place following the shoot-down in Peru.
    They have agreed to a vigorous process of notifying their 
own public of the existence of the air bridge zones. Again, we 
have had good cooperation with the air force, civil aviation, 
the Colombian police.
    Senator DeWine. As you know, I think this is something that 
we have to do. I don't want to take a lot of time today to go 
into all the details. I know you are going to roll this out at 
some point in the future, but what I would like to talk about 
is the U.S. accountability. I wonder if you could talk a little 
bit about that and who is going to make that decision and do 
the sign-off and what our role will be.
    Mr. Simons. That has been very carefully worked out between 
the State Department, the Defense Department, the Colombians, 
and the Customs Service, which is also a participant. We have 
just sent an interagency team down to Colombia which was 
represented by State, Defense, Customs, and Homeland Security.
    There are various players on the U.S. side who are 
providing intelligence, who are operating the aerial frames, or 
who are involved as riders in some of the Colombian trackers. 
There is a very detailed procedure for the steps that we need 
to go through in order to ramp up to an eventual decision.
    All of these procedures have been worked out. They have 
been fully coordinated here, interagency, with the Department 
of Justice. There has been a testing of these procedures on the 
ground with the Colombians, and so we are ready to move on 
this.
    Senator DeWine. What is the role, if any, of any contract 
employees?
    Mr. Simons. There is a contractor, a State Department-hired 
contractor, that will be performing some of the ground safety 
monitoring function, as well as the air safety monitoring 
function. But the overall coordinator of the process will be 
JATF South, in Florida. They will be essentially in charge of 
making sure that the steps are passing through.
    Senator DeWine. Well, again, I have a concern about what 
the role of the contractor is going to be; in other words, that 
we don't contract out ultimate responsibility here. Do you want 
to get into a little more detail for me here about the role of 
the contractor?
    Mr. Simons. The contractor clearly will play a key role, 
but there will be other players that are direct-hire U.S. 
Government employees that will also be involved in the process, 
as well as the Colombians.
    Senator DeWine. What you are telling me is you don't want 
to talk about it today.
    Mr. Simons. I think it is a shared responsibility.
    Senator DeWine. Well, what is the role? What is the 
contractor's role?
    Mr. Simons. The contractor has a role in sitting with the 
Colombians at the command center of the Colombian Air Force, in 
Bogota, in making sure that the various steps are being 
followed. There are contractors also that will be flying with 
the Colombians as air safety monitors, making sure that those 
steps are gone through.
    But there is also someone back in Florida who is monitoring 
the entire process, who is bringing the intelligence together 
through JATF South, who is also following the same sheet of 
music going down the steps to make sure that all the steps are 
followed that have been agreed to in terms of meeting our 
security conditions. So there are a number of checks and 
balances that have been built into the program.
    Senator DeWine. Well, I won't belabor it.
    General do you have anything you want to add about this?
    General Hill. The only thing I would add, Senator DeWine, 
is that as the contractor who is overseeing and making--he has 
a checklist and making sure that they are following exact 
procedures. But the person in charge who eventually gives that 
instruction goes back to JATF South, our folks sitting, 
understanding all the intelligence, what they are looking at, 
and ensuring that all the proper steps are being taken to do 
it.
    Senator DeWine. Who ultimately makes the decision to shoot 
down?
    Mr. Simons. The Colombians make the decision, in 
consultation with the various U.S. operators.
    Senator DeWine. And the various U.S. operators include who?
    Mr. Simons. Contractor, as well as JATF South; Customs, if 
they are involved, and anyone else who has provided intel into 
a particular operation.
    Senator DeWine. Well, I support starting this up. I think 
we have to do it. I don't think we have any choice. Obviously, 
we want to have as many safeguards as we can. We all have that 
same interest. I just want to put everyone on notice as someone 
who has looked at this before that I have a concern about the 
role of a contractor and the role of contracting anything out 
that is ultimately a governmental responsibility. I am going to 
be looking at it.
    I think we in the Congress have a responsibility to look at 
this and to have some oversight over this. So when you all are 
ready to totally roll this out, that is fine, but this is one 
Senator who is going to be looking at it. That is all. I am 
very sympathetic to doing it, but I am also very leery, 
frankly, of having a contractor, a contract employee, doing 
this.
    Mr. Simons. We will be up to brief you in the next couple 
of weeks in detail on this.
    Senator DeWine. I look forward to that.
    Mr. Billingslea. Senator, we are also very aware of that. 
We labor in Colombia under some unusual requirements that you 
don't find anywhere else in the world. There is a congressional 
restriction that caps our military presence at 400 people and 
our contractor presence at 400 people.
    Senator DeWine. I understand.
    Mr. Billingslea. So there is that context to all of this.
    Senator DeWine. You have got both, though; I mean, you have 
got both caps.
    Mr. Billingslea. Yes, sir. I think you will find when we 
brief you that there are a number of safeguards built in for 
legal protection of all U.S. personnel involved in the program, 
as well as a structure which was negotiated with the Colombian 
government that is designed from beginning to end to guard 
against and to protect against the loss of innocent life.
    Senator DeWine. Senator Sessions.
    Senator Sessions. Just to reiterate how proud I am of the 
Colombian people and President Uribe, I just can't overstate 
that. I think he has an opportunity to be the Abraham Lincoln 
of Colombia. The Civil War in the United States was not an easy 
battle. A lot people lost their lives, but you had consistent, 
strong leadership from the top and we are now a united Nation. 
So I think it is a big, big deal what is going on.
    General Hill.
    General Hill. If I could, sir, you said Abraham Lincoln and 
I wanted to relate to you a story. When President Uribe was 
here several weeks ago to visit President Bush--and I know he 
made lots of rounds on the Hill, also--I had the privilege of 
taking him to Gettysburg on Saturday morning. He wanted to go; 
he asked to go.
    He and I and several people walked the battlefield with 
some experts. He asked very pointed questions, because he made 
that same analogy in his mind--I could see it--the comparison 
between what Lincoln had to do to save this country and what 
President Uribe has to do to save his.
    Senator Sessions. I think there is a legitimate analogy 
there and it has just gone on longer. I am sure it is more 
difficult to rally the country.
    One of the things that troubled me, General Hill, was the 
recruitment of the military, the length of their service, and 
some of the things that indicated a lack of commitment there. 
Have they made improvements in that, and what would you say are 
the problems that remain?
    General Hill. They have, sir. They have done a couple of 
things to improve that situation. One, they are increasing the 
length of service from 18 months to 24 months. They have 
essentially done away with, without the law, the bachelaras 
program that said high school grads couldn't serve in certain 
capacity. They have, on their own, whittled that down to almost 
nothing. In fact, there is proposed legislation to just do away 
with that program completely. Those are major steps forward to 
demonstrate the commitment of the Colombian people, not just a 
small segment of it.
    I would also say one other thing on that issue. If you are 
a recruit in the Colombian military, you can elect to stay on 
as a professional soldier after your 18-month, or now 2-year 
stint. At that point, you go into a school of the professional 
soldier and after that is over with, you are integrated into 
the army as a professional soldier.
    We have encouraged them, and the Colombian army, in 
particular, has wanted to build a professional non-commissioned 
officer corps. I have had my command sergeant major on about 
five different trips to Colombia in the last couple of months, 
both looking at their procedures and talking with their senior 
commissioned and non-commissioned officers, and have brought up 
several of their non-commissioned officer leadership to some of 
our schools, in particular at Fort Benning, not WINSEC, but our 
non-commissioned officer academies at Fort Benning. I believe 
that the army will name a sergeant major of the army sometime 
in August. This is a major step forward in terms of 
professionalizing their force.
    Senator Sessions. Thank you.
    Senator DeWine. Let me turn to the pipeline security issue. 
Last month, the State Department released its report on 
international terrorist activity and according to that report, 
there were 199 international terrorist attacks during 2002 in 
Colombia, which was a 44-percent drop from the previous year.
    But what many people fail to notice is that one of the 
biggest reasons for the decrease was the sharp drop in the 
number of oil pipeline bombings in Colombia. There were 41 such 
bombings last year, which was down from 178 in 2001. Really, 
that decrease is remarkable, and wonder, General, or anyone 
else on the panel if you would like to comment about what this 
decrease is due to and what the change in the policy has been 
and what our program has been, and talk a little bit about 
that. And if you could explain whether we have any other plans 
to change that policy or to expand that policy, whoever would 
like to take that one.
    Mr. Struble. Thank you, Mr. Chairman. I will begin and then 
ask General Hill to fill in. The most remarkable thing about 
that decrease, Senator, is that it precedes the main deployment 
of our trainers into Arauca Province. But in point of fact, a 
number of steps have been underway since we originally 
requested the Congress' authorization for this program that 
have already, as you have noted, had a big impact.
    The first was our discussions with the Colombians about 
dedicating adequate force to this mission. The Colombians, even 
before the arrival of our trainers, began to essentially double 
the number of troops on the ground that were devoted to 
security in Arauca Province.
    Senator DeWine. These were Colombian forces on the ground?
    Mr. Struble. These were Colombian forces on the ground, 
sir.
    The second was to ensure that the Government of Colombia 
took a general approach to the problem of security here. So to 
give one very important example, there is now a fiscal, a 
prosecutor--Senator Sessions can identify with this--who has 
been assigned from Bogota to that area because the local 
prosecutors were too compromised, if you will, by the violence 
in the area by association with some of the illegal actors.
    This person, this prosecutor, lives on a Colombian military 
base and has been brought in to ensure that those who have been 
detected or suspected or are being investigated for bombings 
and other terrorist acts are, in fact, detained and subjected 
to the process of justice.
    And then, last, we have had a number of assessment missions 
that came out to help us design the most productive training 
program that had some fast-acting recommendations for the 
Colombians on how they integrate intelligence and put it in the 
hands of those who most need it.
    General Hill. Sir, I will just add a couple of short 
statements to that very good answer. I think one thing it shows 
is our determination, the United States' determination to stay 
the course, and bolsters the Colombian military's self-
confidence. It urges them to take the fight to the enemy and 
helps in their ability to do that.
    Also, the early training and discussions that we did and 
the fact that they added more people up in the Arauca area and 
Sarvina area--when you say ``regarding the pipeline,'' that 
conjures up someone sitting on top of the pipeline, and that is 
what they used to do. What we do now is we have got them out in 
the countryside taking the fight to the enemy where the enemy 
is, not waiting for something to simply blow up and to go back 
and fix.
    Mr. Billingslea. Which, in turn, translates into one simple 
thing, which is every day of unimpeded oil that goes through 
that pipeline is an additional day of revenue for the 
government to use in this struggle.
    Senator DeWine. We have talked today specifically about 
Colombia and we have gotten some very good news about Colombia, 
but as we look around the region, we have seen some other 
countries around the region and drug production going up.
    We always talk about this balloon effect. We have good news 
here and we push it here and then we have it go out in other 
regions or in other parts of the region. What are we going to 
do about that?
    We look at the funding for the region, $731 million. The 
funding that is requested for the Andean Counter-Drug 
Initiative is $731, which is really the same amount that was 
requested in the previous two fiscal years, flat-funded. The 
bulk of the funding goes to Colombia. I don't think anyone is 
disagreeing with that, but we have got problems in surrounding 
countries. What are we going to do about that?
    Mr. Struble. I think that there are two answers to that 
question, Senator. One of them has to do with the political 
approach to it, and the second is the programmatic approach. I 
know that Assistant Secretary Paul Simons can speak to the 
latter.
    On the political side, you are right that we do have a very 
serious problem. First of all, there is a need for greater 
regional coordination. In fact, I should have stepped in when 
you asked earlier what are the areas where we still have 
deficiencies in Plan Colombia. That is one.
    Colombia's neighbors need to realize that Colombia's fight 
is their fight, too, that they have a strong stake in the 
Colombian government establishing effective security over its 
national territory, and especially the border regions. I 
commend the Colombian government for having taken the 
initiative on March 12 of this year to invite foreign ministers 
and defense ministers from all the neighboring countries for a 
very open discussion of this problem, in which they shared, for 
example, an intelligence brief that talks about the presence in 
border areas of foreign terrorist organizations.
    The second issue here is we have made significant progress 
in Peru and Bolivia over the past 5 or 6 years in decreasing 
coca cultivation. It is down about 70 percent, even with some 
increase last year. But what we have seen, as that number gets 
lower and lower, is that core group of people whose 
livelihoods, especially farmers whose livelihoods depend upon 
coca production start to resist more the continued eradication. 
In the case of Bolivia where that has come together with a 
number of other problems, a drop in growth rates in the last 
few years, it has created a very, very significant political 
problem for the government.
    We are working very closely with the international donor 
community, with the international financial institutions and 
bilaterally to ensure that there is an increased flow of money 
to Bolivia for development in order to show that staying the 
course on this is going to be productive for the vast majority 
of Bolivian citizens.
    Mr. Simons. I agree with Curt's observations. I would just 
add one point, which is that when the Andean Counter-Narcotics 
Initiative was put together initially, this problem was 
anticipated, the fact that we could be successful in Colombia 
and therefore pressures would grow. So there was a rather 
substantial increase up front in our funding for both Peru and 
Bolivia, in particular on the alternative development side.
    So we were able to create very robust alternative 
development programs both in Bolivia and in Peru that have to 
some extent given us a head start. So, clearly, there are going 
to be more pressures. To the extent we are successful in 
Colombia, pressures will grow. Pressures are already growing, 
but we have to some extent built an infrastructure.
    The funding that we have requested for 2004, $207 million 
for Peru and Bolivia, we think is adequate to provide the 
assistance that is needed both on the alternative development 
side as well as on the eradication and interdiction side.
    On the eradication and interdiction side, we have some 
advantages that we don't have in Colombia. We have a much 
better security situation. We have a long history of working 
with the military and the police on a lot of these programs. 
So, for instance, some of the difficulties we have with 
mechanics and pilots, we don't have these problems in Bolivia 
and Peru because we have been there a long time and we have 
worked out a lot of bugs in the programs. So we can get a 
little more efficiency out of those programs and we can get the 
job done.
    Senator DeWine. Senator Sessions.
    Senator Sessions. Thank you, Senator DeWine. Again, I want 
to express my appreciation for your leadership. I know you have 
been to Colombia four times. That is probably as much as 
anybody in this Senate. You are care about it and are providing 
good leadership there.
    I guess, Secretary Struble, the economic damage from 
terrorism and what is happening in Colombia is significant. 
Isn't that another big reason why Colombia needs to break the 
back of this terrorist insurgency?
    Mr. Struble. It is indeed. In his written testimony, Vice 
President Santos said that terrorism in Colombia costs the 
country 2 percent of its domestic product every year, year 
after year. And, of course, the human cost is horrific as well, 
with 30,000 deaths. Frankly, I think that is the reason why the 
Colombian people have responded to President Uribe's call for 
greater sacrifice.
    If we look at what has happened in that country in the past 
10 months, where the people have been asked to pay a special 
tax contribution based upon their assets that is equivalent to 
1 percent of GDP, where the Congress has passed a number of tax 
efficiency measures in December of last year and government 
reform measures that are intended to save hundreds of millions 
of dollars and to generate additional resources for the state, 
where the government has announced its intention to increase 
spending on the security services from about 3.5 percent of GDP 
to 5.8 percent of GDP in the next few years, what we have seen 
is the people are tired of this and they recognize that the 
cost is borne by society as a whole and that they are willing 
to contribute to meeting that cost.
    Senator Sessions. I think there is a possibility of victory 
here and it encourages me to hear some of the numbers that you 
mentioned, such as we have got more territory taken back by the 
government, sabotage of the pipeline is down, defections have 
increased in the FARC. Those kinds of things can be sustained 
and actually can sometimes increase as the doom becomes more 
obvious to those who are resisting.
    I don't want to be overly optimistic. I know this has gone 
on for a long time, but I also think that we can see cause for 
optimism here. Would you agree?
    Mr. Struble. I would very strongly agree. In fact, I will 
add another area that you have not cited to the successes and 
that is on the institutional side. You mentioned your 
experience as a Federal prosecutor when you couldn't get 
extraditions from Colombia. It was because the judiciary in 
Colombia was so intimidated that it didn't process them 
effectively even in those moments when there was not a 
constitutional prohibition against it.
    If my colleagues from the Department of Justice were here 
today, I am confident they would tell you, as they have told 
me, that the best extradition relationship we have in the 
Western Hemisphere today is with Colombia.
    Senator Sessions. Well, let's ask about that because you 
say they were intimidated. That should not demean the judges 
too seriously because, in fact, they were being killed in large 
numbers. They killed nine members of the Supreme Court of 
Colombia. Judges who took courageous actions, they and their 
families could expect to be killed frequently and it was a 
very, very difficult time.
    What is the status of the ability to prosecute a 
significant drug dealer or a significant insurgent member in 
the courts of Colombia today?
    Mr. Struble. What I would like to do, Senator, is respond 
for the record in writing with some more specific detail about 
the number of prosecutions and the decrease in time of people 
in the system.
    What I will note in terms of strengthening the judiciary is 
that, in part thanks to U.S. assistance over the past few 
years, a lot of hardened courtrooms have been built. Security 
details have been provided for prosecutors and judges to 
protect them. Justice has been made available to people who 
were formerly denied it because they lived miles and miles away 
from any courtroom.
    I think one of the most successful programs we have is that 
of the casas de justicia. There are now some 31 that we have 
funded in Colombia and they have adjudicated 1.6 million cases. 
Many of those are civil cases, but you also understand 
perfectly well the importance of having access to civil law as 
well as civil law, and I think that we have seen the Colombian 
judiciary measurably perform in these areas over the last few 
years.
    Senator Sessions. One more brief question, General Hill. 
You talked about the essential need for helicopter lift to 
respond rapidly to opportunities in the conflict there. We had 
some debate here about the proper mix between Blackhawk 
helicopters and Hueys. Let me ask you how you feel about that 
mix and would it be helpful if there were more helicopters 
provided.
    General Hill. Well, more is always better, and the 
Blackhawk helicopter is the finest helicopter made in the world 
and there is no comparison between the Blackhawk helicopter and 
any other type of assault helicopter or troop-carrying 
helicopter that is necessary. However, it is also more 
expensive.
    The Colombians, in fact, do have a mixture of air frames 
that makes it more difficult in several areas--spare parts, 
mechanics, pilots, all the above. The reality of life, however, 
is they do have that mixture. There is something to say for 
more than less. For example, with the infrastructure money for 
the pipeline that is coming, we are going to get 2 Blackhawks, 
6 UH-2s, and we are going to fix another Blackhawk and give 
them some more spare parts. I think that is a good mixture. It 
has been worked out between the Colombians and us, the State 
Department. I think that is a good mixture.
    Would it be better if they were pure-fleeted? Absolutely. 
Could they or we afford that? I think the answer is no.
    Senator Sessions. I tend to agree. The Huey is still a 
valuable aircraft and can do many things. Isn't it more 
expensive to maintain a Blackhawk, in addition to just the 
cost?
    General Hill. The Huey and the Huey-11, in particular, are 
excellent aircraft. They get the job done for what the 
Colombians need. They are easier to fly. They are, in fact, if 
you have the spare parts, easier to maintain. So there is a lot 
to say for that and I am not in any way taking away from that.
    Senator Sessions. Thank you.
    Senator DeWine. Gentlemen, thank you very much. I think it 
has been a very helpful panel, very informative. We appreciate 
your testimony and we also appreciate your service. Thank you 
very much.
    Let me introduce our third panel, and I would ask our third 
panel to start coming up as I introduce you. Our third panel 
today is here to give us their take on what all this means.
    Jess Ford, the Director of the International Affairs and 
Trade Division at the General Accounting Office, will be 
presenting testimony drawn from GAO's extensive oversight of 
our activities in Colombia. The GAO is currently finishing up 
their latest work on U.S. assistance to the region which, I 
understand should be published later this month.
    Mr. Phil McLean is currently a Senior Associate with the 
Center for Strategic and International Studies' Americas 
Program. He previously served for more than three decades in 
the U.S. Foreign Service with overseas assignments in Latin 
America and Europe. After retirement from Government service in 
1994, he was appointed Assistant Secretary for Management at 
the Organization of American States and served as adviser to 
the OAS Secretary.
    As a standard practice, gentlemen, you may submit a 
lengthier statement, but I would ask that you keep your opening 
comments to 5 minutes. Thank you very much and we look forward 
to your testimony.
    Who wants to start?
    Mr. Ford, do you want to start?

STATEMENT OF JESS T. FORD, DIRECTOR, INTERNATIONAL AFFAIRS AND 
     TRADE, U.S. GENERAL ACCOUNTING OFFICE, WASHINGTON, DC.

    Mr. Ford. Mr. Chairman, I am pleased to be here to discuss 
GAO's work on U.S. counter-narcotics in Colombia. As you 
mentioned in your opening statement, we will be issuing a 
report later this month.
    Today, I am going to focus on two key areas that the Caucus 
asked us to examine, as well as the Senate Appropriations 
Committee, dealing with the status of U.S. assistance to the 
Colombian army from fiscal years 2000 to 2003, approximately 
the time of Plan Colombia, and what the U.S.-supported police 
aerial eradication program has accomplished in recent years. 
And then I am going to talk a little bit about some of the 
remaining challenges, as we see them.
    First, with regard to the army, the United States has 
provided approximately $640 million to train and equip the 
Colombian army counter-narcotics brigade, and supplied the army 
with 72 helicopters, which was mentioned this morning. All of 
the helicopters have been delivered to Colombia, and based on 
the information we have obtained, all of them should be 
operational by sometime this month.
    After the successful first year of operations, the 
brigade's results dropped off in 2002. The brigade initially 
busted 24 labs in 2001. The number of labs busted in 2002 was 
reduced to four. As a consequence, U.S. Government and 
Colombian officials decided to re-train the brigade and provide 
it with greater mobility. The training occurred in late 2002. 
The Colombian army reorganized the brigade, made it smaller, 
more professional and more mobile. They currently, as you heard 
this morning, are conducting operations in Narino.
    Although all the U.S.-produced helicopters are in Colombia, 
there were a number of unanticipated problems in training the 
Colombian army pilots and mechanics to operate and maintain the 
helicopters. Some of these problems continue to limit the 
army's ability to operate and maintain the aircraft.
    These include insufficient numbers of trained pilots and 
mechanics, the availability of pilots and mechanics, and 
limited financial support from the Colombian government. 
Consequently, the army will have to rely on contractor support 
because it will not have enough trained pilots in command and 
senior mechanics for the foreseeable future.
    U.S. assistance to support the helicopters was originally 
planned to end in 2006, with the Colombian army taking over 
responsibility for operating and maintaining the aircraft. 
However, U.S. and Colombian officials stated that a continued 
level of U.S. assistance will be needed beyond this date 
because the army is not expected to have the personnel trained 
and the resources necessary. Although U.S. embassy officials 
stated that they have not officially estimated what the 
assistance level will be, they have tentatively projected it 
will cost approximately $100 to $150 million a year to sustain 
this operation.
    Now, I am going to turn to the police. In recent years, the 
Colombian National Police aerial eradication program has had 
mixed results. Since 1995, net coca cultivation rose every 
year, until 2002. As you heard this morning, the official 
numbers are there has been a reduction of 15 percent in overall 
coca cultivation. The story for poppy is even better. The 
results for the last 2 years are a 35-percent reduction in 
poppy cultivation.
    U.S. embassy officials attributed these recent successes 
primarily to the Colombian government's willingness to spray 
coca and poppy plants in all areas of the country. Since 1998, 
U.S. embassy officials have been concerned with the rising U.S. 
presence in Colombia and the associated costs. Since 1998, the 
costs of the aerial eradication program from the U.S. 
perspective has almost doubled.
    Now, I want to turn to some of the challenges. Although the 
U.S.-supported counter-narcotics program has recently shown 
some results, Colombia and the United States continue to face 
financial and management challenges in sustaining these 
programs.
    Colombia's financial resources are limited. Neither the 
army nor the police can sustain ongoing counter-narcotics 
programs without continued U.S. funding for the foreseeable 
future. According to our analysis and our discussions with U.S. 
officials, ongoing programs for the police and the Colombian 
army will cost approximately $230 million a year, and future 
costs for some other programs have not yet been determined.
    Colombia also continues to face challenges associated with 
its political and economic instability fostered by the 
longstanding insurgency. For U.S. assistance to continue, there 
will be a need for the army and the police to comply with human 
rights standards. The aerial eradication program will need to 
meet environmental conditions, and alternative development 
projects must be conducted in the areas where aerial 
eradication occurs.
    Colombia is a long-time ally and significant trading 
partner of the United States, and therefore its economic and 
political stability is important to the United States, as well 
as the Andean region. Colombia's longstanding insurgency and 
the insurgents' links to the illicit drug trade complicate its 
efforts to tap its natural resources and make systematic 
economic reforms. Solving these problems is important to 
Colombia's future.
    As we noted in 2000, the total costs of the counter-
narcotics program were unknown. Nearly 3 years later, the 
Department of State and the Department of Justice have still 
not developed estimates for the future costs of the program, 
defined their future roles in Colombia, identified the proposed 
end state, or determined how they plan to achieve it.
    Mr. Chairman, that is a summary of my comments. I would be 
happy to answer any of your questions.
    [The prepared statement of Mr. Ford follows:]
  Prepared Statement of Jess T. Ford, Director, International Affairs 
                               and Trade
     Drug Control--Financial and Management Challenges Continue to 
    Complicate Efforts to Reduce Illicit Drug Activities in Colombia
                             what gao found
    In fiscal years 2000-03, the United States provided about $640 
million in assistance to train and equip a Colombian Army 
counternarcotics brigade and supply the army with 72 helicopters and 
related support. Most of this assistance has been delivered and is 
being used for counternarcotics operations.
    In recent years, the Colombian National Police aerial eradication 
program has had mixed results. Since 1995, coca cultivation rose in 
every year until 2002 and opium poppy cultivation remained relatively 
steady until 2001. But, for 2002, the U.S. Office of National Drug 
Control Policy reported that net coca cultivation in Colombia decreased 
15 percent and net opium poppy cultivation decreased 25 percent--the 
second yearly decline in a row. U.S. officials attributed this success 
primarily to the Colombian government's willingness to eradicate coca 
and poppy plants without restriction.
    Although the U.S.-supported counternarcotics program in Colombia 
has recently begun to achieve some of the results envisioned in Plan 
Colombia, Colombia and the United States must continue to deal with 
financial and management challenges. Neither the Colombian Army nor the 
Colombian National Police can sustain ongoing counternarcotics programs 
without continued U.S. funding and contractor support for the 
foreseeable future. According to U.S. embassy officials, these programs 
alone may cost up to $230 million per year, and future costs for some 
other programs have not been determined. Because of overall poor 
economic conditions, the government of Colombia's ability to contribute 
more is limited, but the continuing violence from Colombia's long-
standing insurgency limits the government's ability to institute 
economic, social, and political improvements. Moreover, Colombia faces 
continuing challenges associated with the need to ensure it complies 
with human rights standards and other requirements in order for U.S. 
assistance to continue. As GAO noted in 2000, the total costs of the 
counternarcotics programs in Colombia were unknown. Nearly 3 years 
later, the Departments of State and Defense have still not developed 
estimates of future program costs, defined their future roles in 
Colombia, identified a proposed end state, or determined how they plan 
to achieve it.
      
    [GRAPHIC] [TIFF OMITTED] T7649.001
    
      
    Mr. Chairman and Members of the Caucus:
    I am pleased to be here to discuss GAO's work on U.S. 
counternarcotics assistance to Colombia. Today we will highlight the 
preliminary findings from our ongoing review of U.S. assistance to 
Colombia. Our draft report is with the responsible agencies for 
comment; we expect to issue a final report in mid-June. I will focus my 
comments on (1) the status of U.S. counternarcotics assistance to the 
Colombian Army in fiscal years 2000-03 and how this assistance has been 
used, (2) what the U.S.-supported Colombian National Police aerial 
eradication program has accomplished in recent years, and (3) what 
challenges Colombia and the United States face in sustaining these 
programs.
    In 1999, the Colombian government introduced Plan Colombia--a $7.5 
billion program that, among other things, proposed reducing the 
cultivation, processing, and distribution of illegal narcotics by 50 
percent over 6 years.\1\ A key component of the Colombian-U.S. 
counternarcotics strategy was the creation of a Colombian Army 2,285-
man counternarcotics brigade, for which the United States agreed to 
provide helicopters to help it move around southern Colombia to reduce 
cocaine production and trafficking. Closely allied with this objective 
was U.S. support for the Colombian National Police's aerial eradication 
program to significantly reduce, if not eliminate, coca and opium poppy 
cultivation.\2\
---------------------------------------------------------------------------
    \1\ For more information on U.S. assistance for Plan Colombia, see 
U.S. General Accounting Office, Drug Control: U.S. Assistance to 
Colombia Will Take Years to Produce Results, GAO-01-26 (Washington, 
D.C.: Oct. 17, 2000).
    \2\ The leaves of the coca plant are the raw ingredient of cocaine, 
and opium poppy is used to produce heroin. The aerial eradication 
program involves spraying the coca and poppy plants from low-flying 
airplanes with an herbicide that attacks the root system and kills the 
plant.
---------------------------------------------------------------------------
                                summary
    In fiscal years 2000-03, the United States provided about $640 
million to train and equip the Colombian Army counternarcotics brigade 
and supply the army with 72 helicopters and related training, 
maintenance, and operational support. Most of this assistance has been 
delivered and is being used for counternarcotics operations. However, 
some problems were encountered. For example,
    <bullet> After a successful first year of operations, the brigade's 
results dropped off in 2002. U.S. and Colombian officials attribute 
this, in part, to coca growers and producers moving out of the 
brigade's range in southern Colombia. In late 2002, with U.S. 
assistance, the Colombian Army reorganized the brigade and gave it 
authority to operate anywhere in the country. This change, according to 
U.S. embassy and Colombian Army officials, will improve the brigade's 
ability to conduct operations against high-value, drug-trafficking 
targets, such as cocaine production laboratories and the leadership of 
insurgent groups involved in drug-trafficking activities. One of the 
brigade's retrained battalions has been operating in Narino department 
since early May 2003.
    <bullet> Some initial impediments slowed the delivery and 
operational use of the helicopters. The start of entry-level helicopter 
pilot training was delayed 5 months while the United States determined 
who would provide and fund the training. The delivery of 25 UH-II 
helicopters was delayed 5 months while the United States and Colombia 
decided what type of engine to use in the aircraft. U.S. funding for 
the brigade's operations was slowed for a total of about 5 months in 
2002 because the Department of State did not meet congressional 
deadlines for reporting on Colombia's progress in addressing human 
rights violations.
    U.S. assistance to support the helicopters provided as part of Plan 
Colombia was originally planned to end in 2006 with the Colombian Army 
taking over the responsibilities of operating and maintaining the 
aircraft. However, U.S. embassy and Colombian officials stated that a 
continued level of U.S. assistance will be needed beyond this date 
because the army is not expected to have the personnel trained or the 
resources necessary. Although U.S. embassy officials stated that they 
have not officially estimated what this assistance level will be, they 
tentatively projected that it would cost between $100 million and $150 
million a year to sustain ongoing counternarcotics programs. In 
addition, other recently initiated U.S. programs will require 
additional support.
    In recent years, the Colombian National Police aerial eradication 
program has had mixed results. Since 1995, net coca cultivation rose in 
every year until 2002 and net opium poppy cultivation remained between 
6,100 to 7,500 hectares. But in recent months, the Office of National 
Drug Control Policy reported that:
    <bullet> net coca cultivation in Colombia decreased 15 percent in 
2002, from 169,800 hectares in 2001 to 144,450 hectares, and
    <bullet> net opium poppy cultivation in Colombia decreased 25 
percent in 2002, from 6,500 hectares in 2001 to 4,900 hectares--the 
second yearly decline in a row.
    U.S. embassy officials attributed this recent success primarily to 
the current Colombian government's willingness to spray coca and poppy 
plants without restriction in all areas of the country. However, since 
at least 1998, U.S. embassy officials have been concerned with the 
rising U.S. presence in Colombia and the associated costs of the aerial 
eradication program. At the time, the embassy began developing a 3-year 
plan to have the Colombian National Police assume control over the 
program; but, for various reasons, the police never agreed to the plan. 
Since then, contractor involvement and the associated costs have 
continued to rise, and the Colombian National Police are not yet able 
to assume more control of the aerial eradication program. In fiscal 
year 1998, U.S. embassy officials reported that the costs for the U.S. 
contractor, fuel, herbicide, and related support totaled $48.5 million. 
For fiscal year 2003, U.S. embassy officials estimated that the 
comparable costs totaled $86.3 million. Much of this increase occurred 
between fiscal years 2002 and 2003 to support the additional spray 
aircraft, multiple operating locations, and the anticipated 
continuation of spray operations throughout Colombia. According to U.S. 
embassy officials, these costs are expected to remain relatively 
constant for the next several years.
    Although the U.S.-supported counternarcotics program has recently 
shown some of the results envisioned when Plan Colombia was first 
introduced, Colombia and the United States continue to face financial 
and management challenges in sustaining programs in Colombia.
    <bullet> Colombia's financial resources are limited. Neither the 
Colombian Army nor the Colombian National Police can sustain ongoing 
counternarcotics programs without continued U.S. funding and contractor 
support for the foreseeable future. According to U.S. embassy 
officials, ongoing programs alone may cost up to $230 million per year, 
and future costs for some other programs have not been determined.
    <bullet> Colombia also continues to face challenges associated with 
its political and economic instability fostered by its long-standing 
insurgency and, for U.S. assistance to continue, the need to ensure 
that (1) the military and police comply with human rights standards, 
(2) the aerial eradication program meets certain environmental 
conditions, and (3) alternative development is provided in areas 
subject to aerial eradication.
    Colombia is a longtime ally and significant trading partner of the 
United States and, therefore, its economic and political stability is 
important to the United States as well as the Andean region. Colombia's 
long-standing insurgency and the insurgents' links to the illicit drug 
trade complicate its efforts to tap its natural resources and make 
systemic economic reforms. Solving these problems is important to 
Colombia's future stability. On the other hand, recent world events--
from the global war on terrorism to the wars in Afghanistan and Iraq--
have diverted scarce U.S. resources and made it paramount that the 
United States fully consider the resources committed to its overseas 
assistance programs. As we noted in 2000, the total costs of the 
counternarcotics programs in Colombia were unknown. Nearly 3 years 
later, the Departments of State and Defense have still not developed 
estimates of future program costs, defined their future roles in 
Colombia, identified a proposed end state, or determined how they plan 
to achieve it.
                               background
    The United States has provided assistance to help reduce illegal 
drug production and trafficking activities in Colombia since the 
1970's. Yet, Colombia is still the world's leading cocaine producer and 
distributor and a major source of the heroin used in the United States. 
According to State, Colombia provides 90 percent of the cocaine and 
about 40 percent of the heroin entering the United States. The Drug 
Enforcement Administration reports that several billion dollars flow 
into Colombia each year from the cocaine trade alone, and this vast 
amount of drug money has helped the country's two largest insurgency 
groups--the Revolutionary Armed Forces of Colombia and the National 
Liberation Army--gain unprecedented economic, political, and social 
power and influence. The insurgents exercise some degree of control 
over 40 percent of Colombia's territory east and south of the Andes 
where much of the coca is grown.
    In an effort to address the influx of cocaine and heroin from 
Colombia, the United States has funded a counternarcotics strategy in 
Colombia that includes programs for interdiction, eradication, and 
alternative development, which must be carefully coordinated to achieve 
mutually reinforcing results. Besides assistance for the Colombian Army 
counternarcotics brigade and the Colombian National Police aerial 
eradication program, the United States has supported Colombian efforts 
to interdict illicit-drug trafficking along rivers and in the air as 
well as alternative development, judicial sector reform, and internally 
displaced persons programs. The Departments of Defense and State have 
provided most of the funding and State, through its Bureau for 
International Narcotics and Law Enforcement Affairs and Narcotics 
Affairs Section in the U.S. Embassy Bogota, oversees the program. In 
fiscal years 2000 through 2003, the United States provided more than 
$2.5 billion to Colombia for counternarcotics assistance. (See table 
1.) For fiscal year 2004, the administration has proposed an additional 
$700 million in aid.

                  Table 1.--U.S. Counternarcotics Assistance to Colombia, Fiscal Years 2000-03
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                  Fiscal years
-----------------------------------------------------------------------------------------------------------------
                                                                                            2003 \2\
                         Agency                           2000 \1\     2001       2002    (estimated)    Total
----------------------------------------------------------------------------------------------------------------
State..................................................     $744.9      $48.0     $275.4      $452.0    $1,550.3
DOD....................................................      128.5      190.2      119.1       149.9       587.7
USAID \3\..............................................      123.5          0      104.5       151.0       379.0
                                                        --------------------------------------------------------
  Total................................................   $1,026.9     $238.2     $499.0      $752.9   $2,517.0
----------------------------------------------------------------------------------------------------------------
Source: Departments of Defense and State and the U.S. Agency for International Development,
\1\ Includes funds appropriated for Plan Colombia through the Emergency Supplemental Appropriations Act, Fiscal
  Year 2000 (Division B of P.L. 106-246).
\2\ Includes $93 million in Foreign Military Financing funds appropriated in the Foreign Operations, Export
  Financing, and Related Appropriations Act, 2003 (Division E, Title III of P.L. 108-7); $34 million
  appropriated to State and $34 million appropriated to Defense in the Supplemental Appropriations Act to
  Support Department of Defense Operations in Iraq for Fiscal Year 2003 (P.L. 108-11); and $37.1 million for
  Foreign Military Financing allotted from fiscal year 2003 supplemental appropriations.
\3\ In fiscal years 2000-03, State transferred $375 million to the U.S. Agency for International Development for
  alternative development, judicial sector reform, and internally displaced persons programs.

    Following increased violence in Colombia during early 2002, the 
Congress provided ``expanded authority'' for the use of U.S. assistance 
to Colombia, which enabled the Colombian government to use the U.S.-
trained and--equipped counternarcotics brigade, U.S. provided 
helicopters, and other U.S. counternarcotics assistance to fight groups 
designated as terrorist organizations as well as to fight drug 
trafficking. Similar authority was provided for fiscal year 2003 and is 
being sought for fiscal year 2004.
   assistance to the colombia army has been delivered, but problems 
                            were encountered
    U.S. assistance to the Colombian Army during fiscal years 2000-03--
$640 million for the counternarcotics brigade, 72 helicopters, and 
related support--has, for the most part, been delivered and is being 
used for counternarcotics operations. However, both the United States 
and the Colombian Army experienced some unanticipated problems that 
delayed the operational use of the helicopters. In addition, U.S. 
support will be needed for the foreseeable future to sustain 
operations.
Status of the Brigade
    The United States initially agreed to train and equip a Colombian 
Army counternarcotics brigade of three battalions and a total of about 
2,285 professional and conscripted soldiers. The United States provided 
the counternarcotics brigade with about $45 million in training and 
equipment--from weapons and ammunition to rations, uniforms, and 
canteens. The brigade's primary mission was to plan and conduct 
interdiction operations against drug-trafficking activities, including 
destroying illicit drug-producing facilities, and, when called upon, to 
provide security in insurgent-controlled areas where aerial eradication 
operations were planned. According to U.S. and Colombian officials, the 
brigade was highly effective in 2001--for example, it destroyed 25 
cocaine hydrochloride laboratories\3\--but was less successful in 2002, 
when it destroyed only 4 such labs. U.S. embassy officials stated that 
the brigade became less effective because the insurgents moved their 
drug-producing activities, such as the laboratories, beyond the 
brigade's reach. In addition, according to these officials, the brigade 
became more involved in protecting infrastructure, such as bridges and 
power stations, and performing base security. Moreover, the aerial 
eradication program did not call on the brigade to provide ground 
security on very many occasions, essentially planning spray missions in 
the less threatening areas.
---------------------------------------------------------------------------
    \3\ The laboratories are used in the final stages of processing 
coca into cocaine and are considered high-value targets.
---------------------------------------------------------------------------
    In August 2002, U.S. embassy and Colombian military officials 
agreed to restructure the brigade to make it a rapid reaction force 
capable of making quick, tactical strikes on a few days' notice. As 
part of this restructuring, the Colombian Army designated the brigade a 
national asset capable of operating anywhere in Colombia rather than 
just in its prior area of responsibility in southern Colombia. The 
newly restructured brigade consists of three combat battalions and a 
support battalion with a total of about 1,900 soldiers, all of whom are 
professional. Two of the combat battalions have been retrained. The 
third combat battalion should be retrained by mid-June 2003. This 
change, according to U.S. embassy and Colombian Army officials, will 
improve the brigade's ability to conduct operations against high-value, 
drug-trafficking targets, such as laboratories containing cocaine and 
the leadership of insurgent groups involved in drug-trafficking 
activities. One of the retrained battalions has been operating in 
Narino department since early May 2003.
Status of the Helicopters
    A key component of U.S. assistance for Plan Colombia was enhancing 
the brigade's air mobility. To do this, the United States provided the 
Colombian Army with 33 UH-1N helicopters, 14 UH-60 Black Hawk 
helicopters, and 25 UH-II helicopters.\4\
---------------------------------------------------------------------------
    \4\ Of the 33 UH-1Ns, 28 remain available for use by the brigade; 1 
crashed on a mission and 4 were transferred to support the aerial 
eradication program.
---------------------------------------------------------------------------
    <bullet> The 33 UH-1N helicopters were supposed to serve as interim 
aircraft until the UH-60 and UH-II helicopters funded under Plan 
Colombia were delivered. The UH-1Ns were delivered in stages between 
November 1999 and March 2001. Since flying their first mission in 
December 2000, the helicopters have logged 19,500 hours in combat and 
have supported more than 430 counternarcotics brigade operations. 
Colombian Army personnel are qualified as pilots and mechanics, but 
many of the experienced pilots and mechanics who operate and maintain 
the aircraft are provided through a U.S. contractor.
    <bullet> The UH-60 Black Hawk helicopters were delivered between 
July and December 2001 but did not begin support operations for the 
brigade until November 2002 because of a shortage of fully qualified 
Colombian Army pilots. Forty-two Colombian Army personnel have 
completed the minimum UH-60 pilot training, of which 13 have qualified 
as pilot-in-command. U.S.-funded contract pilots fill in as pilots-in-
command. In addition, a U.S.-funded contractor continues to maintain 
the helicopters and provide maintenance training.
    <bullet> State procured 25 UH-II helicopters under Plan Colombia 
and planned to deliver them to the Colombian Army between November 2001 
and June 2002. However, they were delivered between March and November 
2002 instead because the Colombian military was considering whether to 
use a more powerful engine in the helicopters than the one usually 
installed. Ultimately it decided to use the more common engine. 
According to NAS officials, although some of the UH-II helicopters are 
being used for missions, all the helicopters will not be operational 
until June 2003. As of January 2003, 25 Colombian Army pilots had 
completed their initial training and 21 of these pilots are completing 
the training needed to qualify for operational missions. However, 
contractor pilots continue to supplement Colombian Army pilots and a 
U.S.-funded contractor continues to provide maintenance support.
Problems with Pilot and Mechanic Training
    Although all the U.S.-provided helicopters are in Colombia, a 
number of unanticipated problems in training Colombian Army pilots and 
mechanics to operate and maintain the helicopters were encountered. 
Some of these problems continue to limit the Colombian Army's ability 
to operate and maintain the aircraft. Primarily, the Colombian Army 
will have to continue to rely on contractor support because it will not 
have enough trained pilots-in-command and senior mechanics for the 
foreseeable future.
    <bullet> When the United States agreed to provide the UH-60 and UH-
II helicopters for the Colombian Army in July 2000, the assistance for 
Plan Colombia did not include any funds to train the Colombian pilots 
and mechanics needed to operate and maintain the helicopters. About 6 
months after passage of U.S. assistance for Plan Colombia, Defense 
agreed to provide the training and reported that it would transfer up 
to $20 million from other counternarcotics projects in Colombia to pay 
for it.
    <bullet> A training plan was approved in mid-2001. Although the 
plan provided training for Colombian Army personnel to meet the minimum 
qualifications for a pilot and mechanic, it did not include the 
additional training necessary to fly missions in a unit or to become a 
senior mechanic. Basic training for 117 helicopter pilots--known as 
initial entry rotary wing training--began in November 2001 and is 
projected to be completed by December 2004. This training is intended 
to provide a pool or pipeline of pilots for more advanced training to 
fly specific helicopters. In addition, according to U.S. embassy 
officials, a new pilot takes an average of 2 to 3 years to progress to 
pilot-in-command.
    <bullet> According to U.S. embassy and contractor officials, 105 
out of 159 Colombian Army personnel have completed the basic UH-60 and 
UH-II maintenance training and are taking more advanced training to 
qualify as senior mechanics. These officials told us that the remaining 
54 personnel will receive the contractor-provided basic training in the 
near future, but they did not know when it would begin. Moreover, these 
officials also told us that it typically takes 3 to 5 years for 
mechanics to gain the experience necessary to become fully qualified on 
speck helicopter systems, in particular the UH-60 Black Hawks.
    <bullet> The Colombian Army Aviation Battalion is responsible for 
providing helicopters and other aircraft and personnel for all 
Colombian Army missions with an aviation component, including 
counternarcotics and counterinsurgency operations throughout Colombia. 
Information provided by the Colombian Aviation Battalion shows that it 
is staffed at only 80 percent of its required levels and that, over the 
past several years, it has received between 60 percent to 70 percent of 
its requested budget for logistics and maintenance. The Colombian 
military's decision to continue using the UH-1N helicopters in addition 
to the UH-60 and UH-II helicopters will also make it more difficult for 
the Aviation Battalion to provide the numbers of personnel needed to 
operate and maintain the helicopters. State originally intended that 
the UH-1N helicopters would not be used after the UH-60 and UH-II 
helicopters were available to support operations.
    <bullet> According to bilateral agreements between Colombia and the 
United States, the Colombian Army must ensure that pilots and mechanics 
who receive U.S. training be assigned to positions using their training 
for a minimum of 2 years. This has not always been the case. For 
example, although 19 Colombian Army personnel were qualified to serve 
as pilots-in-command on UH-1N helicopters, only 1 pilot was assigned to 
serve in this position. The remaining pilots-in-command were provided 
by a U.S. contractor.
    <bullet> Of the funds appropriated for fiscal year 2002, $140 
million was used to support Colombian Army counternarcotics efforts. 
Most of this amount was used for U.S. provided helicopter operations 
and maintenance, logistical, and training support. However, not all the 
funding could be released until the Secretary of State certified, in 
two separate reports to appropriate congressional committees,\5\ that 
the Colombian military was making progress meeting certain human rights 
conditions. Because State was late in providing these reports, the U.S. 
embassy could not use this funding for operations and training on two 
occasions for a total of about 5 months during 2002.\6\ These delays 
resulted in fewer counternarcotics operations and limited the training 
and experience Colombian Army pilots could obtain to qualify as pilots-
in-command.
---------------------------------------------------------------------------
    \5\ Section 567 of the Foreign Operations, Export Financing, and 
Related Programs Appropriations Act, 2002 (P.L. 107-115). Specifically, 
the act provided that not more than 60 percent of the funds could be 
obligated until after the Secretary of State made a determination and 
certification that the Colombian military was (1) suspending members of 
the Colombian Armed Forces who have been creditably alleged to have 
committed gross violations of human rights, (2) cooperating with 
civilian prosecutors and investigators, and (3) severing links between 
the Armed Forces and paramilitary groups. In addition, the remaining 40 
percent of the funds could be obligated only after June 1, 2002, and 
after the Secretary of State made a second determination and 
certification with respect to the same conditions.
    \6\ According to U.S. embassy political section personnel, they 
encountered difficulties developing the information required to make 
the human rights determination and certification. The first report was 
issued on May 1, 2002--almost 2 months later than State's target date. 
The second report was issued on September 9, 2002--almost 3 months 
later than State's target date.
---------------------------------------------------------------------------
Continued U.S. Support Needed to Sustain Operations
    U.S. assistance to support the helicopters provided as part of Plan 
Colombia was originally planned to end in 2006 with the Colombian Army 
taking over these responsibilities. However, U.S. embassy and Colombian 
Army officials stated that a continued level of U.S. contractor 
presence will be needed beyond this date because the Aviation Battalion 
is not expected to have the personnel trained or the resources 
necessary. Although the embassy officials stated that they have not 
officially estimated what this assistance level will be, they 
tentatively projected that it would cost between $100 million and $150 
million annually to sustain the U.S.-supported counternarcotics 
programs. Moreover, other recently initiated U.S. programs will likely 
require U.S. assistance and contractor support, but the long-term costs 
of sustaining such programs are not known.
      colombia's aerial eradication program has had mixed results
    Since the early 1990's, State's Bureau for International Narcotics 
and Law Enforcement Affairs (through the U.S. Embassy's Narcotics 
Affairs Section (NAS) and the Office of Aviation) has supported the 
Colombian National Police's efforts to significantly reduce, if not 
eliminate, the cultivation of coca and opium poppy. However, for the 
most part, the net hectares of coca under cultivation in Colombia 
continued to rise until 2002, and the net hectares of opium poppy under 
cultivation remained relatively steady until 2001-02.\7\ In addition, 
the U.S. embassy has made little progress in having the Colombian 
National Police assume more responsibility for the aerial eradication 
program, which requires costly U.S. contractor assistance to carry out.
---------------------------------------------------------------------------
    \7\ The estimates of net hectares of coca and opium poppy under 
cultivation are prepared annually by the U.S. Director of Central 
Intelligence, Crime and Narcotics Center. See U.S. General Accounting 
Office, Drug Control: Coca Cultivation and Eradication Estimates in 
Colombia, GAO-03-319R (Washington, D.C.: Jan. 8, 2003).
---------------------------------------------------------------------------
Recent Progress in Reducing Net Cultivation of Coca and Poppy
    As shown in figure 1, the number of hectares under coca cultivation 
rose more than threefold from 1995 to 2001--from 50,900 hectares to 
169,800 hectares--despite substantially increased eradication 
efforts.\8\ But in 2002, the Office of Aviation estimated that the 
program eradicated 102,225 hectares of coca--a record high. In March 
2003, the Office of National Drug Control Policy reported for the first 
time since before 1995 a net reduction in coca cultivation in 
Colombia--from 169,800 hectares to 144,450 hectares--a 15 percent 
decline.
---------------------------------------------------------------------------
    \8\ The number of hectares eradicated is provided by the Office of 
Aviation and is based on the number of net hectares sprayed multiplied 
by an estimated ``kill rate.'' Although many thousands of hectares of 
coca and poppy are killed, coca and poppy farmers often replant in the 
same or other areas, which helps explain why the number of hectares 
under cultivation often does not decline.
---------------------------------------------------------------------------
      
    [GRAPHIC] [TIFF OMITTED] T7649.002
    
      
    As shown in figure 2, the net hectares of opium poppy under 
cultivation varied between 6,100 and 6,600 for the period 1995-98 but 
rose to 7,500 hectares in 1999 and 2000. In 2001, the net hectares of 
poppy estimated under cultivation declined to 6,500 and, in 2002, 
further declined to 4,900--nearly a 35 percent reduction in net 
cultivation over the past 2 years.
      
    [GRAPHIC] [TIFF OMITTED] T7649.003
    
      
    U.S. embassy officials attributed the recent unprecedented 
reductions in both coca and poppy cultivation primarily to the current 
Colombian government's willingness to allow the aerial eradication 
program to operate in all areas of the country. They also noted that:
    <bullet> the number of spray aircraft had increased from 10 in July 
2001 to 17 in January 2003;
    <bullet> recently acquired spray aircraft can carry up to twice the 
herbicide as the older aircraft; and
    <bullet> as of January 2003, aircraft were flying spray missions 
from three forward operating locations--a first for the program.
    The ability to keep an increased number of spray aircraft operating 
out of three bases was made possible, at least in part, because the 
U.S. embassy hired a contractor to work with the Colombian National 
Police to, among other things, help maintain their aircraft. As a 
result, the availability of police aircraft for the spray program 
increased. Moreover, in August 2002, the Colombian government allowed 
the police to return to a higher strength herbicide mixture that, 
according to embassy officials, improved the spray's effectiveness.\9\ 
These officials project that the aerial eradication program can reduce 
the amount of coca and poppy cultivation to 30,000 hectares and 5,000 
hectares, respectively, by 2005 or 2006, assuming the police continue 
the current pace and can spray in all areas of Colombia.
---------------------------------------------------------------------------
    \9\ In March 2002, the previous Colombian government reduced the 
strength of the spray mixture because of environmental concerns.
---------------------------------------------------------------------------
Colombian National Police Have Not Assumed Control Over Aerial 
        Eradication 
        Operations
    As we reported in 2000,\10\ beginning in 1998, U.S. embassy 
officials became concerned with the rising U.S. presence in Colombia 
and the associated costs of the aerial eradication program. At the 
time, the embassy began developing a 3-year plan to have the Colombian 
National Police assume increased operational control over the program. 
But for various reasons, the police did not agree to the plan. Since 
then, contractor involvement and the associated costs have continued to 
rise and the Colombian National Police are not yet able to assume more 
control of the aerial eradication program.
---------------------------------------------------------------------------
    \10\ GAO-01-26.
---------------------------------------------------------------------------
    As shown in table 2, in fiscal year 1998, the Office of Aviation 
reported that the direct cost for a U.S. contractor providing aircraft 
maintenance and logistical support and many of the pilots was $37.8 
million. In addition, NAS provided $10.7 million for fuel, herbicide, 
and related support, for a total of $48.5 million. For fiscal year 
2003, the comparable estimates for contractor and NAS-provided support 
were $41.5 million and $44.8 million, respectively, for a total of 
$86.3 million. Most of this increase occurred between fiscal years 2002 
and 2003 and is for the most part to support the additional spray 
aircraft, multiple operating locations, and the anticipated 
continuation of spray operations throughout Colombia. According to NAS 
and Office of Aviation officials, these costs are expected to remain 
relatively constant for the next several years.

                Table 2.--U.S. Support for the Aerial Eradication Program, Fiscal Years 1998-2004
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                  Fiscal years
-----------------------------------------------------------------------------------------------------------------
                                                                                    2003        2004
         Cognizant office            1998     1999     2000     2001     2002   (estimated)  (proposed)   Total
----------------------------------------------------------------------------------------------------------------
Office of Aviation...............    $37.8    $36.8  $52.5 \    $38.0    $38.2      $41.5        $45.0    $289.8
                                                          1\
Narcotics Affairs Section........     10.7     14.1     20.9     11.1     17.6   44.8 \2\         44.2     163.4
                                  ------------------------------------------------------------------------------
  Total..........................    $48.5    $50.9    $73.4    $49.1    $55.8      $86.3        $89.2   $453.2
----------------------------------------------------------------------------------------------------------------
Source: U.S. Department of State, Bureau for International Narcotics and Law Enforcement Affairs and the Office
  of Aviation.
\1\ Includes $20 million for additional spray aircraft.
\2\ In addition, NAS paid $38.8 million for a contractor to support the Colombian National Police Aviation
  Service. NAS could not readily identify the proportion of this contract that is related to aerial eradication.
  NAS officials stated that they expect this expenditure to continue for the next 2 years and possibly up to 4
  years.

    The Colombian National Police do not provide funding per se for the 
aerial eradication program and, therefore, the value of its 
contributions is more difficult to quantify. In recent years, the 
police have provided helicopters and fixed-wing aircraft for spray 
mission support and the use of many of its facilities throughout 
Colombia. In addition, the police have about 3,600 personnel assigned 
to counternarcotics missions and estimate that 84 are directly 
supporting the aerial eradication program.
U.S. Efforts to Improve Police Capacity for Aerial Eradication
    To help the Colombian National Police increase its capacity to 
assume more responsibility for the aerial eradication program, NAS has 
initiated several efforts.
    In February and March 2002, the Office of Aviation conducted an 
Aviation Resource Management Survey of the Colombian National Police 
Aviation Service. According to Office of Aviation officials, these 
surveys are intended to provide a stringent onsite assessment of flight 
operations from management and safety to logistics and maintenance. The 
survey team made a number of critical observations. For example,
    <bullet> The Aviation Service's organizational structure, lines of 
authority, and levels of responsibility were not clear. Relying on an 
overly centralized command structure resulted in unnecessary delays and 
the cancellation of some planned aerial eradication missions because 
the commanding general could not be reached.
    <bullet> The Aviation Service did not have a formal flying hour 
program to help forecast its budgetary requirements and enhance 
maintenance scheduling.
    <bullet> About 35 percent of the maintenance staff were 
inexperienced. According to the survey team, this could result in 
improper maintenance procedures being performed, which could adversely 
affect flight safety and endanger lives.
    <bullet> Management of items needing repair and control of spare 
parts were deficient. The survey team found 230 items awaiting repair--
some from August 1998--and more than $4 million in UH-1H helicopter 
blades and parts stored outside and unprotected.
    As a result of the survey, in July 2002, a NAS contractor (a $38.8 
million, 1-year contract with options for 4 additional years) began 
providing on-the-job maintenance and logistical training to the 
Aviation Service and helping the police address many of the issues 
raised by the Aviation Resource Management Survey team. Embassy 
officials noted that a more formal flying hour program has improved the 
availability rates of many of the Aviation Service's aircraft. For 
example, the availability rate of the Aviation Service's UH-II 
helicopters--often used to support aerial eradication missions--
increased from 67 percent in January 2002 to 87 percent in December 
2002. According to these officials, improved availability rates made it 
easier to schedule and conduct spray missions.
    In addition, NAS has begun a program for training pilots to fly T-
65 spray planes and plans to start training for search and rescue 
personnel who accompany the planes. U.S. officials stated that the 
contractor presence should decline and the police should be able to 
take over more of the eradication program by 2006, when NAS estimates 
that coca and poppy cultivation will be reduced to ``maintenance 
levels''--30,000 hectares and 5,000 hectares, respectively.
 financial and management challenges continue to complicate efforts to 
                     reduce illicit drug activities
    The U.S.-supported counternarcotics program in Colombia has 
recently begun to achieve some of the results envisioned in 1999-2000. 
However, Colombia and the United States must continue to deal with 
financial and management challenges.
    <bullet> Under the original concept of Plan Colombia, the Colombian 
government had pledged $4 billion and called on the international 
community to provide $3.5 billion. Until recently, Colombia had not 
provided any significant new funding for Plan Colombia and, according 
to U.S. embassy and Colombian government officials, anticipated 
international assistance for Plan Colombia--apart from that provided by 
the United States--did not materialize as envisioned. But because of 
overall poor economic conditions, the government of Colombia's ability 
to contribute more is limited.
    <bullet> The Colombian government has stated that ending the civil 
conflict is central to solving Colombia's problems--from improving 
economic conditions to stemming illicit drug activities. A peaceful 
resolution to the long-standing insurgency would help stabilize the 
nation, speed economic recovery, help ensure the protection of human 
rights, and restore the authority and control of the Colombian 
government in the coca-growing regions. The continuing violence limits 
the government's ability to institute economic, social, and political 
improvements.
    <bullet> For U.S. assistance to continue, Colombia faces continuing 
challenges associated with the need to ensure that the army and police 
comply with human rights standards, that the aerial eradication program 
meets certain environmental conditions, and that alternative 
development is provided in areas subject to aerial eradication.
    Overall, neither the Colombian Army nor the Colombian National 
Police can sustain ongoing counternarcotics programs without continued 
U.S. funding and contractor support for the foreseeable future. 
According to U.S. embassy officials, these programs alone may cost up 
to $230 million per year, and future costs for some recently initiated 
programs have not been determined. In addition, we note that this 
estimate does not include future funding needed for other U.S. programs 
in Colombia, including other aerial and ground interdiction efforts; 
the police Aviation Service's U.S.-funded contractor; and alternative 
development, judicial sector reform, and internally displaced persons 
programs.
    In recent years, world events--from the global war on terrorism to 
the wars in Afghanistan and Iraq--have diverted scarce U.S. resources 
and made it paramount that the United States fully consider the 
resources committed to its overseas assistance programs. As we noted in 
2000, the total costs of the counternarcotics programs in Colombia were 
unknown. Nearly 3 years later, the Departments of State and Defense 
have still not developed estimates of future program costs, defined 
their future roles in Colombia, identified a proposed end state, or 
determined how they plan to achieve it.
                         scope and methodology
    In conducting our work, we reviewed pertinent planning, 
implementation, and related documentation and met with cognizant U.S. 
officials at the Methodology Departments of State and Defense, 
Washington, D.C.; the U.S. Southern Command headquarters, Miami, 
Florida; and the U.S. Embassy in Bogota, Colombia In Colombia, we 
interviewed Colombian military, police, and government officials and 
visited the Colombian Army bases at Larandia, Tolemaida, and Tres 
Esquinas and other sites in the primary coca-growing regions of 
Colombia In addition, we observed a Colombian Army counternarcotics 
brigade airlift operation and several aerial eradication missions.
    We also discussed this testimony with cognizant officials from 
State's Bureau for International Narcotics and Law Enforcement Affairs 
and its Office of Aviation and State's Bureau for Western Hemisphere 
Affairs. They generally concurred with our treatment of the issues 
presented.
    We conducted our work between July 2002 and May 2003 in accordance 
with generally accepted government auditing standards.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared statement. I will be happy to answer any questions you may 
have.

    Senator DeWine. Very good.
    Mr. McLean.

STATEMENT OF PHILLIP McLEAN, SENIOR FELLOW AND DEPUTY DIRECTOR, 
 THE AMERICAS PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL 
                    STUDIES, WASHINGTON, DC.

    Mr. McLean. Thank you, Mr. Chairman, for inviting me to 
this Caucus, and let me make a few brief remarks from my 
written testimony which is submitted to you.
    I think there is a question in the public mind when the 
discussion of Colombia comes up, is this a narcotics-only 
activity or is the main objective terrorism. I would like to 
make the case today that, in fact, the narcotics target is, in 
fact, the correct target. If you are going to conquer terrorism 
and conquer the chaos in the country, you have got to get at 
this narcotics heart of what the problem is.
    Colombia some years ago was a very promising country. It 
stood with Chile as one of the best-performing countries in the 
hemisphere. But you can draw a strict correlation from the rise 
of narcotics in Colombia to the decline of the Colombian 
institutions and states. So it is not inappropriate, in my 
view, to make narcotics the central focus and target of what 
you are doing.
    Colombia in the 1970's, as you had the rise of the 
narcotics culture, which has brought into the country something 
like 2 percent of the gross national product in illegal 
funding--that money overcame the institutions, and particularly 
the institutions of law and order. The military to some degree, 
the police, but most specifically the judicial system has been 
deeply damaged, and these damages to these institutions is not 
something that you cure with a 1-year appropriation or even a 
decade of appropriations.
    That country, which had the ability before to stand up and 
be among the proud countries of the world, is, in fact, being--
almost a generation has got to be worked through as those 
countries re-focus their attention. Clearly, the corruption and 
the violence which is so impressive if you have lived there--
and you, Senators, have visited the country. You know many of 
these stories.
    I lived there for 3 years as No. 2 in the embassy and the 
charge, and I left the country in 3 years and I knew 11 people 
who had been murdered in that short period of time. Since that 
time, of course, I have known a great many more. It is an 
enormously tragic event.
    I would just like to address some fallacies that often come 
up. There is a fallacy that the United States can't do anything 
about this. I disagree with that. That perhaps the only thing 
we could do would be to legalize drugs. I certainly disagree 
with that. That there is a balloon effect. I can't disagree 
that there is not a balloon effect to some degree. But, in 
fact, my experience is that the balloon effect depends upon 
some assumptions. One of them is that the demand for drug must 
necessarily be constant. And, in fact, we know that it is not. 
Americans can change to other drug formulas, or, in fact, one 
would hope, reduce our drug consumption.
    Another fallacy is that you have to have a crop 
substitution program. Well, of course, given the price of the 
narcotics products, the illegal products, there can be no 
substitution. But I have seen, in fact, that when you have a 
program where you combine law enforcement with programs that 
help people, you can get people to move off that particular 
economy.
    Another fallacy is that these are poor campesinos, poor 
peasants who have been living there for years and have gotten 
hooked into this particular trade. The story in Colombia is not 
that. The story in Colombia is they are people who go there to 
produce drugs. They are, in fact, called colonos, colonists, 
who move into these areas. Therefore, that is one of the 
reasons you can, in fact, give them incentives to move away.
    What Colombia needs is a vibrant, restored economy, and the 
United States, in fact, has taken a number of steps. Certainly, 
the Andean trade preference initiatives by this Congress and 
were just renewed are said to have produced 100,000 jobs in the 
last round of that preference initiative, and is expected to 
produce another 100,000 to 300,000 in the coming years.
    So my point is that the United States should, in fact, 
choose narcotics as the focus of what we are doing. It is very 
important in this particular instance to keep our programs very 
focused and not try to cure or address every Colombian need.
    I think, in fact, by and large we have been doing that, but 
there obviously are big pressures, in fact, to expand and try 
to address every single need of the Colombian people. My 
experience is that President Uribe, whom I have known for many, 
many years, is, in fact, focused in this way.
    One of the strange things is as I begin to hear in the 
United States, oh, narcotics is not the appropriate target for 
our assistance, it is just at this time that the Colombians 
themselves, including their President, are saying narcotics 
should be what the United States is directing itself to.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. McLean follows:]
    Prepared Statement of Phillip McLean, Senior Fellow and Deputy 
     Director, The Americas Program, The Center for Strategic and 
                         International Studies
             Overcoming Narcotics and Violence in Colombia
    Thank you, Mr. Chairman, for the opportunity to speak to this 
Caucus about a topic that has been a concern to the United States for 
many years. Are U.S. policies ever going to make a difference in 
slowing the flow of narcotics to this country? What can be done to help 
Colombia overcome the constant violence that has plagued that country 
and is the most obvious threat to peace in our own hemisphere? And, in 
fact, should not terrorism, rather than narcotics, be the main object 
of U.S. involvement in Colombia?
    I followed the growing crisis in the Andes, and in Colombia 
especially, during more than a decade of my professional career in the 
Department of State and in recent years have made Colombia a subject of 
my writing and other activities at CSIS. My belief is that narcotics 
should very definitely be the main target of U.S. programs in Colombia. 
It is no accident that the Colombian government, encouraged and 
strengthened by the programs authorized and funded by this Congress, is 
beginning to have success against both the drug trade and violence. 
From what I have observed, the arrival of U.S. aid is making a 
difference. The hard part now will be to keep both the U.S. and 
Colombian governments focused on achievable counter narcotics goals.
    The story of Colombia in recent years is most often told with vivid 
anecdotes. Dry statistics do not quite get across the depth of the 
tragedy and the frequently bizarre results of so much illegal money 
flowing into the economy of a poor country. Estimates are that some $35 
billion drug profits enter Colombia each year. These vast sums distort 
normal economic incentives and have ironically made Colombia a poorer 
nation. The greed unleashed by the narcotized economy has broken down 
the institutions that normally protect people and led to devastating 
personal stories. Drug earnings finance death and corruption.
    <bullet> I had the privilege of knowing the charismatic Luis Carlos 
Galan. He stood up to the Medellin Cartel but then was assassinated by 
Pablo Escobar in the middle of his campaign for the presidency. His 
interrupted political career promised to unite the country as never 
before.
    <bullet> Just a year ago I met with the wife of the Governor of 
Colombia's important Antioquia department a month after he was taken 
hostage by the FARC (the Revolutionary Armed Forces of Colombia). The 
Governor had thought that he could use the principled tools of the U.S. 
civil rights movement to shame the guerrillas into making peace with 
civil government. After holding him for a year, the guerrillas killed 
him and ten other captives when they heard army helicopters arriving 
for a rescue attempt.
    <bullet> It came to light in recent weeks that a Colombian army 
company sent to re-take a guerrilla zone had stumbled across barrels of 
money totaling some $14 million buried in the jungle. Higher-level 
officials discovered that the troops had shared the cash among 
themselves rather than turning it in when non-commissioned officers 
began resigning and troops showed up with expensive purchases. Many 
Colombians expressed sympathy with the poorly paid soldiers--an example 
of how hard it is to hold to a sensible moral discipline when 
challenged by waves of narcotics wealth.
                             some fallacies
    For many years a common view among Americans, repelled by the 
bloodshed and chaos, was that we should not get involved. If the United 
States were to do anything, according to some, it would only be to 
legalize the consumption of narcotics. Efforts to suppress drug 
production and trafficking, they assert, send the price of the illegal 
products up and that just feeds criminality. Moreover, there is a 
``balloon effect.'' Suppression necessarily drives the drug business to 
other places and other criminal networks. Eradication, according to 
this argument, deprives poor campesinos of their only possible 
livelihood because alternative development programs do not work. 
Alienated peasants then join the guerrilla bands that have engaged the 
Colombian government in a ``civil war'' for the last 40 years.
    My experience suggests that all of those arguments are essentially 
wrong.
    <bullet> ``Legalization'' may be an interesting proposition for a 
debate, but no reasonable person would ever want to see the United 
States experience the increased drug consumption that would follow, 
certainly not of the ``hard'' drugs now produced by Colombia. By 
working on both the demand and supply side of the problem, the United 
States has reduced cocaine consumption by two thirds since the late 
1980's. Drug use is still, of course, intolerably high, but, while the 
signs are mixed, there is reason to believe we are about to see a 
further decline in cocaine use.
    <bullet> The usual rules of economic analysis are of only limited 
value when it comes to criminal enterprises, particularly one so large 
and constantly changing as the drug trade. Criminals don't keep 
accurate records. Statistics derived from indirect evidence are often 
at best indicators. When Bolivia and Peru reduced their coca harvests, 
cultivation in Colombia did increase but not proportionately to what 
had been destroyed, and now that Colombia is having success with its 
eradication program, production in the southern Andean countries has 
increased only slightly. Studies indicate the total amount of cocaine 
produced has decreased every year since 1988. Within Colombia, 
cultivation does move from one area to another but is pushed more by 
movement of the drug producers and less by economics.
    <bullet> The simple version of the ``balloon'' theory assumes that 
demand is constant. It is not. After the sharp drop of cocaine 
consumption in the United States beginning 15 years ago, demand for the 
drug continued to fall, if only marginally, in this country. Sadly, 
during the 1990's it increased significantly in Europe and Brazil. Now 
it appears the supply of cocaine is destined to be squeezed, at least 
in the short run. It will be an opportunity for the United States to 
reduce addiction. Whether or not that happens will depend on other 
factors since the millions who now consume cocaine will be able to 
substitute other drugs. Whatever the outcome here, the result will be 
favorable for Colombia.
    <bullet> Contrary to the image often portrayed, coca cultivation is 
not good for poor Colombians. Rather it is a bonanza economy that 
leaves people miserable over the long run.
        <bullet> LNo agricultural product can compete with its very 
        high immediate returns--and therefore there is no such thing as 
        ``crop substitution.'' The prospect of such high short-run 
        returns draws subsistence farmers into remote parts of the 
        country for what is generally a primitive slash-and-burn form 
        of agriculture that destroys tropical forests.
        <bullet> LIn several recorded cases, these new arrivals have 
        driven indigenous native people of their historic lands. In the 
        Catatumbo near the Venezuelan border the Motilones people once 
        lived in peace. Now the region, largely stripped of its jungle 
        cover, is the battleground where two distinct guerrilla bands 
        and paramilitary forces seek to dominate the newly arrived coca 
        cultivators.
        <bullet> LThe life of the coca farmer is not just violent but 
        also contaminated by the chemical used to extract the coca base 
        from the plant's leaves. The smell of kerosene and other 
        chemicals is characteristic of a coca farm.
        <bullet> LExperience shows that if laws against narcotics 
        production are seriously enforced and some alternative economic 
        activity is offered, most cultivators get out of the drug 
        business. Clearly, even with the aid of government programs--
        however well designed--only a fraction of those currently 
        engaged in drug production will be able to make a living out of 
        the weak tropical soils.
        <bullet> LUltimately their welfare and that of all poor 
        Colombians will depend on the growth and diversification of the 
        Colombian economy as a whole. In that regard, it is interesting 
        to note that the Andean trade preferences initially extended to 
        Colombia in 1991 have created some 140,000 jobs in the modern 
        sector of Colombia's economy, and the act renewed and amplified 
        last year by the Congress will, according to estimates, create 
        an additional 100,000 to 300,000 jobs.
    <bullet> The final fallacy is to say that Colombia is in a ``forty-
year-old-civil war.'' The two major guerrilla movements are widely 
unpopular and attract minuscule support. They may have had some 
ideological underpinning early in their histories, but they are now 
best understood--given their mafia-like loose organization, their 
criminal methods of extortion, kidnapping and narcotics trafficking--as 
criminal gangs. In the same way, the paramilitary groups that in some 
cases began as local defense forces are now dependent on criminal 
activity to support their existence. It is all good and well to offer 
to ``keep the door open'' to discussion with all of them, as President 
Uribe has, but ending Colombia's plague of violence will be more 
similar to a campaign against lawlessness than a war.
                   u.s. approach to colombia's crisis
    If the Colombia conflict is more a gigantic law and order problem 
rather than a war in the classic sense than the United States must 
manage its assistance accordingly. Counterinsurgency models from El 
Salvador or even less Vietnam are not appropriate. U.S. aid, as large 
as it currently is, would be diluted if it were simultaneously directed 
at every aspect of Colombia's security crisis. Moreover, it is not 
clear that this country could properly select and prioritize the best 
targets for such a comprehensive approach. Colombia's needs are urgent 
and important, but it just seems in the complex conditions there to be 
good management sense for the United States to choose specific tasks, 
with specific goals and performance measures rather than searching for 
a wider role.
    The security assistance given to Colombia under Plan Colombia has 
up to now, in fact, followed that practice. Stopping narcotics 
trafficking has been the main goal, and even though the Congress 
loosened the strict prohibition against using U.S. resources for other 
than counter narcotics purposes, my understanding is that the anti-drug 
goal is still the primary focus. In several instances, I have heard, 
even when the United States has authorized the diversion of Plan 
Colombia aid, the operation ended up uncovering narcotics or tracking 
related activity--a further illustration of the extent of link between 
violent groups and criminality.
    Instead of having an open-ended commitment and the U.S. purpose 
defined as ``strengthening the Colombian state'' or some other highly 
desirable but ill-defined goal, the narcotics control objective gives 
U.S. activities a clear way to judge success or failure.
    Curiously, the much smaller U.S. program to assist with the 
protection of the Cano Limon-Covenas pipeline similarly has a specific 
objective and means of measuring accomplishment. But defeating the 
narcotics trade deserves to be the main objective of U.S. security 
efforts both because of its direct connection to one of our country's 
leading social concerns but also because narcotics corruption is the 
principal cause of Colombia's failure in the last two decades.
    Before the scourge of the narcotics trade, Colombia was one of the 
best-regarded countries in Latin America. Now many fear that it could 
become a troubling base for terrorism. Certainly, President Alvaro 
Uribe puts a high priority on narcotics control. If it can find the 
will, as it seems to have in the last year, Colombia can do much on its 
own to confront its antagonists. The United States can best help him 
save his country by staying focused on specific objectives. With the 
arrival of the U.S. resources anticipated under Plan Colombia there is 
a chance of breaking the power of the narcotics interests, helping 
Uribe and finally reducing cocaine shipments to the United States.

    Senator DeWine. Mr. Ford, the GAO previously reported that 
alternative development programs were having trouble getting 
off the ground mainly due to poor security and the fact that 
they were originally focused on a flawed strategy geared toward 
crop substitution.
    From what I understand, we have shifted strategy somewhat 
to focus less on crop substitution and more on creating jobs 
and improving infrastructure. How are we coming in regard to 
that?
    Mr. Ford. Mr. Chairman, we are aware of the changes. They 
made a change in strategy after we issued our report in 
February of 2002. I have seen the State Department's recent 
progress report, issued, I believe, in the second quarter of 
this year which has indicated that they have made quite a bit 
more progress from the time we issued our report.
    We have not independently analyzed that information, but I 
will say that there is a clear sign that they are making 
progress in the area. They did adjust from the idea of crop 
substitution, particularly in southern Colombia where they 
found it was not going to be viable and security wasn't going 
to allow them to operate programs down there. So they have made 
adjustments in areas where they think they can have more of an 
impact.
    Senator DeWine. Senator Sessions.
    Senator Sessions. Mr. McLean, I think you made some very 
good points. The first one is that the United States can do 
something and can be a positive influence. But I think you 
would agree that ultimately the success or failure in Colombia 
will be determined by the will of the Colombian people.
    No. 2, I think you are correct about crop substitution 
programs. That is a nice-sounding idea, but it has never struck 
me as particularly realistic. There was an article some 
professor wrote in the Washington Post that showed just how 
little--if I recall, it is something like 10 cents is paid to 
the crop grower for cocaine that sold for over $100 an ounce. 
So you could afford to pay the crop grower a dollar or ten 
dollars and still have a huge profit on cocaine.
    Be frank with us. Isn't that the difficulty? If the demand 
is strong, it would be difficult to create an economic system 
in which an alternative crop could still compete economically 
with cocaine production.
    Mr. McLean. Senator, I would say that any program has to 
have a one-two punch and the lead has got to be the strong 
line. You have got to have law enforcement. Unless it is 
illegal, unless you are establishing a legal order, you are not 
going to have effectiveness.
    I do believe that you can top it off. If you have an 
alternative development program in the area, it can help lure 
people away at the end. I will give you an experience of the 
anti-marijuana programs of the 1980's. It is hard to remember, 
but there used to be something called Colombian Gold. I was a 
little bit too old to enjoy it, but I am told it was a much-
used product.
    The United States came in and had a very strong program of 
eradicating marijuana. It was an easier crop to take care of, 
and we did it year after year after year. And suddenly--and I 
mean suddenly--it just stopped. Now, it stopped because the 
Colombian government on its own, not with pressure from the 
United States, came in behind us after years and years of 
eradication and came in with an assistance program to lure 
those discouraged farmers to finally get them off the land and 
doing something else.
    So if you use the two things together, I think it is 
possible, but most of all it is the health of the economy and 
the law enforcement regime that you have to put in place.
    Senator Sessions. So strong law enforcement with efforts to 
strengthen the economy so that there are other ways to make a 
living is the combination.
    Mr. McLean. That is right.
    Senator Sessions. Well, that is an interesting story about 
marijuana. When I first became a Federal prosecutor in the mid-
1970's, and even in the early days of the 1980's when I was a 
U.S. Attorney, we still saw boat loads of marijuana coming from 
Colombia. But by the mid-1980's, I think virtually it dried up 
to zero. Marijuana comes, I guess, from Mexico or is home-grown 
from what we see, but the huge multi-ton, 15-ton, 20-ton boat 
loads that were coming through virtually ended. So that was a 
success story that we should not forget.
    I don't think I understand you to be suggesting, do I, Mr. 
McLean, that it is not important for the Colombian government 
to take over its country, to be able to enforce law and order 
in every area of the country, and ultimately that means 
confronting these insurgent groups?
    Mr. McLean. Not at all, Senator. I, of course, have dealt 
with the Colombian police and military for many, many years and 
have the greatest respect for some of them. I feel there have 
been some failures over the years, but I blame it more to a 
condition of defeat than anything else.
    Certainly, the United States, I think, should be a helpful 
partner, but I am talking about specifically where we put our 
$2.5 billion and how we perform as a friend. I think we perform 
best as a friend by keeping ourselves in the types of things 
where you can measure performance.
    I think that is, in fact, one of the good things about the 
narcotics program is that the GAO and others can come along and 
say you said you were going to do this and you have done this, 
but not fully fulfilled. You have a program that has a measure 
of success or failure and if you are failing, you may get out, 
but in this circumstance I think you would probably adjust what 
you do. That is perfectly right.
    But if you take on a goal such as strengthening the 
Colombian state, it is so broad, it is so wide, you will never 
accomplish it. And my own experience is that there will be a 
lot of pressures for the operators of the U.S. Government to 
push their funds into areas where there is an immediate demand.
    Unless we have some restraint--and I am not saying going 
back to what I think was an erroneous policy of a strict 
firewall, as General Hill talked about, but I think there must 
be a strong orientation. I am not quite sure how the Congress 
handles that or the administration. My understanding is, in 
fact, at this point people are well-focused, but my fear is 
that we will get off focus in the future.
    Senator Sessions. Thank you.
    Senator DeWine. The two of you had the opportunity to 
listen to the first two panels and I would like to give you an 
opportunity to react. Mr. McLean has already reacted to the 
balloon analogy, but I wonder if either one of you would like 
to react to anything else that was said in the last 2 hours, I 
guess.
    Mr. Ford. Well, I think from where we sit, first of all, we 
have been going down to Colombia since the mid-1990's, so we 
have kind of a longer view of what we have tried to do there. I 
believe that there are clear signs that there is progress there 
and a lot of it has to do, I think, with the attitude of the 
Colombian government to support the kinds of things that the 
United States is interested in.
    I think that the point we tried to make and we will be 
making in our report is that there is a cost associated with 
this, and that we would like to see from a GAO point of view a 
little more transparency from the administration about what 
these programs are going to cost, because they have new 
initiatives that they talked a little bit about this morning 
and there is a dollar tag to that.
    On some of these things, we are not aware of what their 
costs will be and we think that we would like to see those 
costs up front, and we would like to see some time line that 
lets the Congress know how long it is going to take for some of 
these programs to reach fruition and get some real results.
    So I think we are favorably disposed that progress is being 
made, but we would like to see a plan from the administration 
that lays out how much it is going to cost and some benchmarks 
along the way so we can measure whether we are moving in the 
right direction.
    Senator DeWine. Well, Mr. Ford, that is an interesting 
comment. I think that is certainly a legitimate position.
    When you are dealing with the situation in Colombia, I 
think it is quite frankly difficult to tell how long this is 
going to take. If you can project it--I don't know; maybe you 
can, but I don't think I can. You know, this is going to take a 
while.
    One thing I do know is it is going to take a while. I don't 
know what a while is, but we are in this for a number of years, 
I think. I understand your point, but this is not any short-
term problem, at least from my perspective.
    Anything else you want to add, Mr. McLean?
    Mr. McLean. Well, Senator, I would only say thank you again 
for having me. I do think that the question of keeping focused 
on our security system is very important, but clearly Colombia 
has many, many other problems. I think that the United States 
is, in fact, taking certain portions of those problems, but I 
wouldn't undersell the Colombians.
    As you saw here today with Francisco Santos, the Vice 
President, they are people of enormous talent and energy, and 
they are able to do a lot. But we have to think about the way 
that we relate to those problems. We now have certainly more 
than 1,000 official Americans in Colombia. This is a management 
problem and if our relationship to them is to be successful, we 
have got to be very clear on what we are trying to accomplish.
    Thank you.
    Senator DeWine. Well, let me thank both of you for coming 
in, very helpful, a very, very important topic, and we 
appreciate it. I thank all of the members of the three panels 
for coming in. I think it has been a very productive hearing. 
Thank you very much.
    [Whereupon, at 12 p.m., the Caucus was adjourned.]
                            A P P E N D I X

 Questions Submitted by Hon. Joseph Biden to J. Curtis Struble, Acting 
 Assistant Secretary (WHA) and Paul Simons, Acting Assistant Secretary 
                             of State (INL)
    Question 1a. Over the past few years, as you know, there has been 
significant and legitimate concern about the human rights situation in 
Colombia. Indeed, the Department's most recent Human Rights report, 
released in March, states that in 2002:

          ``The [Colombian] Government's human rights record remained 
        poor . . . some members of the government security forces 
        continued to commit serious abuses, including unlawful and 
        extrajudicial killings. Some members of the security forces 
        collaborated with paramilitary groups that committed serious 
        abuses.''

    The Colombian military needs to make significant progress on human 
rights and severing ties with paramilitaries--yet according to the 
Department's report, serious problems remain.
    I understand that you are in the process of determining whether or 
not Colombia will be certified this year on its progress on human 
rights.
    Can you speak to these continuing concerns, especially those 
outlined in the Department's report?
    Answer. Over the last several years, the Colombian Armed Forces 
have made significant progress in improving their human rights record. 
Still, some military personnel continue to maintain ties to 
paramilitary units that are a major source of human rights violations. 
A high level of criminality in Colombia, together with a weak 
judiciary, further undermines the rule of law and human rights in 
Colombia. A lack of accountability for many types of criminal activity, 
including human rights violations, remains a significant issue.

    Question 1b. What can we point to, specifically, that indicates 
that Colombia is making significant progress on human rights?
    Answer. The Uribe Administration has taken steps to improve the 
human rights situation in Colombia. Vice President Santos has 
reinvigorated the Presidential Human Rights Program creating a Special 
``Momentum'' Committee to promote more actively the judicial resolution 
of high-priority human rights cases. He has also established regular 
dialog with local human rights groups. Additionally, at the request of 
President Uribe, the mandate of the Colombia office of the United 
Nations High Commission for Human Rights (UNHCHR) was extended through 
2006. To create an environment conducive to the protection and 
promotion of human rights, Uribe has instituted a Democratic Security 
plan designed to increase and consolidate state presence throughout the 
country, particularly in previously neglected areas where U.S.-
designated Foreign Terrorist Organizations have traditionally had 
significant influence.
    As we have certified in past reports to Congress, the Colombian 
Armed Forces are taking effective action to sever links between 
military personnel and paramilitary units. Intelligence activities and 
combat operations by the Colombian Armed Forces against paramilitaries 
increased in 2002. As of November 30, 2002, Colombian military 
operations have resulted in the deaths of 183 paramilitaries (compared 
to 117 in 2001) and the capture of 1,214 (compared to 1,089 in 2001).
    We are committed to continue working closely with the GOC to 
strengthen and increase access to the judicial system, prevent human 
rights violations, and to promote the rule of law.

    Question 1c. I understand that there has been an increase in the 
number of arrests of paramilitaries--however, have any high-ranking 
members of the paramilitary been arrested?
    Answer. There has been progress in apprehending paramilitary 
members and their high-ranking leaders. On June 21, 2003, the Colombian 
armed forces seized a far-right paramilitary warlord, Bolmar Said 
Sepulveda, sought in the killings of 450 people in Barrancabermeja.

    Question 2a. As you know, U.S. personnel are under high security 
risk in Colombia. Drug traffickers view the Drug Enforcement 
Administration as enemy No. 1, embassy personnel must travel by armored 
vehicle, dozens of U.S. citizens have been kidnapped in the last 
decade, and three are currently being held hostage.
    What can you tell us about continuing efforts to locate the three 
U.S. citizens who are currently being held hostage by the FARC?
    Answer. Since the February 13 plane crash, the Colombian Government 
has committed significant resources to an extensive and intense search 
and rescue effort. It initially deployed more than 2,000 Colombian Army 
troops to the area where the Americans were most likely being held. The 
Colombian government committed another 5,000-plus to support 
operations. To support the Colombian Army's efforts, the U.S. sent 
additional personnel to Colombia, and made available resources and 
equipment that were already in-country.
    Despite several engagements with FARC units, it appears that the 
FARC has moved the three hostages to a remote area outside the 
immediate reach of the Colombian military. We continue to provide 
intelligence and logistical support to Colombian security forces 
involved in the search and rescue effort.
    Our primary concern is the safe return of the hostages. We are 
assessing additional steps to bring about their recovery. As tactical 
search operations involving large-scale deployments of troops are 
reduced, good, actionable intelligence becomes more important. We 
continue an active campaign to locate the hostages.
    The Department of State continues to maintain close, regular 
contact with the families of the three hostages to keep them apprised 
of events on the ground in Colombia. The United States has made clear 
that we hold the FARC responsible for the safety of these three 
individuals. We have made clear that we will not press the Government 
of Colombia to make concessions nor will we make concessions to the 
FARC to obtain their release.

    Question 2b. Are we considering any significant policy changes 
toward Colombia as a result of the kidnappings?
    Answer. The holding of American hostages underlines the imperative 
that we continue our current policy for providing support--both 
financial and diplomatic--to the Colombian government as it seeks to 
combat the twin threats of terrorism and narcotrafficking in that 
country. As Colombia advances toward its aim of projecting a 
stabilizing security presence throughout its territory, threats to U.S. 
citizens and interests will gradually recede.

    Question 2c. Are we seeing increased threats to U.S. personnel and 
facilities in Colombia in general?
    Answer. Colombia is a dangerous environment for U.S. personnel and 
American citizens in general. From November 2002 until May 2003, 
Embassy Bogota received an increase in the number of threats. The 
Embassy's assessment is that the seizure does not necessarily signal an 
elevated threat against Americans. The FARC has routinely and 
repeatedly designated Americans as legitimate ``military'' targets; 
however, to our knowledge, it has not conducted premeditated operations 
with the specific intent to kill or capture American citizens. That 
said, the general threat to Americans of kidnapping remains 
significant.
    The threat of collateral damage impacting U.S. citizens has 
increased significantly. Although the local police and military have 
had many successful operations targeting FARC cells, a higher number of 
urban bombings have occurred since the beginning of the year. In the 
past, the majority of bombings targeted Colombian government facilities 
in rural areas, or in the southern part of Bogota. However, the attack 
on an exclusive social club just three blocks from the U.S. 
Ambassador's residence in Northern Bogota is evidence that the FARC has 
broadened its targeting spectrum. We have not seen an increase in crime 
against Americans, but U.S. businesses frequently received extortion 
threats from November 2002 until early May 2003.

    Question 2d. What additional security measures can be put in place 
to protect U.S. citizens and facilities in Colombia?
    Answer. The Embassy has already tightened its security 
significantly since November 2002, even before the February hostage 
situation began.
    The USG relationship with the police and other Colombian security 
services is excellent; however, the Colombian forces are stretched very 
thin. The Embassy's Consular Section, in consultation with the Regional 
Security Office, sends warnings to American citizens via its network of 
wardens when the Embassy obtains specific and credible threat 
information. Realistically, however, the large presence of Americans in 
Colombia makes it likely that many will continue to frequent popular 
malls, clubs, and restaurants. Embassy announcements have no binding 
authority over non-official Americans, but serve to alert them of 
possible dangers and advise them to vary their patterns of activity.
    Embassy Security Officers also work very closely with American 
companies through the Overseas Security Advisory Committee, which has 
about 120 members and associate members. This has been an effective 
source for disseminating security information to U.S. companies 
throughout the country.

    Question 3. I understand that civilian contractors often experience 
ground fire as they fly spray missions over FARC-controlled territory. 
Recently, one press report quoted one U.S. official that planes have 
been hit by bullets seventy times so far in 2003.
    <bullet> How do we provide protection to U.S. and Colombian 
personnel, who are conducting these highly risky missions?
    Furthermore, we are all aware of the three fatal plane crashes of 
U.S. contractors since February, two of them involving Cessna 208 
aircraft. I understand that contractors have raised concerns that the 
single-engine Cessna 208, which is used for the U.S.-supported spray 
programs, is not suitable for Colombia's mountainous regions because it 
cannot perform the steep climbs required by the terrain.
    <bullet> Do we know the reason for the engine failure that caused 
the two recent crashes?
    <bullet> Are the contractors and other analysts raising a valid 
concern about the use of single-engine aircraft in the mountainous 
areas of Colombia? If so, why are we using this type of plane, and 
putting U.S. contractors at further risk?
    <bullet> Is the Department contemplating leasing or acquiring 
alternate aircraft for surveillance and spray missions?
    Answer. We have seen a sharp increase in ground fire hits against 
the spray aircraft and escort helicopters in our counter-drug efforts. 
As of June 3, 2003, there have been 184 ground fire hits--compared to a 
total of 194 hits for all of CY2002. We believe the aggressive spray 
program is really hurting illicit drug crop growers--and that they and 
narcoterrorist groups such as the FARC and AUC, all of which thrive on 
the narcotics trade, are responding by shooting more often.
    With respect to the three fatal plane crashes of U.S contractors 
since February, the two Cessna 208 aircraft were operated by Department 
of Defense contractors and the one Ayres ``Thrush'' spray aircraft was 
operated by the INL Air Wing contractor. INL was in no way involved in 
the maintenance, operation, and accident investigation process for 
those two Cessna 208 aircraft. Therefore, Department of Defense is the 
appropriate agency to respond to questions about the results of the 
crash investigations and concerns about the single-engine Cessna 208 
aircraft's ability to perform the Department of Defense missions they 
are assigned. However, we would comment that INL pilots who fly the 
Cessna 208 are confident in the performance of our aircraft.
    Of six Cessna 208 aircraft supported by the INL Air Wing, only one 
is operated in Colombia, for the purpose of coca crop targeting and 
coca spray verification. That aircraft, equipped with a MDIS 
(multispectral digital imaging system), performs its missions at 
altitudes that are well beyond the range of most small arms. While we 
have found our Cessna aircraft to be very reliable over the years, we 
have a request into the Pentagon for the transfer of several excess 
twin-engine C-12 ``King Air'' planes as replacements for our aging 
Cessnas. The multi-engine C-12 aircraft will yield increased area 
coverage on each MDIS mission due to its greater airspeed. It will also 
provide an enhanced margin of safety for its crewmembers, as our MDIS 
camera aircraft usually operates as a single-ship mission without a 
wingman or escort aircraft.
    On April 7, we lost one of our pilots in the crash of a single-
engine, Ayres ``Thrush'' spray aircraft. The accident was due to pilot 
error and not ground fire. Though we practice extensive security 
procedures to minimize risk to pilots and planes, it must be noted that 
there is no procedure that perfect, in itself, to ensure total safety 
during flight operations. INL's Air Wing continues flying what is 
universally recognized as a very difficult mission in an increasingly 
hostile environment. To meet that environment, we are increasing 
security of our spray program through an integrated program--one that 
provides for improving intelligence coordination and exchange, using 
armed Black Hawk helicopter escorts, adding Colombian ground troop 
presence in the aerial spray zone, and flying twin-engine spray 
aircraft in the higher risk areas.

    Question 4. According to the report that the General Accounting 
Office (GAO) released at the hearing, there have been numerous problems 
with pilot and mechanic training as well as pilot retention: Pilots are 
not showing up for training; qualified Colombian pilots are not being 
assigned to flying missions; and trained pilots are not remaining in 
the program. The report contends that the U.S. must, as a result, spend 
$150M a year to sustain ongoing operations with contractors.
    <bullet> How can we get enough pilots trained if we can't even get 
them to show up?
    <bullet> What can we do to keep the pilots we train in the program? 
Why do you think they are dropping out?
    <bullet> When do you think the Colombian military will be able to 
operate without extensive U.S. assistance? When will we be able to 
scale back on aid to the military?
    Answer. The challenges associated with training pilots and 
mechanics for 72 helicopters provided to the Colombian Army over a 
relatively short period of time have been great. With help from the 
Department of Defense, we have made excellent progress. There are now 
126 Colombian Army pilots for the Plan Colombia helicopters, and 
training is continuing. Of these pilots, 31 are Pilots-in-Command or 
Instructor Pilots. Approximately 220 COLAR personnel have received 
maintenance training from Department of Defense, and many of these 
personnel have obtained additional formal and informal instruction from 
INL's aviation support services contractor.
    As noted in the GAO report, there have been some difficulties in 
ensuring that COLAR's internal management of these resources is as 
effective as possible. Because of maintenance demands associated with 
COLAR's FMS-purchased (non-Plan Colombia) helicopters and other 
military requirements, at times the full complement of trained 
personnel was not available to fly or work on the helicopters. We have 
not experienced COLAR personnel ``dropping out,'' but COLAR leaders 
have not always managed the workforce effectively. We are working as 
closely as possible with the COLAR to maximize the availability of 
their personnel to perform operations and to step up training and 
development in preparation for assuming full responsibility for 
operation and maintenance of these important assets in the future.
    We are working very hard to expedite the transfer of responsibility 
for running this program to the Colombians, and will make the 
transition as quickly as possible without compromising safety or 
mission effectiveness. As part of that process, we do anticipate 
significant contractor participation for the foreseeable future while 
the COLAR continues to train and gain experience and maturity.

    Question 5. We have all discussed that to have an effective 
counternarcotics policy, we need to advance a three-pronged approach: 
interdiction, eradication, and alternative development.
    Yet, last year a report prepared for the Agency of International 
Development (AID) concluded that the alternative development programs 
originally planned for Colombia are not likely to work for a number of 
reasons: the farmers in the southern part of the country distrust the 
government so they continue to plant coca as an insurance policy even 
as they agree to stop growing it; the soil is not conducive to many 
legal crops, and costs of production are too high for them to be 
competitive; the infrastructure is so poor that they cannot get 
products to market; and security concerns make it difficult to operate.
    More recently, AID has estimated that a comprehensive alternative 
development program may be cost prohibitive: about 130,000 families are 
involved in the illicit crop business and it costs around $12,000 per 
family per year to provide a long-term sustainable economic development 
program. That brings the total to about $1.5 billion a year.
    What is the plan to create an effective and sustainable alternative 
development program in Colombia?
    Answer. The report which you mention identified a number of 
constraints that make it difficult and sometimes dangerous to carry out 
development activities in areas where there is not a significant and 
visible national government presence. It was written just as the 
alternative development program was beginning in Putumayo Department 
and at a time when the aerial spray program had been largely suspended 
there.
    Since that report was written, USAID has made a series of 
implementation adjustments in the alternative development program and 
the aerial spray program has been reactivated. The results have been 
impressive. Production of coca in Putumayo Department (the focus of the 
alternative development program) has been reduced from about 60,000 
hectares to approximately 1,500 hectares. This experience shows that 
the USG's counter-narcotics strategy which calls for a combination of 
alternative development, forced eradication (aerial spraying) and 
interdiction is fundamentally sound. We are, nevertheless, continuing 
to learn from our experiences and have consequently expanded our 
thinking regarding the essential elements of an effective and 
sustainable alternative development program.
    Current thinking regarding creation of an effective and sustainable 
alternative development program in Colombia calls for a broad program 
of activities with five important elements:
    <bullet> Alternative Development assistance to identify, promote 
and develop licit production and employment alternatives;
    <bullet> Forced eradication (by aerial spraying or other methods);
    <bullet> Interdiction;
    <bullet> Public Diplomacy; and
    <bullet> Governance assistance.
    As Public Diplomacy and Governance are relatively recent additions 
to our set of counter-narcotics tools, we are still discussing how they 
may best be applied in particular situations.
    The central features of Public Diplomacy include:
    <bullet> Provision of information to the public regarding the ways 
that international narcotics activity damages the economy and society 
as a whole;
    <bullet> Information on how drugs and the drug culture harms 
individuals; and
    <bullet> Development of anti-cocaine norms and values.
    Important features of the Governance element include:
    <bullet> Establishment of police and military presence to ensure 
that illegal armed groups do not control the area and become the ``de-
facto'' government.
    <bullet> Expansion of national government presence in rural areas 
by providing support for rural infrastructure and socioeconomic 
services such as: health care, education, access to justice, 
agricultural extension and related services.
    <bullet> Support for activities that strengthen links between 
communities and the State; and
    <bullet> Support for local governments and activities that 
strengthen municipal management capacity, community cohesion and 
collaboration among local groups.

    Question 6a. I am concerned about reports that the office of the 
Colombian Attorney General is not improving its record in prosecuting 
human rights cases. According to the March 2003 State Department Human 
Rights Report, of the 116 killings of labor union members documented as 
of September 2003, there were no arrests, prosecutions or convictions 
at year's end.
    Furthermore, I am aware of concerns that members of the Uribe 
Administration have made statements that threaten non-governmental 
human rights workers in Colombia.
    Can you speak to these points, especially in light of the 
Department's pending human rights certification of Colombia?
    Answer. Colombia's under-equipped and overworked judiciary 
confronts profound challenges, such as corruption and intimidation by 
guerrillas, paramilitaries, and other wealthy criminal organizations. 
Limited accountability for human rights violations and other crimes is 
the single greatest obstacle to the integrity of the Colombian State 
and the creation of a culture of respect for human rights.
    Owing to these systematic weaknesses, prosecuting murderers of 
trade unionists has proven extremely difficult. Prosecutors have been 
unable to identify the assailants in 125 of the 178 such murders in 
2002.
    However, Colombia has made improvements. The National Labor School 
in Medellin (a labor NGO) reports a downward trend in the number of 
murders of trade union officials over the past 2\1/2\ years: from 184 
in 2001 and 178 in 2002 to 29 in 2003 (through mid-May).
    Colombia's vice-President has created a special committee dedicated 
to trade union murders, particularly in the conflictive areas of 
Barrancabermeja, Arauca, and Cauca.

    Question 6b. Are you aware of an increasing climate of threat and 
intimidation toward human rights workers, perpetuated by members of the 
Uribe Administration?
    Answer. Several NGO's have claimed that statements made by 
Colombian officials contribute to a climate of threat and intimidation 
for human rights workers. For example, Human Rights Watch stated that 
Brigadier General Camelo accused NGO's of waging a ``legal war'' 
against the military, calling them ``friends of subversives.'' In our 
conversations with Colombian officials, we have stressed that such 
comments, particularly from military officials, are counterproductive 
and undermine the credibility of the Uribe Administration's commitment 
to improve human rights.
    President Uribe has publicly addressed these concerns. At the 96th 
Anniversary of the Jose Maria Cordova Cadets School, Uribe called for 
respect and tolerance for NGO's. At a recent conference on security and 
individual liberties, he emphasized that democracies require the 
defense of human rights workers so that they can pursue their 
activities without fear.
    The President has acted on this commitment, instituting a 
Democratic Security Plan designed to increase and consolidate the 
government presence and rule of law throughout the country, and 
reinvigorating the Presidential Human Rights program. Under the Vice 
President's leadership, the GOC conducts regular discussions with local 
human rights groups and has encouraged efforts to more aggressively 
resolve 100 high priority human rights cases. President Uribe has 
requested the extension of the mandate of the Colombia office of the 
United Nations High Commission for Human Rights (UNHCHR) to the end of 
his term in 2006. He has also instructed the Foreign Ministry to more 
energetically pursue settlements of cases currently before the Inter-
American commission on Human Rights.

    Question 6c. Is the Uribe Administration making adequate efforts to 
prosecute cases of human rights violations?
    Answer. The Uribe Administration is committed to holding members of 
the Colombian Armed Forces accountable for their actions. The Colombian 
judiciary continues to process cases. On June 19, a Colombian judge 
sentenced Colonel Lino Sanchez to 40 years in prison for conspiring 
with paramilitaries to massacre peasants in Mapiripan in 1997. In 
March, the Prosecutor Generals Office charged Lt. Col. Orlando Pulido 
Rojas with homicide and conspiracy for collaborating with 
paramilitaries in the murder of five alleged FARC collaborators. At the 
same time, he issued an arrest warrant for former General Jaime 
Humberto Uscategui for failing to prevent a paramilitary massacre in 
Meta Department in 1997.

    Question 6d. What are we doing to support investigation of the 
assassination cases of trade unionists?
    Answer. U.S. Government judicial sector reform programs and 
assistance to protect human rights are strengthening the Uribe 
Administration's ability to investigate and prosecute trade union 
cases. As part of Plan Colombia, the Embassy has provided support to 
the Prosecutor General's Office (Fiscalia) in an effort to aid 
investigations of assassination cases of trade union officials. Plan 
Colombia funding has established 11 satellite Fiscalia Human Rights 
throughout Colombia, enhancing the Fiscalia's ability to identify, 
investigate and prosecute human rights violations, including cases 
involving trade union activities. In total, we have provided 
$3,711,734.07 for crime scene kits, modular furniture, office 
equipment, armored vehicles, operational support funds, and specialized 
training in human rights and forensic sciences. In FY03, the USG 
provided $154,030 directly to support investigations.
                                 ______
                                 
  Questions Submitted by Hon. Charles Grassley to J. Curtis Struble, 
  Acting Assistant Secretary (WHA) and Paul Simons, Acting Assistant 
                        Secretary of State (INL)
    Question 1a. The United States has spent over $2.5 billion since 
2000 to assist Colombia in its fight against narco-trafficking. The 
press has been full of reports questioning the success of our efforts 
in Colombia, pointing to reports that just as much cocaine is available 
in the United States today as was available 5 years ago, at higher 
purity and lower price. While there may be questions regarding the 
interpretation of statistics, it does raise a fundamental question of 
what measures should be used to gauge the progress of our efforts.
    What performance measures are being used by the State Department to 
assess the success or failure of U.S.-funded counter-narcotics programs 
to Colombia?
    Answer. The main goal of the United States' counter-narcotics 
programs in Colombia is to supply side reduction. The availability of 
illegal narcotics is reduced through destruction of the illicit crops 
that are the essential ingredients of illegal drugs in Colombia coupled 
with attacks on the narcotics processing and trafficking 
infrastructure. Crop reduction programs include forced eradication 
(through aerial spraying) and alternative development programs 
administered through USAID.
    The eradication program measures progress toward its goals by 
tracking illicit crop production estimates, provided for the U.S. 
Government by the CIA's Crime and Narcotics Center (the United Nations 
Drug Control Program separately conducts an estimate). The eradication 
program also measures progress by monitoring the number of hectares of 
illicit; crops sprayed and by estimating the effectiveness of the 
spraying as evaluated through ground truth verification of previously 
sprayed fields. These figures are then combined with processing 
efficiency estimates to estimate how much processed cocaine has been 
removed from the supply chain to U.S. and other markets for 
consumption.
    USAID gauges progress of its alternative development efforts 
through illicit crop size estimates, coupled with other performance 
measures--including the number of families that USAID programs assist 
with programs to provide legal employment and the number of hectares of 
legal crops that USAID generates through alternative development 
programs.
    Other Department of State-assisted programs support supply 
reduction by helping the Government of Colombia's security forces 
(Colombian National Police and the Colombian Armed Forces) to destroy 
laboratories where drugs are produced and to interdict narcotics 
trafficked through Colombian road, sea, and air corridors. These 
programs evaluate success with statistics recorded by the Government of 
Colombia. The leading indicators include the number of laboratories 
destroyed (both coca base and cocaine hydrochloride), and quantities of 
illicit drugs and precursor chemicals interdicted. Other important 
performance measures are the number of drug traffickers arrested in 
Colombia and the number of Colombians extradited to the United States 
for narco-trafficking offenses (through the Department of Justice's 
Multilateral case Initiative program).
    The ultimate goal of the supply side narcotics reduction strategy 
is to reduce the amount of illegal drugs available in the United 
States. Performance measures to track progress toward this goal--the 
price and purity indices alluded to in your question--also measure 
supply side efforts in other drug producing countries as well as law 
enforcement programs in the drug transit zone and on U.S. soil. These 
indices are determined by the USDEA.

    Question 1b. Please provide a summary of each ongoing 
counternarcotic program in Colombia, the baseline for these programs, 
what has been accomplished to date, and what the Department believes 
will be accomplished by these efforts should Congress provide full 
funding, and an associated timeline for these programs.
    Answer. The recently published GAO report that you solicited 
recommended that ``the Secretary of State, in consultation with the 
Secretary of Defense, establish clear objectives, including developing 
specific performance measures, and estimate future U.S. funding 
requirements for the programs with the Colombian Army and the Colombian 
National Police.'' The State Department concurs with the GAO 
recommendation and is in the process of developing revised goals, 
estimates of funding requirements, and timelines for U.S. assistance to 
Colombia for the remainder of Plan Colombia and beyond. It is our 
intention to provide this information to the Congress for consideration 
in the fiscal year 2005 appropriations cycle.

    Question 2a. The U.S. Agency for International Development has 
received approximately $350 million for alternative development for 
Colombia since fiscal year 2000. The funding information I have 
received from USAID (see attached table) provides funding levels for 
general program functions and purposes.
    Within the categories on the attached worksheet, what specific 
programs in Colombia are currently being funded through USAID and how 
much is currently being spent to run each of them?
    Answer. USAID has received $351 million for its program in Colombia 
since fiscal year 2000. These resources have been used to support three 
programs.

------------------------------------------------------------------------
 ------------------------------------------------------------------------
Strengthening Democracy.........   $99 million......   (28 percent)
Alternative Development.........   160 million......   (46 percent)
Internally Displaced Persons....    92 million......   (26 percent)
                                 ---------------------------------------
  Total.........................  $351 million......  (100 percent)
------------------------------------------------------------------------

    The attached fiscal year 2004 ARI funding worksheet shows that $150 
million has been requested for Alternative Development/Institution 
Building in Colombia. USAID will receive $122.2 million (81 percent) of 
this amount. The remaining $27.8 (19 percent) will be used to support 
Alternative Development/Institution Building projects that are 
implemented by the Department of Justice and the State Department's 
Bureaus for Population, Refugees and Migration (PRM), and for 
International Narcotics and Law Enforcement Affairs (INL). The $122.2 
million that USAID expects to receive in fiscal year 2004 from the 
Alternative Development/Institutions Building line item will be used as 
shown below.

------------------------------------------------------------------------

------------------------------------------------------------------------
Strengthening Democracy.........   $24 million......   (20 percent)
Alternative Development.........    60 million......   (49 percent)
Internally Displaced Persons....    38 million......   (31 percent)
                                 ---------------------------------------
  Total.........................  $122 million......  (100 percent)
------------------------------------------------------------------------

    Questions 2b and 2c. How much, if any, additional funding will be 
needed to see these projects (identified in A) through to their 
completion?
    What timeframe has been established for their completion?
    Answer. It will take approximately five to seven more years to 
consolidate USAID's existing alternative development achievements and 
help the Colombians expand the national government's presence into 
areas formerly controlled by illegal armed groups. USAID's resources 
will be crucial in assisting the GOC to provide alternative 
development, administration of justice, human rights and related socio-
economic assistance in areas that were here to fore neglected by the 
national government. The Department of State and AID are in the process 
of discussing future funding requirements with the GOC. As these 
discussions progress, we will be able to better specify the level of 
funding that will be needed to see our programs to a successful 
conclusion in order to consult with Congress.

    Question 2d. What measures will be used to judge the success or 
failure of these programs?
    Answer. Each USAID project has results indicators and targets for 
implementation activities that are used to determine if the project is 
on track. Illustrative indicators which USAID has used in Colombia are 
as follows:
    <bullet> Hectares of licit crops established to replace drug crops;
    <bullet> Number of social infrastructure projects completed;
    <bullet> Number of internally displaced persons assisted;
    <bullet> Number of justice houses established;
    <bullet> Number of alerts issued by the Early Warning System; and
    <bullet> Number of responses by the Colombian police, military; 
ombudsman or other government institutions to Early Warning System 
alerts.
    USAID will continue to use these indicators as long as they remain 
relevant. New indicators will be identified and adopted, as needed, to 
monitor progress and demonstrate results for existing or new 
activities.

    Question 3. We have been providing assistance to Colombia for over 
two decades. Can you please provide two or three examples of 
alternative development programs that were established in Colombia 
during that period but no longer require U.S. assistance to be 
maintained?
    Answer. USAID assistance to Colombia today is the result of 
international drug trafficking and terrorist activities that have 
almost destroyed the Colombian economy and are a serious threat to 
Colombian democracy. USAID support for Plan Colombia is not simply a 
continuation of USAID assistance over the last two decades and programs 
today bear little resemblance to USAID's Colombian programs from 1980 
to 2000.
    <bullet> USAID assistance to Colombia was scheduled to end by the 
year 2000 and was reduced to about $200,000 in fiscal year 1998.
    <bullet> Very little (if any) USAID assistance during the period 
1980-1998 was for alternative development (AD).
    <bullet> USAID support for alternative development began in 1999 
with a small program to assist poppy farmers and was greatly expanded 
in fiscal year 2001 when Plan Colombia Funds became available.
    <bullet> The USAID program since fiscal year 2001 has been highly 
successful. Significant AD achievements since fiscal year 2001 include:
        <bullet> LEstablishment of over 30,000 hectares of licit crops;
        <bullet> LProvision of AD assistance to nearly 33,000 families;
        <bullet> LVoluntary manual eradication of nearly 18,000 
        hectares of illicit crops; and
        <bullet> LCompletion of over 400 social infrastructure 
        projects.
    <bullet> Most of USAID's assistance to Colombia during the last 20 
years provided support for health and democracy programs.
    <bullet> The health sector is one example of an area in which 
previous USAID assistance had strengthened Colombian institutions to 
the point where minimal outside assistance was needed.
    <bullet> The corrupting influences of huge narco-trafficking 
operations have, however, weakened the fabric of, society and virtually 
all government institutions to the point that some observers are asking 
if additional health assistance may be necessary.

    Questions 4a and 4b. There was a considerable increase in the 
number of hectares of.coca sprayed during 2002. Much of this increased 
spraying has been attributed to the new policies put into place by the 
Uribe administration. For 2003, President Uribe has set a goal of 
spraying 200,000 hectares--almost 60,000 more than were sprayed in 
2002.
    Do you believe that this is a realistic objective, or is this a 
``stretch'' goal that we hope, but do not expect, to meet? Please 
include an assessment about what effect, if any, the loss of two spray 
planes since this goal was established has on the ability to reach this 
goal.
    If this objective is a stretch, what combination of assets and 
funding must be added to the current levels of U.S. assistance to make 
sure that the goal of eradicating 200,000 hectares is reached?
    Answer. INL's stated goal for 2003 is to spray all of the remaining 
coca in Colombia, up to 200,000 hectares. This is an ambitious target, 
but spray goals have expanded commensurate with the recent expansion of 
Government of Colombia political will mentioned in the preface to your 
question. Whether all the remaining coca in Colombia really means 
spraying 200,000 hectares depends largely on whether there are 200,000 
hectares of coca available for spraying in 2003.
    in 2002, coca eradication markedly outpaced replanting and new 
cultivation, resulting in a CNC estimate that Colombian coca 
cultivation dropped by 15 percent from the previous year (the first 
CNC-registered decline in Colombian coca cultivation in over a decade). 
The CNC estimates Colombian coca cultivation at 144,450 hectares as of 
year-end 2002. The UNDCP estimated that Colombia cultivated 1.02,000 
hectares of coca in 2002.
    Certainly, 2003 is a year of decision for coca eradication. we are 
now in a position to convince growers that nowhere in Colombia is safe 
for investing in coca. Coca eradication in 2003 is on pace to surpass 
last year's record spraying--planes have already sprayed some 71,000 
hectares of coca in Colombia as of June 24. This should allow us to 
spray more than 144,450 hectares in the CNC estimate, meaning that 
planes can return to some areas more than once--to discourage 
replanting and new cultivation.
    We are concerned about the loss of two spray aircraft and have 
noted a sharp rise in the levels of hostile fire that the spray planes 
receive from the ground (planes have received 204 impacts to date this 
year, already surpassing the entire year totals for 2001 and 2002). 
However, we still have sufficient fixed wing (and related helicopter) 
assets to maintain spray operations from three spray bases 
consecutively. Congress has provided $15 million, through the 2003 
counter-terrorism supplemental, to sustain increased eradication and 
will fund the purchase of replacement spray aircraft.
    Barring additional, unfortunate accidents, our fleet of aircraft 
should allow us to target Colombia's decreasing illicit crop, even as 
we face the law of diminishing returns. 2002 and early 2003 levels of 
eradication will be hard to sustain over time, as field dispersal, 
smaller fields, and aircraft range limitations will require that planes 
have to fly more to spray less.

    Question 5a. I understand that the 200,000 hectares scheduled to be 
eradicated next year is part of a larger strategy by the U.S. Embassy 
in Bogota to move coca cultivation in Colombia to a ``manageable 
level'' of about 30,000 hectares.
    Is this strategy a written document with periodic benchmarks and 
other measures to ensure that the strategy is on track? if so, please 
include a copy for the record.
    Answer. Initial Plan Colombia eradication goals were drafted under 
the previous Colombian Administration and contained more modest 
assumptions about the amount of spraying that the Government of 
Colombia would allow. As stated in the Department's answer to your 
question 1(b) above, the Department is leading an interagency review of 
Plan Colombia andintends to provide this information to the Congress 
for consideration in the fiscal year 2005 appropriations cycle. An 
updated eradication strategy with eradication goals and benchmarks to 
gauge progress will be a fundamental part of that revised assessment.

    Question 5b. What role did the Government of Colombia play in 
arriving at the conclusion that our ultimate objective should be to 
reduce coca production in Colombia to this manageable level?
    Answer. The U.S. Embassy in Bogota maintains a constant dialog with 
the Government of Colombia on counternarcotics policy and operations, 
including the setting of goals for U.S.-supported counter-narcotics 
programs. This coordination will continue as we determine goals and 
objectives, benchmarks for success, required resources, and a new 
timeline.

    Question 5c. What resources (planes, funding, etc.) are expected to 
be necessary to ``manage'' coca production at this level?
    Answer. As per the Department's answer to 5(A) above, this 
information will be provided to the Congress for consideration in the 
fiscal. year 2005 appropriations cycle.

    Question 6a. Protection of the basic human rights of all 
individuals in Colombia is an important priority of the United States. 
In addition, Congress has placed some restrictions on the assistance 
that we provide Colombia in an attempt to encourage human rights 
reforms.
    Are the current human rights restrictions (commonly known as the 
``Leahy Amendment'') on U.S. assistance adequate to ensure that funding 
is not being used for actions that violate human rights?
    Answer. The Leahy Amendment has been an effective tool to help us 
identify problem individuals and units within Colombia's security 
forces. Those receiving U.S. assistance and training are being 
thoroughly vetted by all relevant U.S. Government agencies to ensure 
that such assistance is not provided to human rights violators.

    Question 6b. Are the current restrictions overly burdensome to the 
implementation of U.S.-funded programs?
    Answer. Vetting foreign security forces can be a lengthy process, 
involving both the Embassy in Bogota and the Department of State in 
Washington. U.S. funded training at times has been delayed by vetting 
requirements. We do not consider this an obstacle but rather an example 
of the seriousness we place on human rights vetting.

    Question 6c. How successful do you believe the human rights 
training programs have been in reducing violations in the Colombian 
Military?
    Answer. USG-funded human rights training programs have placed human 
rights concerns firmly on the agenda of our bilateral security 
relationship, and have helped create a culture of respect for 
fundamental rights among military and police officials. Rights 
violations by State actors continue to occur, but on a far smaller 
scale than in years in which U.S. security assistance was minimal.

    Question 6d. Have these changes been made institutionally--that is, 
are they permanent? If so, are the restrictions created by the Leahy 
Amendment still needed?
    Answer. A commitment to severing military-AUC ties exists at the 
highest levels of the Colombian government. President Uribe and senior 
Colombian officials have stated repeatedly stressed the importance of 
respect for human rights and taken actions to back up their commitment 
to improve performance in this area. The Government of Colombia has 
responded more aggressively to cases where members of the Colombian 
military committed human rights violations. Most recently, a Colombian 
judge sentenced retired Army Colonel Lino Sanchez to 40 years in prison 
for conspiring with far right paramilitaries to massacre 30 peasants in 
1997. This sentence is considered one of the heaviest ever levied 
against such a high-ranking Colombian military officer.
    There is more that must be done. while the majority of human rights 
violations in Colombia continue to be committed by the Revolutionary 
Armed Forces of Colombia (FARC), the National Liberation Army (ELN) and 
the Self Defense Forces of Colombia (AUC), a small portion of human 
rights violations can still be traced to the Colombian military. The 
Leahy Amendment is a useful mechanism that helps the U.S. identify 
problem individuals and units and focus the attention of the Government 
of Colombia on the issue. We are committed to human rights and continue 
to underscore this issue with Colombian officials.
                                 ______
                                 
 Questions Submitted to Colombia Hearing (Classified Answers are Being 
                      Retained in Committee Files)
            Colombia Hearing Questions to be Submitted--DoD
    Question 1. United States assistance for the helicopter program was 
originally supposed to end in 2006 when the Colombian Military was to 
assume complete control. That deadline has been pushed back 
indefinitely.
    <bullet> What steps are being taken to re-establish this time line?
    <bullet> What recommendations have been made to create an internal 
capacity within the Colombian Military to foster the successful 
assumption of program control?

    Question 2. Protection of the basic human rights of all individuals 
in Colombia is an important priority of the United States. In addition, 
Congress has placed some restrictions on the assistance that we provide 
Colombia in an attempt to encourage human rights reforms.
    <bullet> Are the current human rights restrictions on U.S. military 
aid adequate to ensure that funding is not being used for actions that 
violate human rights, and are they overly burdensome?
    <bullet> How successful do you believe the human rights training 
programs have been in halting violations in the Colombian military?
    <bullet> Do you believe these changes have been made 
institutionally--that is, are they permanent?

    Question 3. After a very successful year in 2001, the productivity 
of the Counter-Narcotics Brigade diminished significantly in 2002. In 
response, the Brigade was reorganized and their area of operations was 
expanded to include all of Colombia. In support of this shift, the U.S. 
agreed to provide advanced training to take advantage of the expanded 
function areas.
    <bullet> Please provide an update on the current status of this new 
training. In particular, highlight the new capabilities the Brigade 
should have once the training is complete.
    <bullet> Does this new training, take advantage of the expanded 
authorities the Senate reauthorized for 2 years in the 2004 Defense 
Authorization Act?
    <bullet> How has the Counter-Narcotics Brigade been integrated with 
the rest of the Colombian military operations?

    Question 4. Both the Colombian National Police and the Colombian 
military have noted successes in forcing cocaine-processing facilities 
to move from one area of the country to another. In my view, this is a 
measure of activity, not of success which would be the reduction of 
coca processing throughout the region. However, this cannot happen 
until the Government of Colombia fully regains control of the 
countryside.
    <bullet> Is it possible, with our current levels of assistance to 
Colombia, for the Colombian military and police to significantly deter 
and reduce the creation of new coca labs throughout Colombia?
                                 ______
                                 
       Colombia Hearing Questions to be Submitted--Jess Ford, GAO
    Question 1. Mr. McLean's testimony touches briefly on the ``balloon 
effect.'' While coca production in Colombia has decreased, it has 
slightly increased in other countries of the region.
    <bullet> Do you believe there is more that we should be doing today 
to prevent the spread or re-emergence of coca cultivation outside 
Colombia?
    <bullet> Given that we live in a world of limited resources and 
based on your familiarity with the region and understanding of the 
current situation, do you believe that some of our funding and efforts 
currently directed toward Colombia should be redirected to other drug 
producing countries in the region?
                                 ______
                                 
    Colombia Hearing Questions to be Submitted--Phillip McLean, CSIS
    Question 1. Currently, the various guerilla forces have control 
over approximately 40 percent of the countryside which impedes the 
ability of both the Colombian and U.S. governments to implement 
programs in many regions of the country. You have described the 
Colombian government's struggle to gain control as more of a campaign 
against lawlessness than a war.
    <bullet> How central is the elimination of lawlessness to our 
efforts to eliminate narcotics production? Should our efforts and 
attention be refocused away from eradication and toward a campaign to 
end this lawlessness?

    Question 2. Your testimony touches briefly on the ``balloon 
effect.'' While coca production in Colombia has decreased, it has 
slightly increased in other countries of the region.
    <bullet> Do you believe there is more that we should be doing today 
to prevent the spread or re-emergence of coca cultivation outside 
Colombia?
    <bullet> Given that we live in a world of limited resources and 
based on your familiarity with the region and understanding of the 
current situation, do you believe that some of our funding and efforts 
currently directed toward Colombia should be redirected to other drug 
producing countries in the region?
                                 ______
                                 
Questions Submitted by Senator Joseph R. Biden, Jr. for the Record for 
                              General Hill
    Question 1. As you know, the 2002 supplemental appropriations bill 
changed long-standing policy that limited the use of U.S.-provided 
equipment to counter-narcotics missions by giving Colombia authority to 
use the equipment for counter-insurgency purposes.
    <bullet> To what extent is this new authority being used?
    <bullet> What types of missions are being carried out under this 
new authority?
    <bullet> To what degree is the counter-insurgency authority 
distracting from the counter-drug mission?
    <bullet> What is the decisionmaking process in the Embassy for 
approving missions that do not involve a direct counter-narcotics 
mission?

    Question 2. According to the report that the General Accounting 
Office (GAO) released at the hearing, there have been numerous problems 
with pilot and mechanic training as well as pilot retention: Pilots are 
not showing up for training; qualified Colombian pilots are not being 
assigned to flying missions; and trained pilots are not remaining in 
the program. The report contends that the U.S. must, as a result, spend 
$150 million a year to sustain ongoing operations with contractors.
    <bullet> How can we get enough pilots trained if we can't even get 
them to show up?
    <bullet> What can we do to keep the pilots we train in the program? 
Why do you think they are dropping out?
    <bullet> When do you think the Colombian military will be able to 
operate without extensive U.S. assistance? When will we be able to 
scale back on aid to the military?
                                 ______
                                 
      Colombia Hearing Questions to be Submitted--State Department
    Question 1. The United States has spent well over $2.5 billion 
since 2000 to assist Colombia in its fight against narco-trafficking 
but with only limited success.
    <bullet> What performance measures are being used by the State 
Department to assess the success or failure of U.S. funded programs?
    <bullet> What is the ultimate objective for our counter-narcotics 
assistance programs in Colombia?

    Question 2. The U.S. Agency for International Development has 
received over $350 million for alternative development since FY2000.
    <bullet> What alternative development projects have been identified 
and what timeframe has been established for their completion?
    <bullet> How much, if any, additional funding will be needed to see 
these projects through to their completion?
    <bullet> What goals and purposes have been established for each of 
these alternative development projects and how successful have the 
programs been in meeting their goals to date?
    <bullet> We have been providing assistance to Colombia for over 2 
decades. What programs have we helped the Government of Colombia set up 
that no longer require U.S. assistance?

    Question 3. There was a considerable increase in the number of 
hectares of coca sprayed during 2002. Much of this increased spraying 
has been attributed to the new policies put in place by the Uribe 
administration. For 2003, President Uribe has set a goal of spraying 
200,000 hectares--almost 60,000 more than were sprayed in 2002.
    <bullet> Do you believe this is a realistic objective, or is this a 
``stretch'' goal that we hope, but do not expect, to meet?
    <bullet> If this objective is a stretch, what combination of assets 
and funding must be added to the current levels of U.S. assistance to 
make sure that the goal of eradicating 200,000 hectares of coca is 
reached?

    Question 4. I understand that the 200,000 hectares scheduled to be 
eradicated next year is part of a larger strategy by the U.S. Embassy 
in Bogota to move coca cultivation in Colombia to a ``manageable 
level''.
    <bullet> Is this strategy a written document with periodic 
benchmarks and other measured to ensure that the strategy is on track?
    <bullet> Has this strategy been agreed to by the Government of 
Colombia?
    <bullet> Can a copy of the strategy be provided to the members of 
this Caucus?

    Question 5. I understand that as part of the eradication strategy 
for Colombia, the threshold of 30,000 hectares of coca cultivation is 
being considered a ``manageable level''.
    <bullet> Can you please define what a ``manageable level'' of coca 
production is and how this amount was determined to be a ``manageable 
level''?
    <bullet> What resources (planes, funding, etc.) are expected to be 
necessary to ``manage'' coca production at this level?

    Question 6. The Colombian National Police Anti-Narcotics 
Directorate has noted successes in forcing cocaine-processing 
facilities to move from one area of the country to another. In my view, 
these should not be considered successes because the cocaine is still 
being produced but the facility has simply changed its location.
    <bullet> What, if anything, is being done to completely shut down 
the labs?

    Question 7. Protection of the basic human rights of all individuals 
in Colombia is an important priority of the United States. In addition, 
Congress has placed some restrictions on the assistance that we provide 
Colombia in an attempt to encourage human rights reforms.
    <bullet> Are the current human rights restrictions on U.S. military 
aid adequate to ensure that funding is not being used for actions that 
violate human rights, and are they overly burdensome?
    <bullet> How successful do you believe the human rights training 
programs have been in halting violations in the Colombian Military?
    <bullet> Do you believe these changes have been made 
institutionally--that is, are they permanent?
  

                                <greek-d>

</pre></body></html>
